           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2002
       FINANCIAL STATEMENTS

    02-AUD-08-16        January 31, 2003




        Office of Inspector General

                   *******

    Federal Communications Commission
                                         OFFICE OF INSPECTOR GENERAL
                                                                        MEMORANDUM




DATE:          January 31, 2003

TO:            Chairman
               Managing Director
               Chief Financial Officer

FROM:          Inspector General

SUBJECT:       Audit of the Federal Communications Commission’s
               Fiscal Year (FY) 2002 Financial Statements


This letter transmits Clifton Gunderson LLP’s (hereafter referred to as “CG-LLP”) report
on its FY 2002 financial statement audit of the Federal Communications Commission
(FCC) and the results of the Office of Inspector General’s (OIG) review thereon.

At the direction of the Department of the Treasury, FCC prepared consolidated financial
statements in accordance with Office of Management and Budget (OMB) Bulletin No.
01-09, Form and Content of Agency Financial Statements, and subjected them to audit.
The Chief Financial Officers Act of 1990 (Public Law 101-576 referred to as the “CFO
Act”), amended, requires the FCC OIG, or an independent external auditor as determined
by the Inspector General, to audit agency financial statements in accordance with
Government Auditing Standards issued by the Comptroller General of the United States.
Under a contract monitored by the OIG, CG-LLP, an independent public accounting firm,
performed the audit of FCC’s FY 2002 financial statements.


OIG Evaluation of CG-LLP’s Audit Performance

To fulfill our audit responsibilities under the CFO Act for ensuring the quality of the
audit work performed, we conducted a review of CG-LLP’s audit of FCC’s FY 2002
financial statements in accordance with Government Auditing Standards and OMB
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

Specifically, we:

       •       reviewed CG-LLP’s approach and planning of the audit,
       •       evaluated the qualifications and independence of its auditors,
       •       monitored progress of the audit at key points,
       •       examined working papers and audit documents to evaluate compliance
               with Government Auditing Standards,
       •       reviewed CG-LLP’s audit reports to ensure compliance with Government
               Auditing Standards and OMB Bulletin No. 01-02, and
       •       performed other procedures we deemed necessary.

Based on the results of our review, we determined CG-LLP planned, executed, and
reported the results of its audit of FCC’s FY 2002 financial statements in accordance with
applicable auditing standards. Therefore, in our opinion, CG-LLP’s work provides a
reliable basis for the firm’s opinion on FCC’s FY 2002 financial statements. Based on
our review of the audit, we concur with CG-LLP’s finding of reportable conditions
related to internal control and instances of noncompliance with applicable laws and
regulations. Accordingly, we concur with its reports thereon.



Opinion on the Financial Statements

CG-LLP issued an unqualified opinion on FCC’s FY 2002 consolidated balance sheet,
statement of net cost, statement of changes in net position, statement of financing,
combined statement of budgetary resources, and statement of custodial activity. CG-LLP
opined, except for the effects of such adjustments to the FY 2001 consolidated balance
sheet and the statements of net cost, if any, as might have been necessary had CG-LLP
been able to perform adequate audit procedures on the Local Number Portability
Administration reporting entity, Universal Service Fund’s collections and disbursements,
and program costs’ allocation referred to in the explanatory paragraphs, the financial
statements and related notes referred to above present fairly, in all material respects, the
financial position of the FCC as of September 30, 2002 and 2001, its net cost and
custodial activity for the years then ended; and its changes in net position; budgetary
resources; and reconciliation of net cost to budgetary resources for the year ended
September 30, 2002 in conformity with accounting principles generally accepted in the
United States of America.



Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in
OMB Bulletin No. 01-02, CG-LLP identified matters relating to significant deficiencies
in the design or operation of FCC’s internal control that, in its judgment, could aversely
affect FCC’s ability to record, process, summarize, and report financial data consistent
with the assertions by management in the financial statements. Specifically, these
matters where categorized as material weaknesses and reportable conditions per
definitions of the American Institute of Certified Public Accountants.



                                             2
Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relating to the financial
statements may occur and not be detected within timely period by the employees in the
normal course of performing their assigned functions. CG-LLP identified material
weaknesses in the areas of:

       •       Financial Reporting
       •       Cost Accounting System
       •       Universal Service Fund Financial Reporting
       •       Auction Related Subsidiary System
       •       FCC Loan Subsidiary Legers
       •       Information Technology

CG-LLP identified additional reportable conditions not considered to be material
weaknesses, which include:

       •       Accounts Receivable and Related Revenues
       •       Auction Revenue Recognition Policy
       •       Revenue in Proper Accounting Period
       •       Obligation and Accounts Payable Activities
       •       Payroll Activities
       •       Debt Collection Improvement Act Reporting
       •       Compliance with Certain Aspects of the Clinger-Cohen Act of 1996
       •       OMB Circular Nos. A-127 and A-130 Reviews
       •       Federal Managers’ Financial
               Integrity Act of 1982 Compliance and Reporting


Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements, CG-LLP performed tests of compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 01-02, including the requirements referred
to in the Federal Financial Management Improvement Act of 1996. As appropriate, CG-
LLP limited its tests of compliance to these provisions and it did not test compliance with
all laws and regulations applicable to FCC.

CG-LLP’s tests disclosed instances of noncompliance with specific laws and regulations
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-
02 as follows:



                                            3
       •      Chief Financial Officers Act of 1990
       •      OMB Circular No. A-129, Polices for Federal Credit Programs and Non-
              Tax Receivables
       •      Debt Collection Improvement Act of 1996
       •      Prompt Payment Act
       •      Government Performance and Results Act of 1993
       •      Federal Financial Management Improvement Act of 1996

In accordance with generally accepted government auditing standards, the Independent
Auditor’s Report prepared by CG-LLP is dual dated, January 3, 2003 and January 27,
2003, the last days of audit fieldwork.

Should you or your staff have any questions, please contact me or Thomas Bennett,
Assistant Inspector General for Audit, on (202) 418-0470. We appreciate the courtesies
and cooperation extended to Clifton Gunderson LLP and to the OIG staff during the
conduct of the audit and review.



[signed]


                                           H. Walker Feaster, III
                                           Inspector General


Attachment




                                           4
TABLE OF CONTENTS




TRANSMITTAL MEMORANDUM


SECTION I             INDEPENDENT AUDITOR’S REPORT

      Opinion on the Financial Statements                                        2


SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL

      Material Weaknesses:

      I.       Financial Reporting                                               2

               A. Integrated Financial Management Systems                        3

               B. Federal Financial System Setup and Posting Model Definitions   6

               C. Timely Recording and Analysis of Financial Activities          7

               D. Supervisory Review of the Universal Service Fund,
                  Telecommunications Relay Service, and North American
                  Numbering Plan Reporting Process                               8

      II.      Cost Accounting

               A. Cost Accounting System                                         10

               B. Cost Finding Techniques                                        11

               C. Matching Revenues to Costs                                     14

      III.     Universal Service Fund Financial Reporting                        15

               A. Accounting and Reporting Controls                              15

               B. Controls Over Universal Service Fund Disbursements to
                  “At Risk” Service Providers                                    17

      IV.      Auction Related Subsidiary System                                 17




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page i
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      V.       Federal Communications Commission Loan Subsidiary Ledgers          19

               A. Loan Subsidiary System                                          19

               B. Loan Subsidiary Ledger Non-Financial Information                22

               C. Re-Auctioned Licenses                                           23

      VI.      Information Technology                                             23

               A. Compliance with OMB Circular No. A-130 Requirement
                  for a Comprehensive Security Plan                               23

               B. Inadequacies and Inconsistencies in the Mainframe
                  and Network Access Request Process                              26

               C. Accelerate Efforts to Develop and Test FCC’s
                  Contingency Plans                                               27

      Reportable Conditions:

      VII.     Accounts Receivable and Related Revenues                           29

               A. Regulatory Fees                                                 29

      VIII.    Auction Revenue Recognition Policy                                 30

      IX.      Revenue in Proper Accounting Period                                32

      X.       Obligation and Accounts Payable Activities                         33

               A. Accounting for Obligation                                       33

               B. Accounting for Accounts Payable                                 34

      XI.      Payroll Activities                                                 34

      XII.     Debt Collection Improvement Act Reporting                          36

      XIII.    Compliance with Certain Aspects of the Clinger-Cohen Act of 1996   37

      XIV.     OMB Circular Nos. A-127 and A-130 Reviews                          39

      XV.      Federal Managers’ Financial Integrity Act of 1982
               Compliance and Reporting                                           40




02-AUD-08-16           REPORT ON THE FEDERAL COMMUNICATIONS                        Page ii
                       COMMISSION’S FY 2002 FINANCIAL STATEMENTS
TABLE OF CONTENTS


       Status of Prior Year Comments

                  •   Condition – Internal Controls on the Preparation of the
                                  Financial Statements                          42

                  •   Condition – Changes in Accounting for Program Costs       42

                  •   Condition – Auditable Financial Data for the Local
                                  Number Portability Administration             42

                  •   Condition – Federal Agencies Centralized Trial-Balance
                                   System Reporting Process                     43

                  •   Condition – Controls Surrounding Data Used in the
                                  Preparation of the Management Discussion
                                  And Analysis                                  43

                  •   Condition – Supporting Documentation and Controls on
                                   Property and Equipment                       43


SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS

       Chief Financial Officers Act of 1990                                      2

       OMB Circular No. A-129, Policies for Federal Credit Programs and
       Non-tax Receivables                                                       3

       Debt Collection Improvement Act of 1996                                   3

       Prompt Payment Act                                                        4

       Government Performance and Results Act of 1993                            4

       Federal Financial Management Improvement Act of 1996                      5




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                       Page iii
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
TABLE OF CONTENTS



SECTION IV           FEDERAL COMMUNICATIONS COMMISSION
                     FISCAL YEAR 2002 ANNUAL FINANCIAL REPORT

      Management’s Discussion and Analysis                         1

      Consolidated Balance Sheet                                  56

      Consolidated Statement of Net Cost                          57

      Consolidated Statement of Changes in Net Position           59

      Combined Statement of Budgetary Resources                   60

      Consolidated Statement of Financing                         61

      Consolidated Statement of Custodial Activity                62

      Notes to Consolidated Financial Statements                  63

      Required Supplementary Information                          96

      Other Accompanying Information                             107


SECTION V            STATUS OF RECOMMENDATIONS
                     FROM PRIOR YEAR FINANCIAL STATEMENT AUDIT


SECTION VI           ACRONYMS & ABBREVIATIONS




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS         Page iv
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
         SECTION I

INDEPENDENT AUDITOR’S REPORT
SECTION I                      INDEPENDENT AUDITOR’S REPORT




                                    Independent Auditor’s Report


To the Inspector General of the
Federal Communications Commission


We have audited the accompanying consolidated balance sheet of the Federal
Communications Commission (FCC) as of September 30, 2002 (FY 2002) and 2001 (FY
2001), the related consolidated statements of net cost and custodial activity for the years
then ended; and the consolidated statement of changes in net position, combined
statements of budgetary resources, and consolidated statements of financing for the years
ended September 30, 2002 (collectively the financial statements). These financial
statements are the responsibility of the FCC’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

Except as discussed in the following paragraphs, we conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall principal
statements’ presentation. We believe our audits provide a reasonable basis for our
opinion.


Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




02-AUD-08-16                   REPORT ON THE FEDERAL COMMUNICATIONS                  Page 1
                               COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION I              INDEPENDENT AUDITOR’S REPORT



The FCC’s Office of the General Counsel (OGC) determined that for FY 2001, Local
Number Portability Administration (LNPA) met the indicative criteria to be included as
an FCC reporting entity as set forth in Statement of Federal Financial Accounting
Concepts No. 2, Entity and Display. LNPA was not included as a reporting entity in the
FCC’s FY 2001 financial statements. The FCC was not able to provide adequate
financial information to enable us to perform adequate audit procedures to determine the
materiality of this reporting entity; nor were we able to satisfy ourselves by other auditing
procedures. The FCC’s OGC reevaluated the status of FCC’s reporting entities and
concluded that for FY 2002 LNPA did not meet the indicative criteria and therefore, is
not included as an FCC reporting entity.

FCC changed its method of accounting and financial statement presentation of the
Universal Service Fund’s (USF) collections and disbursements late in the FY 2001 audit
process. For FY 2001, we were not able to obtain adequate documentation to support
earned revenues of $5,353 million and program costs of $4,981 million; nor were we able
to satisfy ourselves as to these amounts by performing other auditing procedures.

Beginning in FY 2001, FCC changed its financial statement presentation of FCC program
costs from four programs to five programs. In FY 2001, we were not able to adequately
verify the allocation of the program costs, nor were we able to satisfy ourselves by
performing other auditing procedures.

In our opinion, except for the effects of such adjustments to the FY 2001 consolidated
balance sheet and statement of net cost, if any, as might have been necessary had we been
able to perform adequate audit procedures on the LNPA reporting entity, USF’s
collections and disbursements, and program costs’ allocation referred to in the preceding
paragraphs, the financial statements and related notes referred to in the first paragraph,
present fairly, in all material respects, the financial position of the FCC as of September
30, 2002 and 2001, its net cost and custodial activity for the years then ended; and its
changes in net position; budgetary resources; and reconciliation of net cost to budgetary
resources for the year ended September 30, 2002 in conformity with accounting
principles generally accepted in the United States of America.

As discussed in Note 7, Direct Loans, Non-Federal Borrowers, FCC changed, at the
request of the OMB, the discount rates it used to calculate subsidy re-estimates from the
weighted average of comparable Treasury rates at the time of loan disbursement or grant
date to the actual annual average discount rate.

Also, as discussed in Note 29, Comparability of the Statements, several reporting changes
were made during FY 2002 that impacted the comparability of the FY 2002 and FY 2001
financial statements. FCC included the North American Numbering Plan as a reporting
entity in FY 2002. In addition, based on new guidance from the Department of the
Treasury, Financial Management Service, the FCC reported the amount collected in the




02-AUD-08-16           REPORT ON THE FEDERAL COMMUNICATIONS                            Page 2
                       COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT



Department of the Treasury interest receipt account as a custodial collection and a
transfer in the FY 2002 statement of custodial activity. The FY 2001 balances were not
restated for these changes.

In accordance with Government Auditing Standards, we have also issued our reports
dated January 3, 2003 on our consideration of the FCC’s internal control over financial
reporting, and on our tests of the FCC’s compliance with certain provisions of laws and
regulations. Those reports are an integral part of our audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

Our audits were made for the purpose of forming an opinion on the basic financial
statements taken as a whole. The Management Discussion and Analysis and Required
Supplemental Information are not a required part of the basic financial statements but are
supplementary information required by OMB Bulletin No. 01-09, Form and Content of
Agency Financial Statements. The Other Accompanying Information is presented for the
purposes of additional analysis and is not a required part of the financial statements. We
have applied certain limited procedures to such information, which consisted principally
of inquiries of FCC management regarding the methods of measurement and presentation
of the supplementary information. However, we did not audit the information and
express no opinion on it.

a1
Calverton, Maryland
January 3, 2003, except for Note 31,
as to which the date is January 27, 2003




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 3
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
         SECTION II

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
SECTION II                     INDEPENDENT AUDITOR’S
                               REPORT ON INTERNAL CONTROL




                         Independent Auditor’s Report on Internal Control


To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission
(FCC) as of and for the year ended September 30, 2002, and have issued our report
thereon dual dated January 3, 2003 and January 27, 2003. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.

In planning and performing our audit, we considered FCC’s internal control over
financial reporting by obtaining an understanding of FCC’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) (31
U.S.C. 3512), such as those controls relevant to ensuring efficient operations. The
objective of our audit was not to provide assurance on internal control. Consequently, we
do not provide an opinion on internal control.

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




02-AUD-08-16                   REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                               COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we noted certain
matters discussed in the following paragraphs involving the internal control and its
operation that we consider to be reportable conditions and material weaknesses.

Finally, with respect to internal control related to performance measures reported in
FCC’s Management Discussion and Analysis, we obtained an understanding of the
design of significant internal controls relating to the existence and completeness
assertions, as required by OMB Bulletin No. 01-02. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

                        ********************************

MATERIAL WEAKNESSES

I.     Financial Reporting (Modified Repeat Condition)

       The Chief Financial Officers Act of 1990 (CFO Act) assigned responsibility for
       developing and maintaining integrated accounting and financial management
       systems including financial reporting and internal control to each Federal agency.
       OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements,
       defines the form and content of financial statements to be prepared by each
       agency. To accomplish the objective of complying with the CFO Act, the agency
       is required to develop a system to prepare a complete set of financial statements
       on a timely basis in accordance with generally accepted accounting principles
       (GAAP). The statements are to result from an accounting system that is an
       integral part of a total financial management system containing sufficient
       structure, effective internal control, and reliable data. Financial reporting also




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      consists of policies and procedures related to the processing and summarizing of
      accounting entries and the preparation of financial statements.

      FCC’s financial reporting process has significantly improved over the last couple
      years. However, the continued reliance on inadequate financial management
      systems, as in prior years, results in a material weakness in financial reporting.

      A. Integrated Financial Management Systems (Modified Repeat Condition)

          OMB Circular No. A-127, Financial Management Systems, requires that each
          agency establish and maintain a single integrated financial management
          system. Without a single integrated financial management system to ensure
          timely and accurate financial data, poor policy decisions may occur due to
          inaccurate or untimely information. Managers are less likely to be able to
          report accurately to the President, Congress, and the public on Government
          operations in a timely manner. In addition, scarce resources are more likely to
          be directed toward the collection of information rather than to delivery of the
          intended programs.

          Having a single, integrated financial management system does not necessarily
          mean having only one software application covering all financial management
          systems needs within an agency. Also, it does not mean that all information is
          physically located in the same database. Rather, a single, integrated financial
          management system is a unified set of financial systems linked together
          electronically in an efficient and effective manner to provide agency-wide
          financial system support. Integration means that the user is able to have one
          view into systems such that, at whatever level the individual is using the
          system, he or she can obtain needed information efficiently and effectively
          through electronic means. Interfaces are acceptable as long as the supporting
          detail is maintained and accessible to managers. Interface linkages must be
          electronic unless the number of transactions is so small that it is not cost
          beneficial to automate the interface. Easy reconciliations between systems,
          where interface linkages are appropriate, must be maintained to ensure data
          accuracy.

          FCC’s consolidated financial statements were compiled and prepared from
          four separate core financial systems administered by four separate entities. At
          financial statement preparation time, FCC goes through the exercise of
          compiling financial data in separate spreadsheets in a complex and time-
          consuming process. The financial data included in the spreadsheets is
          consolidated for financial statement preparation.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 3
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



               •   FCC’s Core Financial System
                   FCC utilizes the Federal Financial System (FFS) as its general ledger
                   and core financial management system. FFS is not capable of
                   generating most user reports for data analysis on a real time basis. To
                   compensate for FFS’s limitations, FCC uses a software application to
                   download data from FFS for its analysis. Other financial management
                   systems used at FCC include the property management system, loan
                   model spreadsheets, license databases, fee billings and collection
                   systems, cost system, and various spreadsheet applications. None of
                   these financial management systems are integrated. Also, FCC’s fee
                   collection system is not linked to its licensing databases, making it
                   difficult for FCC to perform routine automated checks on whether all
                   licensees have paid their regulatory fees.

                   FCC has on-going efforts over the last three years to strengthen its
                   financial management systems. FCC management expects to achieve
                   some level of financial management systems’ integration by
                   implementing the Revenue Accounting and Management Information
                   System (RAMIS). RAMIS is designed to integrate, among others, the
                   direct loan system, fee billing and collection systems, fines and
                   forfeitures, licensees’ databases, and the interface with FFS. RAMIS,
                   however, was still not fully operational at September 30, 2002. As of
                   September 30, 2002, only four of the seven modules were completed
                   and parallel testing of the three modules remained in progress.

               •   Universal Service Fund (USF), the Telecommunications Relay
                   Services Fund (TRS) and the North America Numbering Plan (NANP)
                   Core Financial Systems
                   The USF, TRS, and NANP general ledger systems do not interface
                   with FCC’s own accounts receivable sub-ledger, accounts payable
                   sub-ledger, or cash systems. In addition, each of these sub-systems is
                   an independent system or is comprised of spreadsheets. Monthly,
                   accounting transactions from various systems are summarized in
                   spreadsheets for data entry into FCC’s general ledger system.

                   The USF, TRS, and NANP general ledger systems are also not United
                   States Standard General Ledger (USSGL) compliant. There are no
                   budgetary entries in these general ledgers. FCC prepares a crosswalk
                   of the USF, TRS, and NANP proprietary accounts to USSGL.

                   OMB Bulletin No. 01-09 states, “When the reporting entities of which
                   these components are a part, issue consolidated or consolidating



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 4
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



                 statements that include such components, GAAP for Federal entities
                 shall be applied to these components.”

      Recommendation:

      1. Focus on meeting RAMIS milestones and ensure that all target dates are met.
         Document the plan outlining the steps taken (i.e., processes, data stewardship,
         management information, systems architecture, and internal control) to meet a
         unified set of financial systems linked together electronically in an efficient
         and effective manner to provide agency-wide financial system support.

      Management Comment:

      Management concurs. The effort to develop an integrated financial system has
      been ongoing since FY 1998. A major part of that effort is the implementation of
      RAMIS. In conjunction with RAMIS, FCC selected an outside loan processor
      whose system will interface directly with FFS and replace the current spreadsheet
      models used to account for loans. FCC selected a new cost accounting system
      that will be fully integrated with the existing core financial system. The cost
      accounting system will be implemented during FY 2003 and is expected to be
      operational for FY 2004.

      Recommendation:

      2. Assess the degree of integration needed in the USF, TRS, and NANP financial
         systems. Develop plans to integrate each of the USF, TRS, and NANP
         financial systems so that they will meet the requirements of OMB Circular
         No. A-127 and the Federal Financial Management Improvement Act of 1996
         (FFMIA).

      Management Comment:

      Management concurs. FCC is working with the reporting entities to address the
      need for systems integrations to meet the requirement of the OMB Circular No.
      A-127 and the FFMIA.

      Recommendation:

      3. Implement Federal GAAP accounting, including budgetary accounting, for the
         USF, TRS, and NANP to facilitate compliance with Federal financial
         reporting requirements.




02-AUD-08-16        REPORT ON THE FEDERAL COMMUNICATIONS                          Page 5
                    COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC is responsible for incorporating into its consolidated
      statements the financial information concerning a variety of non-traditional
      Federal programs, most notably the USF, TRS, and NANP. The administrators of
      these funds do not currently maintain the funds in accordance with standard
      accounting guidelines over Federal funds. Thus, forcing the agency to take
      extraordinary efforts to express the financial activities of these reporting
      components, which were accounted for under standards for not-for-profits, into
      standards for Federal funds. The most notable issues being the lack of budgetary
      accounting and fund obligation policies. FCC concurs with the recommendation
      that FCC instruct the administrators of these funds to account for the funds under
      generally accepted accounting principals over Federal government funds as long
      as these funds are included in the consolidated financial representations of the
      agency.

      B. Federal Financial System Setup and Posting Model Definitions (Modified
         Repeat Condition)

          In fiscal year 2002, FCC continues to have problems with the FFS system
          setup and posting model definitions. These problems result in non-
          compliance with the transaction posting models consistent with USSGL
          guidance and policies when recording and classifying some transactions.
          Although FCC had already addressed a number of issues related to the
          transaction-posting model, our audit noted several instances of incorrect
          transaction posting logic. This system deficiency may continue to impair the
          quality and reliability of the financial management information even though
          the incorrect entries identified were corrected at year-end.

      Recommendations:

      4. Continue to update and correct FFS system setup and posting model
         definitions to comply with the transaction posting models consistent with
         USSGL guidance and policies for recording and classifying transactions.
         Ensure changes made to FFS are tested and accepted before entering
         production.

      5. Continue to review all frequently used transaction types and transaction codes
         to ensure the accounting entries (budgetary and proprietary) are correct.




02-AUD-08-16        REPORT ON THE FEDERAL COMMUNICATIONS                          Page 6
                    COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC maintains copies of the most recent Treasury
      Financial Manual and receives updates from Financial Management Service
      (FMS) that it uses to identify USSGL account and posting model changes.
      Additional posting model changes have been identified. However, the FCC has
      not had the resources needed to complete required analysis to effect the changes
      in a timely manner. We plan to prioritize and address these changes in FY 2003.

      C. Timely Recording and Analysis of Financial Activities (Modified Repeat
         Condition)

          Transaction level activities are not recorded to the general ledger and/or
          subsidiary ledger on a timely basis and analysis of several activities is
          inadequate. Although FCC’s interim (June 30, 2002) financial statements
          were more complete this year when compared to prior year in terms of
          reported accounting transactions, several significant transactions are recorded
          through period-end journal voucher entries or through the use of “on-top”
          financial statement adjustments. For example, loan activities (principal and
          interest receivable, interest revenue and application of collections) for the
          whole year were recorded using a journal voucher entry at year-end.

          Not recording or delayed recording of transactions diminishes the value of
          financial management reports for decision-making purposes. Standards for
          Internal Control in the Federal Government issued by the General Accounting
          Office (GAO) page 15 states that “Transactions should be promptly recorded
          to maintain their relevance and value to management in controlling operations
          and making decisions.”

      Recommendation:

      6. Record and analyze financial transactions at least once a month or more
         frequently as appropriate.

      Management Comment:

      Management concurs. The conversions to RAMIS and an outside loan processor
      in FY 2003 will automate several receipt posting processes that currently are
      performed manually. The conversion will allow FCC to post transactions more
      timely and update the core system more frequently.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 7
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      D. Supervisory Review of the USF, TRS, and NANP Financial Reporting
         Process (Modified Repeat Condition)

          FCC did not apply adequate review procedures to ensure that financial
          information provided for the USF, TRS, and NANP, collectively mentioned
          herein as the reporting entities, are accurate, reasonable, and properly
          supported prior to inclusion in the FCC consolidated financial statements.
          However, FCC communicated with the reporting entities’ management
          regarding consolidation efforts. Nevertheless, some errors and adjustments
          relating to the USF were identified only as a result of the audit process.

          FCC management is responsible for obtaining reasonable assurance on the
          completeness and the reliability of the reporting entities’ financial reporting
          and their compliance with laws and regulations before their financial
          information is consolidated into the FCC consolidated financial statements.

      Recommendation:

      7. Conduct a comprehensive review of the reporting entities’ accounting policies
         to ensure their policies are acceptable and in compliance with FCC’s policies.
         In addition, FCC should include appropriate accounting guidelines that will
         ensure that the reporting entities obtain FCC concurrence for any accounting
         policy changes.

      Management Comment:

      Management concurs. Communication between reporting components and FCC
      were enhanced during FY 2002 and will continue for FY 2003. Monthly
      meetings are held to discuss open issues as they relate to the financial reporting
      aspects of the consolidated entity, which have been instrumental in structuring the
      financial reporting process. FCC will complete its policies and procedures and
      will include review processes performed before the consolidation of the financial
      data into the financial statements.

      Recommendation:

      8. Ensure that the reporting entities’ financial information provided by the
         entities’ administrators are reviewed for accuracy, reasonableness, and
         propriety prior to incorporation in the FCC consolidated financial statements.
         Improve two-way open communications allowing the entities’ administrators
         to review financial information included in the FCC consolidated financial
         statements.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 8
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. The FCC continued to develop stronger communication
      and reporting lines with all of its reporting components in FY 2002. As a result of
      adjustments identified from the audit, policies and procedures to address the
      errors will be reviewed and updated. Currently FCC does not allocate staff to
      reviewing the financial representation of its reporting components. The need for
      this level of activity is under review.

      Recommendation:

      9. Document clearly the legal, financial, and operational boundaries of FCC,
         USF, TRS, NANP, and the entities’ administrators. With the assistance of
         FCC Office of the General Counsel (OGC) and the entities’ administrators,
         FCC management needs to formally define in writing each entity’s financial
         management role and responsibility to avoid confusion and misunderstanding.

      Management Comment:

      Management concurs. FCC’s OGC provides guidance on the inclusion of
      reporting components for financial reporting purposes and other legal and
      operational boundaries.        No formal document outlining the roles and
      responsibilities of all the “involved” staff has been prepared. However, in FY
      2003, FCC will prepare formal documentation to be provided to all staff playing a
      part in the compilation and audit of the financial statements.

      Recommendation:

      10. Expand and document a formal financial reporting compilation process that
          adequately addresses the processes and issues for consolidating the USF, TRS,
          and NANP.

      Management Comment:

      Management concurs. FCC will complete the policies and procedures manual for
      Financial Reporting and will incorporate the compilation process requirements of
      FCC and its reporting components.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 9
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



II.   Cost Accounting (Modified Repeat Condition)

      A. Cost Accounting System (Modified Repeat Finding)

          In fiscal year 2002, FCC continued to lack a cost accounting system that (1)
          collects and reports the costs of FCC’s activities and programs accurately and
          timely, and (2) meets the Joint Financial Management Improvement
          Program’s (JFMIP) System Requirements for Managerial Cost Accounting.

          FCC’s cost accounting system has not been a fundamental part of the financial
          management system. Although cost reports are generated and distributed to
          various FCC bureaus and offices, the reliability of these reports is
          questionable due to the lack of review of the cost allocation methodology and
          formulas, and the lack of review of the proper application of the cost
          accounting activity codes. Because the cost accounting system is inadequate,
          FCC management does not use its reports in preparing financial statements or
          analyzing program costs.

          As in prior years, in order to prepare the Statement of Net Cost (SNC) by
          program, FCC downloaded program costs from FFS into a spreadsheet
          application. FCC used these spreadsheets and implemented cost finding
          techniques to allocate costs to FCC’s six programs. See related finding in IC
          Report, Section II.B.

          FCC identified its responsibility segments for cost allocation purposes, but did
          not determine its related outputs and did not calculate the related output costs
          for its responsibility segments as part of its cost methodology. Also, the cost
          system could not provide information for performance measurement.

          Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
          Managerial Cost Accounting Concepts and Standards for the Federal
          Government, requires reporting entities to perform a minimum level of cost
          accounting and provide basic cost information necessary to accomplish the
          many objectives associated with planning, decision making, and reporting.
          This minimum level includes collecting cost information by responsibility
          segments, measuring the full cost of outputs, providing information for
          performance measurement, integrating both cost accounting and general
          financial accounting by using the USSGL, providing useful information, and
          accommodating any of management’s special cost information needs that may
          arise due to unusual or special situations or circumstances.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 10
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          Without a cost accounting system to centrally accumulate, organize and
          timely report cost data in a format that meets management’s current needs,
          such information is not readily available for use by managers to aid in
          routinely managing costs and in decision making. Also, FCC could not
          measure the full costs of outputs; could not institute a reporting frequency that
          was timely and on a regular basis since cost allocation was only made at year-
          end; and had not integrated both managerial cost accounting and general
          financial accounting utilizing the USSGL.

      Recommendations:

      11. Ensure that the cost systems to be developed or acquired meet the minimum
          requirements outlined in the JFMIP system requirements.

      12. Determine outputs for all responsibility segments as required and calculate the
          cost per unit of each type of output.

      13. Document the costing methodologies and processes in a formal policy and
          procedure manual or handbook. Management should determine the cost
          objects to define, the costing methodology to use, the type of costs to include
          for reporting, or decision making purposes (i.e., full cost), and other items of a
          similar nature.

      Management Comment:

      Management concurs. The current cost accounting system was designed before
      FCC faced meeting the requirements of SFFAS No. 4 and was designed to meet
      budgetary requirements and accounting requirements of the original regulatory
      fee and auctions program. Realizing the need for a more comprehensive and
      integrated cost accounting system, FCC selected a new cost accounting system in
      FY 2002. The new system has the capability to meet not only financial and
      performance requirements, but also bureau specific requirements. The FCC will
      implement the new system during FY 2003 and is expected to be operational for
      FY 2004. Until the new system is implemented, FCC will continue to rely on cost
      finding techniques like those performed in FY 2002.

      B. Cost Finding Techniques

          In fiscal year 2001, the audit opinion on FCC’s SNC was qualified due to the
          auditor’s inability to verify the cost allocation resulting from FCC’s change
          from four reporting entity programs to five entity programs [the addition of
          Spectrum Management (SM)] and USF. To compensate for the inadequate




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                            Page 11
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          cost accounting system and to address the qualification on the SNC, FCC
          instituted cost finding techniques in fiscal year 2002 to collect the costs of the
          additional programs - SM and USF.

          In implementing these cost finding techniques, FCC modified FFS to
          accumulate cost data forming the basis for program cost allocation. This new
          approach used several specific processes to establish the actual costs
          associated with the SM and the USF in the fourth quarter, and used the fourth
          quarter actual costs to estimate the SM and the USF costs for the first three
          quarters.

          We found that implementation of these cost-finding techniques,
          simultaneously during the operating fiscal year, required significant resources
          and extraordinary efforts which may not have been necessary if project
          planning had commenced earlier. Although FCC was aware of the change in
          programs before the beginning of the fiscal year, it did not implement its cost
          finding techniques for SM and USF until the fourth quarter. The timing of
          this implementation led to management difficulty in monitoring progress and
          reviewing deliverables.

          Monitoring progress

          There was little management acknowledgement of the errors associated with
          the new process, no analysis to assess the severity of the errors or potential
          impact, and no qualifying statements informing the reader of data limitations
          attributable to errors when providing information to those who will use the
          information for decision-making, accounting, or reporting. Additionally, the
          initial costing methodology for fiscal year 2002 did not address significant
          issues communicated from the prior fiscal year audit relating to: mitigating
          the risk of incorrect costing for programs when aspects of program definitions
          and functions were identical or similar, validating non-personnel costs with
          the newly created codes and related code changes, and accounting for
          reporting component costs in the consolidated financial statements.

          Additionally, FCC did not provide the Office of Inspector General (OIG) the
          cost allocation methodology timely to allow requested review and feedback
          before management’s use for analytical review of period data. Management
          provided the resulting analytical review a day after receipt of the
          methodology. FCC was also unable to provide a list of supervisors who sign
          the bi-weekly timecards. Another listing used in the costing methodology for
          verification purposes was determined, after use in the costing techniques, to




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                            Page 12
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          be outdated and not relative to the verification step to which it was applied.
          These lists supported cost-finding techniques.

          GAO Standards for Internal Control in the Federal Government state,
          “Internal control monitoring should generally be designed to assure that
          ongoing monitoring occurs in the course of normal operations. It includes
          regular management and supervisory activities, comparisons, reconciliations,
          and other actions people take in performing their duties.”

          Reviewing deliverables

          Documentation of the costing process provided for audit contained
          discrepancies and errors. FCC’s new processes and results were not
          sufficiently documented, as well as, key management assumptions and
          decisions contained in the costing methodology were not documented or
          summarized until late in the process. And, USF costs were never formally
          defined and documented, leaving it for self interpretation by FCC employees
          to report.

          GAO Standards for Internal Control in the Federal Government state, “It
          [internal control] comprises the plans, methods, and procedures used to meet
          missions, goals and objectives and, in doing so, supports performance-based
          management.” Internal control should provide reasonable assurance that the
          objectives of the agency, such as the effectiveness and efficiency of operations
          including the use of the entity’s resources, are being achieved.

          Although we were eventually able to satisfy ourselves with the reasonableness
          of the program allocations, most of the internal control deficiencies relating to
          the cost finding techniques could have been alleviated had the efforts been
          undertaken earlier in the fiscal year.

      Recommendations:

      14. Evaluate the adequacy of the modified cost-finding techniques in
          accumulating and allocating costs, matching revenue, accounting and
          generating financial information as they are applied in fiscal year 2003.

      15. Ensure that cost finding techniques are sufficiently documented and
          supported.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 13
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



      16. Provide clear, consistent and uniform terminology and definition of each
          program, especially the USF. Clearly document and outline direct costs that
          should be charged to each program.

      17. Continue training employees on the proper use of the revised activity codes
          and emphasize the importance of properly coding their time. Ensure that
          appropriate employees of bureaus and offices fully understand the importance
          of properly classifying costs and are trained on the proper application of the
          activity codes.

      Management Comment:

      Management concurs. The original cost accounting project was envisioned for
      implementation for fiscal year 2003.              Management accelerated the
      implementation in an attempt to provide some reasonable form of cost accounting
      data for fiscal year 2002. We agree the fiscal year 2002 documentation and other
      considerations needed strengthening. The process will be refined for FY 2003.

      The cost finding techniques used to accomplish the cost allocation project were
      adequate to accomplish the task of accurately reflecting the costs of the five
      activities of the FCC, the USF/TRS, NANP, and Credit Reform. The FCC will
      review the processes from fiscal year 2002 and, where necessary, provide updates
      and reminders to staff on the new cost codes. FCC will use the same cost
      methodology applied in fiscal year 2002 for fiscal year 2003 as we work to
      implement the new cost accounting system.

      C. Matching Revenues to Costs (Repeat Finding)

          FCC allocated earned revenues in the same proportion as allocated costs
          instead of matching related revenues to costs. SFFAS No. 7, Accounting for
          Revenue and Other Financing Sources and Concepts for Reconciling
          Budgetary and Financial Accounting, states, “related revenue should be
          matched with the cost.” Specific earned revenue should be matched against
          specific program costs in accordance with the program costs and revenue
          description in the budget submission to Congress.

      Recommendation:

      18. Review the propriety of the costing methodology and the matching of earned
          revenue against costs (costing methodologies).




02-AUD-08-16        REPORT ON THE FEDERAL COMMUNICATIONS                         Page 14
                    COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       Management Comment:

       Management concurs. FCC will address this issue as part of its approach to
       establish the new cost accounting system for FY 2004. Until that time, the FCC
       will review alternative processes for FY 2003.

III.   USF Financial Reporting (Modified Repeat Condition)

       A. Accounting and Reporting Controls (Modified Repeat Finding)

          The USF is a special receipt fund and a special account expenditure fund
          administered by Universal Service Administrative Company (USAC). USAC
          provides FCC with specific financial information on a monthly basis for
          external reporting and financial statement consolidation purposes. The USF
          financial operations are maintained independently of FCC. FCC relies heavily
          on USAC’s financial reporting controls and processes for the USF (see related
          finding IC Report, Section I.D.).

          In fiscal year 2002, significant control weaknesses in USAC’s financial
          reporting controls and processes include:

               •   Use of ad hoc spreadsheets to account for the USF activities and
                   transactions,
               •   Inconsistent definition and accounting for similar transactions
                   throughout the year,
               •   Untimely recording of the accounting transactions and events,
               •   Failure to apply dual entry accounting at the transaction level,
               •   Non-recording of the budgetary journal entries,
               •   Inadequate supervisory review of the financial information, and
               •   Supporting documentation for activities such as disbursements was not
                   readily available for audit.

           GAO Standards for Internal Control in the Federal Government state,
           “Internal control activities help ensure that management’s directives are
           carried out. The control activities should be effective and efficient in
           accomplishing the agency’s control objectives.” Examples of control
           activities include proper execution of transactions and events, accurate and
           timely recording of transactions and events, and appropriate documentation
           of transactions and internal control.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 15
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



      Recommendation:

      19. Update an accounting system where dual entry method and budgetary
          accounting entries, when appropriate, are recorded at the transaction level.

      Management Comment:

      Management concurs. Management felt that dual accounting is performed at the
      summary level, but not necessarily at the transaction level within the accounting
      system. A review of the detail and summary level postings of accounting
      transactions will be performed to identify any issues and ensure that dual entry
      accounting is performed.

      Recommendation:

      20. Update accounting policies and procedures to ensure consistent accounting
          application and consistent definition of transactions.

      Management Comment:

      Management concurs. USAC and the USF accountants have procedures and
      controls in effect that are designed to prevent errors, and they will continue to
      review their existing policies and procedures and update them as necessary to
      ensure consistent accounting applications and definition of transactions.

      Recommendation:

      21. Establish and perform supervisory reviews to ensure that reports and financial
          data received from USAC contractors are supported, accurate, reasonable and
          that transactions are properly and consistently classified and recorded.

      Management Comment:

      Management concurs. Supervisory review is of paramount importance to USAC.
      Review occurs on several levels. Reviews and approvals are conducted prior to
      monthly closing and after closing takes place. Periodic variance analysis is
      considered an important part of the accounting process. All disbursements are
      approved prior to release of the payment. FCC will work with USAC to review
      internal controls.




02-AUD-08-16        REPORT ON THE FEDERAL COMMUNICATIONS                         Page 16
                    COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      B. Controls Over USF Disbursements to “At Risk” Service Providers

          USF maintains a disbursement watch list of service providers under
          investigation for various reasons. Invoices submitted by these “at risk”
          service providers are to be placed either in a “hold” status or “do not disburse”
          status. During our audit, we noted that at least one service provider in the “do
          not disburse” status received payment.

          GAO Standards for Internal Control in the Federal Government states,
          “Internal control should generally be designed to assure that ongoing
          monitoring occurs in the course of normal operations. It is performed
          continually and is ingrained in the agency’s operations. It includes regular
          management and supervisory activities, comparisons, reconciliation, and other
          actions people take in performing their duties.”

      Recommendations:

      22. Tighten controls to ensure that immediate communication to appropriate
          parties is made regarding service providers that are placed in the watch list.

      23. Compare payments to be made against the disbursement watch list prior to
          releasing the payment, or institute a payment system flagging the service
          providers in the “do not disburse” list.

      Management Comment:

      Management concurs. Controls and procedures to monitor “at risk” providers
      exist and more are to be provided. Authorizations from qualified staff can and do
      allow for the payment of eligible invoices within the “do not disburse” criteria.
      These controls have been strengthened by the addition of a step in the process
      whereby the originator of the indicator receives confirmation that the action has
      been applied.

IV.    Auction Related Subsidiary System

      The sale and related activities of spectrum auction licenses are tracked and
      accounted for in a subsidiary ledger system that is comprised of numerous
      manually prepared spreadsheets. A detailed summarized spreadsheet contains
      auction by auction information such as gross winning bids, net winning bids, first
      down payment from upfront payments, additional first down payment paid,
      penalties, second down payment paid, outstanding balance, collections, deferred




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 17
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



      revenue, transferred to revenue, and revenue. These spreadsheets are the basis for
      recording the auction related transactions at year-end.

      During our test work, a formula error was noted in one of the spreadsheets in
      calculating the collections that should have been transferred from deferred
      revenue to revenue. With the volume of individual licenses and the complexity of
      these formula driven spreadsheets, the risk of errors is high. Such risks include:

          •    Formulas can be changed easily, affecting the flow through the rest of the
               spreadsheets,
          •    Difficulty in tracking changes made to spreadsheets, including formula
               changes,
          •    Difficulty in verifying that correct changes were made,
          •    Difficulty in verifying that changes made were authorized,
          •    Transactions unique to few licenses are difficult to incorporate, and
          •    Difficulty in performing automatic checks and balances on the
               transactions in the spreadsheets.

          OMB Circular No. A-127 prescribes policies and standards in developing,
          operating, evaluating and reporting on financial management systems. One of
          the system requirements specifically identified in Section 7 states that agency
          financial management systems shall comply with agency-wide financial
          information classification structure. “The design of financial management
          systems shall reflect an agency-wide financial information classification
          structure that is consistent with the USSGL, provides tracking of specific
          program expenditures, and covers financial and financially related
          information. This structure will minimize data redundancy, ensure that
          consistent information is collected for similar transactions throughout the
          agency, encourage consistent formats for entering data directly into the
          financial management systems, and ensure that consistent information is
          readily available and provided to internal managers at all levels within the
          organization.”

      Recommendation:

      24. While the spreadsheets are used as the detailed records, periodically and
          haphazardly select detail auction subsidiary records for testing to determine
          that the formulas are calculating the correct amounts and the calculated
          amounts can be supported by the underlying transaction and documentation.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 18
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. During FY 2003, and until the process is operational in
      RAMIS, FCC will perform periodic review of the spreadsheet and its data for
      accuracy.

      Recommendations:

      25. Develop and implement policies and procedures for the use and review of the
          auction subsidiary spreadsheets. These policies should include, but not be
          limited to:

               •   Allowing only limited users to make changes to the files,
               •   Requiring changes made by authorized users to be verified and
                   authorized by another person, and
               •   Periodic reconciliation that verifies auction totals is being accurately
                   captured and reported in the worksheets.

      26. Implement control features in the spreadsheet software, such as cell locking,
          using a data entry form, worksheet and/or password protections, and others.

      Management Comment:

      Management concurs. FCC generated the spreadsheet in FY 2002 and that file is
      now located on a shared drive. The file created is a secure file and access is
      limited to a limited number of authorized users. This process was implemented to
      minimize errors and limit write access capabilities while working within a manual
      process. With the implementation of the Auctions module of RAMIS in FY 2003,
      all the information that is currently being captured in the auction spreadsheets will
      transition to RAMIS at which time the proper interfaces will be in place to capture
      the auction activity in an automated environment. In addition, RAMIS will be
      able to capture the financial history of the license through re-auctions,
      disaggregations, and partitions when a financial transaction is involved. Policy
      and procedure manuals will be written and distributed within FCC on the
      Auctions module of RAMIS.

V.     FCC Loan Subsidiary Ledgers (Modified Repeat Finding)

      A. Loan Subsidiary System (Modified Repeat Finding)

          FCC’s loan subsidiary ledger system is comprised of loan models, which are
          elaborate and complex spreadsheets with configuration settings and



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 19
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



          information for original and adjusted loan principal, quarterly billed interest,
          suspension interest, payment data, and application of payments, among other
          items. These loan models (1) document the loan terms as determined by
          FCC’s rules and official loan documents; (2) recalculate loan balances for
          financial statement reporting purposes; and, (3) serve as the cash flow model
          data for the loan subsidy model calculator. These loan models, instituted as a
          temporary measure, were developed as the loan subsidiary system in fiscal
          year 1999.

          The applications applied in these spreadsheets have been implemented to their
          maximum potential use, thereby creating some problems in addition to the
          inherent limitations in a spreadsheet-based application, such as:

               •   Configuration settings can be changed easily. Alteration of relevant
                   configuration settings used in loan balance calculations could produce
                   significantly different results. Once one user alters a setting, it would
                   be difficult for another user to know what changes were made unless
                   the user is notified.
               •   Separate spreadsheets are generated at year-end to account for the
                   interest receivable earned but not yet billed. Interest receivable earned
                   includes interest receivable on active or defaulted loans after the last
                   billing date, but before the next billing date. The loan models were not
                   developed to calculate the interest earned as of a cut-off date if it
                   differed from the billing date.
               •   The loan model incorrectly calculated late fee receivable balance for
                   two loans tested due to a spreadsheet formula error.

          Generally, the entire loan review process continues to be manually intensive.
          Interest receivable is recalculated independently each year based on the status
          of the loans at year-end. Interest revenue is determined at year-end based on
          an analysis of the prior and current year receivable, collections and
          adjustments instead of recognizing interest as it is earned. Therefore, the risk
          of error in this temporary solution (i.e., spreadsheet-based loan models) is
          higher as a result of the conditions described above.

          JFMIP’s Direct Loan System Requirements, state that a direct loan system
          interact with the core financial system to perform fund control checks, initiate
          or record payments, record the results of other direct loan-related financial
          transactions, and acknowledge receipt of financial information exchange. It
          must be able to perform automatic system balancing to ensure that direct loan
          partners are able to agree on transaction number and dollar values passed,
          processed and rejected. This automated balancing includes cumulative



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 20
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          subsidiary account balancing to the general ledger. The direct loan system
          must be able to support managerial cost accounting. These internal
          management information system requirements establish compliance for credit
          management and financial reporting systems with standards provided in OMB
          Circular Nos. A-34, Instructions on Budget Execution; A-123, Management
          Accountability and Control; A-127, Financial Management Systems; and A-
          129, Policies for Federal Credit Programs and Non-Tax Receivables.

          FCC’s plan to replace these loan models with RAMIS since fiscal year 2000
          has not materialized. As of September 30, 2002, RAMIS was still not a system
          of record for loans. Consequently, FCC continued to use these spreadsheet-
          based loan models in fiscal year 2002 as its loan subsidiary system with the
          assistance of consultants.

          FCC had also contracted with a loan servicing firm to service its loan
          portfolio. While the loan servicing firm had started performing services in
          fiscal year 2002, FCC had not decided whether RAMIS or the loan servicing
          systems will be the official system of records.

      Recommendation:

      27. Continue with thorough and regular reviews and analysis of activities included
          and excluded in the loan models until RAMIS and/or the loan servicing
          become operational.

      Management Comment:

      Management concurs. During FY 2002, FCC continued its extensive work on
      reviewing the entire loan portfolio to ensure the results of the conversions during
      transition. We will continue to perform those reviews until the final conversion to
      the new provider is complete.

      Recommendation:

      28. Ensure that the loan subsidiary system being tested (RAMIS) and/or the loan
          servicing system is capable of interfacing with other financial management
          systems and meets all applicable requirements in the Direct Loan System
          Requirements issued by JFMIP.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 21
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. Both RAMIS and the new loan service provider systems
      have the capability of interfacing with FFS. For the past year we have been
      testing the interface between the new loan service provider and FFS and initiated
      “live” transactions subsequent to the close of FY 2002.

      B. Loan Subsidiary Ledger Non-Financial Information

          Our audit disclosed instances where loan information in the loan subsidiary
          ledgers was incorrect. This information included incorrect maturity date(s)
          and incorrect repayment date(s) which differed between the loan documents
          on file and the subsidiary ledgers.

          GAO Standards for Internal Control in the Federal Government state,
          “Internal control activities help ensure that management’s directives are
          carried out. The control activities should be effective and efficient in
          accomplishing the agency’s control objectives.” Examples of control
          activities are proper execution of transactions and events, accurate and timely
          recording of transactions and events and appropriate documentation of
          transactions.

      Recommendation:

      29. Perform a complete review of the accuracy of the non-financial data in the
          loan subsidiary system or ensure that data converted to RAMIS or to the loan
          servicer’s system is accurate.

      Management Comment:

      Management concurs. Loan subsidiary ledger non-financial information is
      compared against the actual loan documents to ensure the spreadsheets, RAMIS
      and loan service provider’s system accurately reflect the terms of the agreed upon
      installment note. To minimize the probability of errors in the loan records, a
      reconciliation and analysis of the differences between the various loan-servicing
      systems are performed on an on-going basis. Reports from the spreadsheets,
      RAMIS, and loan service provider’s system are compared to determine if loan
      balances and non-financial information are accurate.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 22
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      C. Re-Auctioned Licenses

          Each loan agreement allows FCC to cancel a debtor’s license after they
          become delinquent in their loan payments and are in a default status for a
          period of time. Some of these cancelled licenses were re-auctioned and the
          proceeds from the re-auction were considered recovery of the outstanding
          delinquent loan in calculating the loan subsidy cost under the Federal Credit
          Reform Act of 1990. The outstanding loan receivable from the debtor whose
          license was cancelled remained on the books. FCC could not provide a
          complete schedule of cancelled licenses with outstanding loan balances and
          the recovery (proceeds or receivable) from the re-auction of these licenses.

          GAO Standards for Internal Control in the Federal Government state, “All
          transactions and other significant events need to be clearly documented, and
          the documentation should be readily available for examination... All
          documentation and records should be properly managed and maintained.”

      Recommendation:

      30. Create a database linked to RAMIS or the future loan subsidiary system to
          create an audit trail (or record) of licenses with delinquent loans cancelled
          then re-auctioned, and the proceeds or receivable from the re-auction. While
          RAMIS is not yet operational, FCC should create and maintain a
          comprehensive schedule that will provide this information.               The
          comprehensive schedule should be subjected to a quality control review and a
          reconciliation should be performed on a periodic basis.

      Management Comment:

      Management concurs. FCC began a project in FY 2002 to inventory outstanding
      licenses, including those licenses that were taken back from licensees as a result
      of non-compliance. In instances where a license is recovered and resold, the FCC
      does not relieve the original debtor of its debt until debt forgiveness is approved.

VI.    Information Technology (IT) (Modified Repeat Condition)

      A. Compliance with OMB Circular No. A-130 Requirement for a
         Comprehensive Security Plan (Modified Repeat Condition)

          Some of the key components of an entity-wide security program are the
          performance of risk assessments and the development of a comprehensive
          security plan. Every organization needs a set of management procedures for




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 23
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



          identifying and assessing risks, and deciding what policies and controls are
          needed to achieve effective security controls.

          OMB Circular No. A-130, Management of Federal Information Resources,
          Appendix III, “Security of Federal Automated Information Resources,” as
          revised in November 2000, established a minimum set of controls for federal
          agencies, including risk assessments, assigning responsibility for security,
          security planning, periodic review of security controls, and management
          authorization of systems to process information.

          Deficiencies in security controls that significantly impact FCC’s ability to
          protect its sensitive or critical resources include:

               •   FCC has not completed the development and implementation of its
                   entity-wide security program plan. However, FCC plans to complete
                   its entity-wide security program plan by June 2003.
               •   FCC has not completed nine of its nineteen risk assessments for its
                   major applications and mission-critical general support systems.
               •   FCC has finalized seventeen security plans for certification and
                   accreditation. Two additional security plans are in development.
               •   There is no routine review of security controls over FCC’s systems. In
                   addition, FCC has not completed any formal certification and
                   accreditation of its systems.
               •   FCC does not have adequate audit trails facility utilization and review.
                   The Computer Security Officer (CSO) has not developed and
                   distributed a Commission-wide policy to make mandatory the use of
                   audit trails utilization and review.

      Recommendation:

      31. Develop and implement an FCC-wide security plan as prescribed by OMB
          Circular No. A-130.

      Management Comment:

      Management concurs. FCC anticipates an agency-wide security plan will be
      prepared by June 2003.

      Recommendation:

      32. Conduct current risk assessments for the two FCC general support systems
          and seven major applications.



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 24
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. As part of the Security Test and Evaluation process
      performed in FY 2002, risk assessments were performed on major applications
      and are included in the certification and accreditation package for those
      applications. The risk assessments will be followed by a vulnerability assessment
      that will include all FCC general support systems and remaining major
      applications.

      Recommendation:

      33. Develop and implement security plans for FCC’s two newly identified major
          application systems and mission-critical general support systems.

      Management Comment:

      Management concurs. Security plans for these systems have been scheduled to be
      completed or developed. Security plans have been completed on all major
      applications with the exception of one owned by another Federal agency. That
      agency has given the FCC assurance statements about the security of the system
      in lieu of a security plan. FCC, as a customer of the agency, is not authorized to
      have copies of the plan, as it breeches the agency’s security policy.

      Recommendation:

      34. Certify and accredit FCC’s major applications and general support systems
          based on the security plans developed and implemented.

      Management Comment:

      Management concurs. FCC’s CSO is working to review and to re-write
      certification packages to bring them into compliance with Federal requirements
      and best practices. The initial review of the current certification and accreditation
      packages is to be complete by April 2003.

      Recommendation:

      35. Establish a system to periodically review security controls over FCC’s
          computer systems in accordance with OMB Circular No. A-130, Appendix
          III.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 25
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC is establishing a tracking system of its computer
      systems based on their effective last review date and indication of upcoming
      review dates in order to effectively schedule timely reviews of the security
      controls over FCC’s computer systems in accordance with OMB Circular No. A-
      130, Appendix III. This tracking system will be completed by February 2003.

      Additionally, FCC is continuing to conduct reviews of the security controls for
      major applications in accordance with the requirements set forth in OMB Circular
      No. A-130, Appendix III, and FCCINST 1479.2 FCC Directive, Computer
      Security Program.

      Recommendation:

      36. Enhance audit trail facility utilization and review.

      Management Comment:

      Management concurs. FCC is creating system-auditing policies and procedures to
      include the use of an audit log server. FCC will also establish procedures to
      support the audit review process and ensure that audit logs are reviewed on an as-
      needed basis. FCC anticipates completion of the auditing policy and procedures
      by May 2003.

      B. Inadequacies and Inconsistencies in the Mainframe and Network Access
         Request Process (Repeat Condition)

          FCC does not consistently apply access request processes stipulated in FCC’s
          policy, FCCINST 1479.2 FCC Directive, Computer Security Program, which
          provides guidelines to grant network access in a consistent fashion.
          Inadequacies and inconsistencies in the network access request process could
          have a direct impact (including the granting of inappropriate access rights and
          privileges granted to incompatible duties and the inability to enforce agency-
          wide access controls policies) in the overall system-wide security program.
          FCC has addressed this issue by developing corrective action plans, but has
          not established procedures to create adequate controls over users’ access into
          FCC’s network and major applications.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 26
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Recommendation:

      37. Address inadequacies and inconsistencies in the mainframe and network
          access request process.

      Management Comment:

      Management concurs. FCC’s CSO is developing a program, including policies
      and procedures, to routinely verify that adequate controls are in place and
      routinely tested as part of the process to grant FCC network and mainframe access
      with the Commission’s Business Partner locations. The FCC CSO has reviewed
      several of the Commission’s Business Partner locations for mainframe and
      network access request processes. The FCC CSO is planning additional visits in
      FY 2003 to account for those locations that were not included on the initial review
      or that were added since the initial review. These reviews should be completed
      by September 2003.

      C. Accelerate Efforts to Develop and Test FCC’s Contingency Plans (Repeat
         Condition)

          Losing the capability to process and protect information maintained on FCC’s
          computer systems can significantly impact FCC’s ability to accomplish its
          mission. The purpose of service continuity controls is to ensure that, when
          unexpected events occur, critical operations continue without interruption or
          are promptly resumed. FCC does not have (1) procedures in place to protect
          information resources and minimize the risk of unplanned interruptions;
          neither does FCC have (2) a plan to recover critical operations should
          interruptions occur. FCC is not in compliance with OMB Circular No. A-130
          Appendix III and Federal Information Processing Standards Publications
          (FIPS PUBS) 87, Guidelines for ADP Contingency Planning.

          This weakness was reported in fiscal year 1999, and except for the Auctions
          network, FCC has not completed the development and documentation of a
          comprehensive disaster recovery and business continuity plan. FCC has
          procured contractor assistance in completing this task.

          The deficiencies reported in prior years will continue to exist until FCC
          completes and tests the effectiveness of the security plan being developed.
          The service continuity control deficiencies, listed below, could affect FCC’s
          ability to respond to a disruption in business operations as a result of a disaster
          or other long-term emergency.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                            Page 27
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



               •   FCC has not formally identified and prioritized all critical data and
                   operations on its major applications and the resources needed to
                   recover them, if there is a major interruption or disaster.
               •   FCC has not formally identified and prioritized all critical data and
                   operations on its networks and the resources needed to recover them, if
                   there is a major interruption or disaster. In addition, we could not
                   determine whether FCC had established emergency processing
                   priorities that will help manage disaster situations more effectively for
                   the network.
               •   FCC has not integrated the contingency plans of its data centers,
                   networks and telecommunication facilities in a comprehensive disaster
                   recovery plan.

      Recommendation:

      38. Develop and test contingency plans for FCC’s major applications, networks,
          and telecommunications facilities.

      Management Comment:

      Management concurs. FCC has taken corrective action by engaging in a major
      effort to prepare contingency plans for its major applications, networks, and
      telecommunication facilities. The facility portion of the contingency plan has
      been completed and is awaiting completion of the contingency plan, which is
      scheduled for completion in April 2003.

      Recommendation:

      39. Obtain written documentation from FCC’s data centers of developed and
          tested contingency plans and participate in the scheduled tests of the plans.

      Management Comment:

      Management concurs. In November 2002, FCC successfully tested and
      demonstrated the Continuity of Operations Planning Network (COOPNet), phase
      one of the Information Technology Center (ITC) contingency plan. The
      COOPNet provides for key personnel desktop resources that are needed for
      business continuity at the Commission’s COOP site. FCC will continue to test
      portions of the contingency plan as they become available and funding allows. In
      addition, the CSO will coordinate testing and enhancement of Commission’s
      Business Partner COOPs as they become available and funding allows. Written




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 28
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



       verification will be requested of test results from both tested FCC and
       Commission’s Business Partner contingency plans.

       Recommendation:

       40. Develop a comprehensive contingency plan that integrates the individual
           plans of its data centers, networks, and telecommunications facilities.

       Management Comment:

       Management concurs. The contingency plan will be integrated with the facility
       contingency plan and will include major applications to form a comprehensive
       plan for FCC. Both contingency plans should be completed and ready for review
       and approval by April 2003. In addition, work will be scheduled to ensure that
       the FCC is involved in its major business center COOP testing process.

REPORTABLE CONDITIONS

VII.   Accounts Receivable and Related Revenues (Modified Repeat Condition)

       A. Regulatory Fees (Modified Repeat Condition)

          The Omnibus Budget Reconciliation Act of 1993 requires FCC to collect
          regulatory fees to offset certain costs incurred in regulating its industry. The
          legislation also gives FCC the authority to establish the regulatory fees to
          achieve the amount set in the appropriation. In addition, it authorizes FCC to
          charge a late payment penalty and to dismiss applications or revoke licenses
          for non-payment of the fees, and waive, reduce, or defer payment of a fee for
          good cause.

          As noted in prior years, FCC’s fee collection database was not linked to its
          licensing databases, making it difficult for FCC to perform routine automated
          checks on whether all licensees paid their regulatory fees. FCC initiated
          corrective actions by implementing the Commission Registration System
          (CORES), a commercial off-the-shelf software that assigns a specific FCC
          Registration Number (FRN) to a licensee to track all transactions related to
          that license. The FRN needs to be populated in RAMIS, and eventually
          linked to all the databases in each bureau or office within FCC. While
          RAMIS was used for some financial operations in fiscal year 2002, it was not
          the system of record for regulatory fees. FCC continues to identify non-
          payers of regulatory fees through a time-consuming effort comparing payers
          listed in spreadsheets with the bureaus’ databases. The delay in implementing




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 29
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          RAMIS continued to delay implementation of a system that will allow FCC to
          better assess and identify its non-paying licensees and make its process more
          efficient and effective.

          In addition, FCC did not have an agency-wide policy regarding actions that
          should be taken by the bureaus when a regulatory fee has not been paid. This
          results in inaction or inconsistent treatment of the regulatory fee non-payers
          by the bureaus.

      Recommendation:

      41. Ensure that RAMIS, when fully operational, could generate user reports such
          as non-payers of regulatory fees.

      Management Comment:

      Management concurs. During FY 2002, the FRN became mandatory and is now
      tracked through the licensing systems and RAMIS. The RAMIS database will be
      used to identify non-payers of regulatory fees through the open accounts
      receivable which will be cross referenced against the licensing systems for any
      new or additional non-payers not identified from prior years billings.

      Recommendation:

      42. Develop and implement an agency-wide policy the bureaus and the Financial
          Operations Center (FOC) should follow when regulatory fee non-payers are
          identified.

      Management Comment:

      Management concurs. On December 12, 2002, the FCC published [in the Federal
      Register] a Notice of Proposed Rule Making in order to amend Part 1 of the
      Commission’s rules Implementing the Debt Collection Improvement Act of 1996
      and adopting rules governing applications or request for benefits by delinquent
      debtors. Once these rules are adopted, the FCC will modify its processes to ensure
      that before granting a benefit there will be a check to see if any outstanding debt
      exists, to include regulatory fees.

VIII. Auction Revenue Recognition Policy

      The established accounting policy for the recognition of revenue from auction
      collections for licenses was not consistently followed. FCC established a policy




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 30
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      to recognize auction revenue at the time a Prepared to Grant Public Notice is
      issued for a specific license. This policy was based on SFFAS No. 1, Accounting
      for Selected Assets and Liabilities, which states, “Federal entities may receive
      advances and prepayment from other entities for goods to be delivered or services
      to be performed. Before revenues are earned, the current portion of the advances
      and prepayment should be recorded as other current liabilities. After the revenue
      is earned, the entity should record the appropriate amount as revenue or a
      financing source and should reduce the liability accordingly.”

      Our audit disclosed several instances where transactions were not accounted for in
      accordance with the revenue recognition policy. For instance, revenue from two
      licenses issued under the loan installment program was prematurely recognized.
      Both licenses were recorded in the loan subsidiary ledgers with principal and
      interest receivable balances at September 30, 2001; however, the Prepared to
      Grant Public Notice for these licenses was not issued until June 2002. Under the
      auction revenue recognition policy, the revenue and loans receivable should not
      have been recognized until June 2002.

      In addition, revenue of $13.5 million was recognized as revenue in fiscal year
      2002. This revenue should have been recognized in fiscal year 2001 because the
      Prepared to Grant Public Notice was issued in fiscal year 2001.

      Recommendation:

      43. Establish and implement accounting procedures that will track the status
          (issuance of Prepared to Grant Public Notice) of auction licenses as “not
          granted,” “ready to grant,” and “granted.” This will include tracking the dates
          when the status of the license changed and reference to supporting
          documentation such as the Prepared to Grant Public Notice.

      Management Comment:

      Management concurs. FCC relies on manually prepared spreadsheets to track and
      account for the sale of spectrum auction licenses because the core accounting
      system and previous collections subsidiary system were not designed to post at
      the license level. RAMIS, which was partially implemented in FY 2002 and will
      be fully implemented during FY 2003, was designed with this capability and will
      automate the posting process. Errors do occasionally occur in the manual
      spreadsheets. The FCC developed reconciliations based on cash receipts to
      provide control over the spreadsheet process in FY 2002. Additional controls
      such as inclusion of the prepared to grant date and more frequent postings will be
      put in place until RAMIS is on-line in FY 2003.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 31
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



IX.    Revenue in Proper Accounting Period

      The SFFAS No. 7 paragraph 34 states, “Revenue from exchange transactions
      should be recognized when goods and services are provided to the public or to
      another Government entity at a price.” Paragraph 5 states that “Non-exchange
      revenue is recognized when a reporting entity establishes a specifically
      identifiable, legally enforceable claim to cash or other assets.” In addition,
      paragraph 36(d) indicates “Revenue from specific exchange type transactions
      should be recognized as follows:…(d) when services are rendered continuously
      over time or the right to use an asset extends continuously over time, such as the
      use of borrowed money or the rental of space in a building, the revenue should be
      recognized in proportion to the passage of time or the use of an asset.”

      Our test disclosed several instances where revenue such as regulatory fee, fines
      and forfeitures, and auction revenue were not recorded in the proper accounting
      period or budget year, fees were not amortized over the life of the service, or the
      revenue recorded in the current period was overstated.

      Recommendation:

      44. Implement procedures to ensure that revenue transactions are recorded in the
          proper accounting period. One of these procedures should include the use of
          the billing documents on all revenue related transactions and properly and
          timely applying collections to the billing documents.

      Management Comment:

      Management concurs. In each fiscal year, multi-year regulatory fees have been
      collected and were recognized entirely in the year they are collected. However,
      the new system is not designed to be able to recognize and post for multiple years.
      Therefore, this process will be entirely manual. A spreadsheet was generated and
      will be maintained on a regular basis to post any new collections and to recognize
      the individual year’s revenue. To correct issues with billings and collections over
      several budget years, RAMIS can generate billings for various budget years,
      collect against those outstanding billings and generate the applicable accounting
      transactions for all these entries. In addition, the FCC will review its policies and
      procedures manuals to update them for the new processes.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 32
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



X.     Obligation and Accounts Payable Activities

      A. Accounting for Obligation

          FCC internal control policy requires a certification from bureau and office
          managers that obligations have been reviewed and are correct. This policy is
          part of FCC’s monthly and year-end financial and budgetary review process to
          determine whether an obligation should be deobligated and/or an undelivered
          order should be reclassified to a delivered order.

          Our test of this control questioned the effectiveness of the certification
          process. We found that two of the three Bureau/Office Reconciliation of
          Accounts certified reports were not submitted to the FOC within the requested
          time frame.

          In addition, out of the 16 obligations/undelivered orders tested:

               •   Three obligations dating back to 1998 representing remaining balances
                   of purchase orders were still outstanding even though the purchase
                   orders had expired, goods and services had been received, and
                   payments had been made. The remaining balances should have been
                   de-obligated prior to fiscal year 2002.
               •   Goods and services for four obligations had been received; these
                   should have been reclassified from undelivered orders to delivered
                   orders at September 30, 2002.

          GAO Standards for Internal Control in the Federal Government state,
          “Information should be recorded and communicated to management and
          others within the entity who need it and in a form and within a time frame that
          enables them to carry out their internal control and other responsibilities.”

      Recommendation:

      45. Ensure that existing policies and procedures and internal controls outlined in
          the FCC manual on accounting for obligation are adequate and that these
          policies and controls are strictly and consistently implemented.

      Management Comment:

      Management concurs. The total amount of the three obligations dating back to
      1998 was approximately $18,000. FCC asks its financial managers to review
      open obligations on a monthly basis to identify amounts that can be deobligated.



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 33
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      In addition, quarterly fund manager’s meetings address the responsibility of
      reviewing the monthly reports, their due dates and certifications, and any other
      additional information relative to their financial reviews.

      B. Accounting for Accounts Payable

          During the first half of the year, FCC recognized a liability for goods and
          services (accounts payable) at the point of disbursement. In the last half of the
          year, FCC changed its policy to recognize accounts payable when an invoice
          is received and logged into the FFS. Both of these policies, however, are not
          in accordance with the GAAP that a liability is to be recognized for the unpaid
          amounts when goods and services are received, not necessarily at the point of
          disbursement nor at the point an invoice is received. Although at the end of
          the fiscal year, FCC accrued accounts payable by reviewing all the invoices
          received and determined whether goods and services were received, this
          process will not capture accruals for receipt of goods and services where
          invoices had not been received. In addition, FCC only accrues accounts
          payable at year-end and does not accrue for interim periods.

      Recommendation:

      46. Ensure that a liability is recognized for the unpaid amount when goods and
          services are received and establish proper cut-off procedures to ensure that all
          liabilities are recorded as of a reporting period.

      Management Comment:

      Management concurs. As for the transfer of obligations from undelivered to
      delivered orders based on the receipt of services, FCC does develop accruals at
      year end based on receipt of services. These accruals are used to recognize an
      accrued liability on our balance sheet, however a policy decision was made
      several years ago not to recognize a budgetary accrual for these items because of
      system difficulties in reversing budgetary accruals. We believe we have found a
      means of addressing those difficulties and will re-examine our policy in FY 2003.

XI.    Payroll Activities (Modified Repeat Condition)

      Weaknesses identified in the past three audits relating to payroll activities had not
      been corrected.

          •    Leave error reports received from the National Finance Center (NFC),
               showing differences between NFC’s leave record for each employee and



02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 34
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



               FCC’s leave records are not reconciled. Our audit disclosed significant
               differences for all categories of leave balance such as the annual leave,
               sick leave, compensatory time, and credit hours categories.
          •    Other deficiencies include: (1) incorrectly completed timesheets, (2)
               incorrect accounting codes used on timesheets, and (3) official payroll
               documents not filed timely.

      GAO Standards for Internal Control in the Federal Government state that
      transactions should be accurately recorded in a timely manner. One of the control
      activities used to accomplish this goal requires the performance of reconciliation
      and having controls in place to detect errors.

      Recommendation:

      47. Perform a periodic reconciliation of all the leave categories from the two
          systems, NFC and FCC records.

      Management Comment:

      Management concurs. FCC is in the process of securing the services of an
      outside contractor to conduct audits on all FCC employees identified as having
      errors. As these audits are conducted and leave balances are entered into the NFC
      system, FCC will review the bi-weekly culprit report to ensure future leave
      balance problems are corrected in the following pay period.

      Recommendation:

      48. Conduct training of employees to re-emphasize the importance of proper
          coding and to ensure that timesheets are properly completed and certified by
          supervisors.

      Management Comment:

      Management concurs. Human Resources Management (HRM), Payroll and
      Benefits Service Center will send out notices periodically to all FCC employees to
      re-emphasize the importance of ensuring timecards are properly completed, and
      reviewed and certified by supervisors.

      Recommendation:

      49. Ensure that payroll documents are filed timely.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 35
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       Management Comment:

       Management concurs. All payroll and personnel documents are now sent to the
       HRM Records Center to be filed and/or distributed timely.

XII.   Debt Collection Improvement Act Reporting (Modified Repeat Condition)

       The Debt Collection Improvement Act of 1996 (DCIA) requires agencies to (1)
       notify the Department of the Treasury of all debts delinquent by more than 180
       days for offset and (2) refer to the Department of the Treasury, with some
       exclusions, all debts delinquent more than 180 days for cross-servicing debt
       collection.

       Although FCC submits Treasury Report on Receivables (TROR) to the
       Department of the Treasury, existing policies and procedures are inadequate to
       ensure that all debts delinquent for more than 180 days are referred to the
       Department of the Treasury for cross-servicing debt collection. Chapter 4,
       Accounts Receivable, Section 500 of the FCC policy and procedures manual
       requires that uncollected receivables (excluding loans) older than 90 days be sent
       to the Department of the Treasury. Although this current policy is not consistent
       with the 180 days established by the Department of the Treasury, FCC did not
       enforce its own policy.

       Our review of the TROR as of September 30, 2002, disclosed that only $4.7
       million of eligible administrative receivables of $77.6 had been referred for cross-
       servicing.

       In addition, our review of the TROR disclosed that USF delinquent accounts
       receivable details are not provided to FCC for submission to the Department of
       the Treasury.

       Recommendations:

       50. Update policies and procedures to incorporate the Department of the Treasury
           referral requirements for the reporting entities accounts receivables.

       51. Refer eligible delinquent debt, more than 180 days old, to the Department of
           the Treasury for offset or cross-servicing.

       52. Ensure that FCC has all the reporting entities’ supporting documentation for
           the TROR.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 36
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



      Management Comment:

      Management concurs. Policies and procedures exist but will be updated to
      incorporate the Department of the Treasury referral requirements. In addition,
      FCC has been working with its reporting components to establish procedures for
      referring their delinquent debt to the Department of the Treasury for offset and
      collection. Those policies and procedures have an implementation date effective
      July 1, 2003 and will be included in the FCC’s policies and procedures manuals in
      ensuring compliance with the DCIA. Procedures for the TROR also will be
      reviewed to guarantee they are all inclusive of the procedures for the FCC and its
      reporting components.

XIII. Compliance with Certain Aspects of the Clinger-Cohen Act of 1996
      (Modified Repeat Condition)

      The Clinger-Cohen Act of 1996 requires federal agencies to focus on the results
      they are achieving through IT investments. Specifically, this act introduces rigor
      and structure into how agencies approach the selection and management of IT
      projects. Among other things, the head of each agency is required to implement a
      process for maximizing the value and assessing and managing the risks of the
      agency's IT acquisitions.

      During our review, we noted that certain aspects of the Clinger-Cohen Act were
      not followed for fiscal year 2002 in the development and implementation of the
      RAMIS application. These weaknesses include the following:

          •    Ineffective hardware planning. FCC did not have a documented plan for
               the migration strategy in fiscal year 2002 that would include: disaster
               recovery, proposed data center location changes on strategy,
               telecommunications, and other logistical support. FCC subsequently
               completed its migration strategy for RAMIS on October 4, 2002 after the
               end of the fiscal year 2002.
          •    Ineffective human resource or staff planning. FCC did not commit
               adequate resources to manage the implementation of the RAMIS
               application. FCC still has one position to fill for the management of the
               RAMIS project.
          •    Project management tools (i.e., time, function, budget) were not properly
               utilized. The revised RAMIS implementation plan report provides only
               additional start and actual dates. There is no way to measure project
               performance against target dates. No information of delays and slippage
               has been documented or provided to management.
          •    Inadequate cost/benefits analysis of the investment.



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 37
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



      Furthermore, the FCC’s system development life cycle methodology (SDLC) is
      not being adhered to for all applications. Documentation is not maintained for the
      CORES, Electronic Management Tracking System (E/MTS), and Cable
      Operations and Licensing System (COALS); nor are procedures being followed.

      Recommendation:

      53. Document and implement a migration strategy for the RAMIS application.

      Management Comment:

      Management concurs. The migration strategy for the RAMIS application has
      been fully documented and implemented.

      Recommendation:

      54. Commit adequate resources to the management of the RAMIS project.

      Management Comment:

      Management concurs.          All available resources were devoted to this
      implementation. The reshuffling of projects to implement RAMIS as a loan
      system until the portfolio could be transferred to the outside loan service provider
      was beyond our original project scope. Necessary to RAMIS and also outside the
      project scope was the design, creation and implementation of CORES.

      Recommendation:

      55. Document a Capital Asset and Business Case to address summary of spending
          during project stages.

      Management Comment:

      Management concurs. FCC has submitted a Capital Asset Plan and Business
      Case for RAMIS in accordance to OMB Circular No. A-11, Preparing and
      Submitting Budget Estimates, Section 300-17.

      Recommendation:

      56. Utilize project management tools (i.e., time, function, budget) to determine
          milestone dates and measure project performance against these target dates.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 38
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



      Management Comment:

      Utilize project management tools to determine milestone dates and measure
      project performance against these target dates.

      Recommendation:

      57. Ensure that applications in development (i.e., CORES, E/MTS, COALS, and
          RAMIS) adhere to FCC’s SDLC methodology.

      Management Comment:

      Management concurs. Training in the FCC’s SDLC methodology was conducted.
      This training discusses the importance of, and policies surrounding, the FCC’s
      SDLC methodology. Training included individuals from CORES and COALS.
      As a result of this training effort, the ITC anticipates that CORES, COALS and
      RAMIS will comply with the procedures and documentation requirements of the
      FCC’s SDLC methodology as they undergo revision. The E/MTS application did
      not meet the minimum cost requirements to warrant following the FCC’s SDLC
      methodology.

XIV. OMB Circular Nos. A-127 and A-130 Reviews (Repeat Condition)

      FCC has recently identified its major financial applications and general support
      systems, and established a timetable for meeting the requirements of OMB
      Circular Nos. A-127 and A-130 review of these applications. FCC had begun
      conducting some reviews on OMB Circular Nos. A-127 and A-130 reviews in
      fiscal year 2002. Until these reviews are performed and completed, FCC cannot
      determine compliance with these circulars to include in its annual FMFIA report
      and to ensure substantial compliance with FFMIA.

      Recommendation:

      58. Institute a program for conducting periodic reviews in accordance with OMB
          Circular Nos. A-127 and A-130.

      Management Comment:

      Management concurs. FCC is continuing to conduct reviews of the security
      controls for major applications in accordance with the requirements set forth in
      OMB Circulars No. A-127 and A-130, Appendix III, and FCCINST 1479.2 FCC
      Directive, Computer Security Program.




02-AUD-08-16        REPORT ON THE FEDERAL COMMUNICATIONS                       Page 39
                    COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



      Recommendation:

      59. Include the results of OMB Circular Nos. A-127 and A-130 reviews as part of
          the applicable section in FCC’s annual FMFIA report.

      Management Comment:

      Management concurs. The Computer Security Program continues to work with
      other elements of the Office of the Managing Director to include warranted results
      of OMB Circulars No. A-127 and A-130 reviews conducted during the fiscal year
      in the FMFIA report.

XV.   Federal Managers’ Financial Integrity Act of 1982 Compliance and
      Reporting

      As required by OMB Bulletin No. 01-02, we have compared the material
      weaknesses and material nonconformances reported by FCC in its FMFIA report
      dated December 20, 2002 to our report on internal control dated January 3, 2003.
      We do not believe, however, that failure to report these material weaknesses
      constitutes a separate reportable condition or material weakness because different
      criteria are used in determining material weaknesses for both reports, and
      management has reported some of the material weaknesses. However, FCC did
      not take timely and effective actions to correct material internal control
      deficiencies identified. Many of the original target correction dates for the
      deficiencies reported in the FMFIA report were not met and had to be revised.
      Section IV of the OMB Circular No. A-123 (Revised June 21, 1995) 5 U.S.C.,
      states, “…management has a responsibility to complete action, in a timely
      manner, on audit recommendations on which agreement with the IG has been
      reached.”

      Following are the elements of material weaknesses identified in this report that
      were not specifically identified in the FMFIA report:

          •    Financial Statement Reporting

                      Timely Recording and Analysis of Financial Activities
                      FFS Setup and Posting Model Definitions

          •    Cost Accounting System

                      Cost Finding Techniques
                      Matching Revenues to Costs



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 40
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



          •    USF Financial Reporting

                      Controls over USF Disbursements to “At Risk” Service Providers

          •    Auction Related Subsidiary System

          •    FCC Loan Subsidiary Ledgers

                      Loans Subsidiary Ledger Non-Financial Information
                      Re-Auctioned Licenses

          •    In material weakness related to FCC’s compliance with OMB Circular No.
               A-130, FCC reported that Security Tests and Evaluations have been
               completed for eleven of its major applications. However, support for only
               ten major applications was made available to us during the audit.

          •    In material weakness related to inadequacies and inconsistencies in the
               mainframe and network access request process, FCC reported that it
               completed many of the recommendations related to this finding in fiscal
               year 2001. However, this information contradicted current management
               responses that we received during our follow-up of prior year findings. As
               noted in our summary of prior year findings matrix, reviews to highlight
               inconsistencies in the access request process are scheduled for completion
               in September 2003; and audit log policies and procedures are expected by
               May 2003.

       Management Comment:

       Management concurs. Some of those items identified in this audit report were not
       previously reported as material weaknesses and therefore could not have been
       reported in the FY 2002 FMFIA report issued in December 2002. However, FCC
       will review their current policies and procedures on performing the necessary
       reviews to address more detailed reviews of internal control inadequacies and
       inconsistencies, and more timely completion of outstanding audit
       recommendations for input into the yearly FMFIA report.

STATUS OF PRIOR YEAR COMMENTS

As required by Government Auditing Standards and OMB Bulletin No. 01-02, we have
reviewed the status of FCC’s corrective actions with respect to the findings and
recommendations from the previous year’s report on internal controls. For those items
not addressed in various sections of our Independent Auditor’s Report on Internal



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 41
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Control, summarized above, the following discusses the current status of resolutions for
matters raised:

   •   Condition – Internal Controls on the Preparation of the Financial Statements

       In fiscal year 2001, it was recommended that FCC implement an effective quality
       control mechanism to ensure that a senior official other than the preparer review
       the financial statements prior to issuance. In fiscal year 2002, FCC implemented
       a review process for the preparation of the financial statements, which
       significantly improved the quality of the financial statements. Although we still
       have identified minor errors and omissions in the financial statements, this finding
       is reported in the management letter for fiscal year 2002.

  •    Condition – Changes in Accounting for Program Costs

       In fiscal year 2001, it was noted that FCC had changed its programs from four
       FCC reporting entity programs in fiscal year 2000 to five programs in fiscal year
       2001; however, the change did not result in a corresponding change in the FCC
       cost accounting processes. In fiscal year 2002, FCC collected costs for five
       programs and the USF; as a result, this was not included as a material weakness.
       However, we commented on the internal controls over the cost finding techniques
       for the five programs and the USF. See IC Report, Section II.B.

   •   Condition – Auditable Financial Data for the Local Number Portability
       Administration (LNPA)

       In fiscal year 2001, FCC OGC determined that LNPA met the indicative criteria
       of a reporting entity. FCC OGC further stated that if LNPA met the materiality
       criterion, it would be considered a component of FCC. FCC provided data that
       was not supported by adequate documentation for audit purposes. The LNPA
       financial statements were not included in the FCC consolidated financial
       statements, and the auditors were not adequately satisfied with the significance or
       materiality of the LNPA reporting entity. The audit opinion was qualified
       accordingly. In fiscal year 2002, FCC OGC re-evaluated the status of the
       reporting entities and determined that LNPA did not meet the indicative criteria of
       a reporting entity. As a result, this was not a material weakness for fiscal year
       2002.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 42
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   •   Condition – Federal Agencies’ Centralized Trial-Balance System (FACTS I)
       Reporting Process

       In fiscal year 2001, FCC was requested by the FMS to resubmit the CFO Final
       Account Groupings Worksheet (AGW) report after the due date submission was
       made due to errors and failure to incorporate last minute adjustments to the Final
       AGW report. In addition, the OIG’s Agreed-Upon Procedures Report indicated
       that the CFO procedures, disclosed in the response to one of the three required
       procedures, were not adequate, resulting in OIG’s inability to perform the agreed-
       upon procedures. In fiscal year 2002, the audited financial statements were issued
       prior to the submission date of the Final AGW report. Therefore, this finding was
       not in fiscal year 2002.

   •   Condition – Controls Surrounding Data Used in the Preparation of the
       Management Discussion and Analysis (MD&A)

       In fiscal year 2001, it was recommended that FCC formalize policies and
       procedures for the performance measure process and to test the reliability,
       accuracy, and propriety of the data generated from the systems used in
       accumulating performance data. In fiscal year 2002, FCC formalized the
       performance measure process policies and procedures and outlined the procedures
       to test the reliability, accuracy and propriety of the data used in accumulating
       performance data. In our limited review of the MD&A performance data, we did
       not identify errors of similar nature to what was identified in prior year reportable
       condition. Therefore, we have excluded this reportable condition in fiscal year
       2002.

   •   Condition – Supporting Documentation and Controls on Property and
       Equipment

       In fiscal year 2001, FCC used incorrect budget object codes resulting in
       capitalized costs not being distinguished from non-capitalized costs. In addition,
       certification from a software system owner documenting the completion of an in-
       process software was inadequate. Also, completed software transactions were
       tracked on spreadsheets and not in the property management system. In fiscal
       year 2002, although FCC continued to use incorrect budget object codes, it
       instituted a monthly compensating-control reconciliation of its general ledger
       balances with the property management system. The property management
       system automatically capitalized any acquisition in excess of $25,000 and a
       quality check was performed to ensure that value assigned was correct. Also, the
       completed software is now recorded in the property management system. The




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 43
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       condition related to the use of incorrect budget object codes is reported in the
       management letter in fiscal year 2002.

                        ********************************

In addition to the material weaknesses and reportable conditions described above, we
noted certain matters involving internal control and its operation that we reported to the
management of FCC in a separate letter dated January 3, 2003.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB, and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
January 3, 2003




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 44
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
              SECTION III

      INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE WITH LAWS AND REGULATIONS
SECTION III                    INDEPENDENT AUDITOR’S REPORT ON
                               COMPLIANCE WITH LAWS AND REGULATIONS




       Independent Auditor’s Report on Compliance with Laws and Regulations


To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission
(FCC) as of and for the year ended September 30, 2002, and have issued our report
thereon dual dated January 3, 2003 and January 27, 2003. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.

The management of FCC is responsible for complying with laws and regulations
applicable to FCC. As part of obtaining reasonable assurance about whether FCC’s
financial statements are free of material misstatements, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin No. 01-02,
including the requirements referred to in the Federal Financial Management Improvement
Act of 1996 (FFMIA). We limited our tests of compliance to these provisions and we did
not test compliance with all laws and regulations applicable to FCC.



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




02-AUD-08-16                   REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                               COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     COMPLIANCE WITH LAWS AND REGULATIONS



The results of our tests of compliance with laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the
following laws and regulations that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 01-02, which are described below.

Chief Financial Officers Act of 1990 (CFO Act)

The Accountability Act for Tax Dollars of 2002 (Accountability Act) increased the
number of agencies required in the Government Management Reform Act of 1994
(GMRA) to prepare organization-wide financial statements and be audited annually. The
FCC was one of the agencies identified in the Accountability Act. Although OMB issued
a blanket waiver for fiscal year 2002 from the Accountability Act, FCC had voluntarily
elected compliance in fiscal year 2002 and as such is being evaluated accordingly.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which have an impact on citizens’ lives and
livelihood. To meet this responsibility, the CFO Act establishes a leadership structure,
provides for long-range planning, requires audited financial statements, and strengthens
accountability reporting. Specifically, the CFO Act establishes the authority, functions
and responsibilities of a Chief Financial Officer (CFO). These include, among others,
that the CFO:

   •   Develop and maintain integrated accounting and financial management systems
       that comply with applicable accounting principles, standards, and requirements;
       internal control standards; and requirements of OMB, Department of the
       Treasury, and others;

   •   Direct, manage, and provide policy guidance and oversight of all agency financial
       management personnel, activities, and operations; and

   •   Implement agency asset management systems, including systems for cash
       management, credit management, debt collection, and property and inventory
       management and controls.




02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



FCC does not meet the above criteria as explained in more detail in our Independent
Auditor’s Report on Internal Control (IC Report), Sections I through VI. The key items
we identified include:

   •   FCC’s financial management systems do not comply with certain accounting
       standards and requirements, and internal control standards;

   •   FCC’s financial information system is not fully integrated. Data comes from
       various subsystems and spreadsheet programs for the accounting, preparing, and
       reporting of financial statements; and

   •   Direction, policy guidance memorandum for FCC’s financial statement
       preparation and oversight of the reporting entities’ financial operations are
       inadequate or do not exist.

OMB Circular No. A-129, Policies for Federal Credit Programs and Non-Tax
Receivables

FCC’s Narrowband licenses with outstanding loan receivables of $113 million did not
have Installment Payment Plan Notes stating the amounts and terms of the loans.
Additionally, Security Agreements were not issued by FCC for this block of loans. These
loans are direct loans accounted for under the Federal Credit Reform Act of 1990.
Federal Credit Reform Act, Sec. 502, defines “direct loan” as a disbursement of funds by
the Government to a non-Federal borrower under a contract that requires repayment of
such funds with or without interest.

In addition, OMB Circular No. A-129, Section III, Loan Documentation states, “Loan
origination files should contain loan applications, credit bureau reports, credit analyses,
loan contracts, and other documents necessary to conform to private sector standards for
that type of loan.” Additionally, Section IV, Loan Servicing Requirements states that
“Approved loan files (or other systems of records) shall contain adequate up-to-date
information reflecting the terms and conditions of the loan, payment history, including
occurrences of delinquencies and defaults, and any subsequent loan actions which result
in payment deferrals, refinancing or rescheduling.”

Debt Collection Improvement Act of 1996

In FCC’s Treasury Report on Receivables (TROR) for administrative receivables
submitted to Department of the Treasury as of September 30, 2002, it reported $77.6
million as the amount eligible for referral to the Department of the Treasury for offset
and cross-servicing. As of September 30, 2002, only $4.7 million of the $77.6 million of




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



eligible receivables was referred to Department of the Treasury for cross-servicing. See
IC Report, Section XII for a more detailed explanation.

Prompt Payment Act

Two of the thirty-five invoices examined were not paid within 30 days from the receipt
date of a paper invoice and no interest penalty was paid for the late payment. Title 31 of
the U. S. Code, Chapter 39, Section 3902 states that “the head of an agency acquiring
property or service from a business concern, who does not pay the concern for each
complete delivered item of property or service by the required payment date, shall pay an
interest penalty to the concern on the amount of the payment due.”

Government Performance and Results Act of 1993 (GPRA)

The GPRA requires federal agencies to submit to OMB and Congress the following:

   •   A strategic plan for program activities, which sets out a course of action and
       accomplishment over the long term;

   •   An annual performance plan (APP) that sets annual goals with measurable target
       levels of performance; and

   •   An annual program performance report (APPR) that compares actual performance
       to the annual goals.

FCC did not fully comply with the critical key components of the GPRA as described
below:

   •   The APP for fiscal year 2002 did not clearly describe the means to be used to
       verify and validate measured values.

   •   The fiscal year 2002 APP does not clearly address the following:

               a description of the operational processes,
               skills and technology, and
               the human, capital, information, or other resources required to meet the
               performance.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 4
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



   •   The APPR for fiscal year 2001 (latest report available) did not include two
       significant elements:

               The APPR did not include a summary of findings for program evaluations
               completed during the fiscal year covered by the APPR, and
               The APPR did not describe the use nor assess the effectiveness of
               achieving the performance goals.

The results of our tests of compliance disclosed no instances of noncompliance with other
laws and regulations discussed in the preceding paragraphs, exclusive of FFMIA, that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 01-
02.

Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report whether FCC’s financial management systems
substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Standard General Ledger
(USSGL) at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed instances, described below, where FCC’s financial
management systems did not substantially comply with Federal financial management
systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level.

Federal Financial Management Systems

   •   Integrated Financial Management System – The Federal Financial System (FFS)
       and feeder systems (direct loan systems and spreadsheets, cost systems, auction
       related systems, property management system, license database systems,
       collection systems, certain accounts receivable systems, procurement systems and
       various spreadsheets) are not integrated or electronically interfaced. The
       reporting entities’ core financial systems are also not integrated. A user is not
       able to have one view into systems such that, at whatever level the individual is
       using the system, he or she can obtain the information needed efficiently and
       effectively through electronic means. See our IC Report, Section I.A. for a more
       detailed explanation.

       FCC has an on-going effort over the last three years to strengthen its financial
       management systems. FCC management expected to achieve some level of
       financial management systems’ integration by implementing the Revenue



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 5
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



       Accounting and Management Information System (RAMIS) by September 30,
       2000. RAMIS is designed to integrate, among others, the direct loan system, fee
       billing and collection systems, fines and forfeitures, licensees’ databases, interface
       with FFS and include a module for cost accounting system. FCC, however, has
       not met this expectation, as RAMIS was still not fully operational at September
       30, 2002. As of September 30, 2002, only four of the seven modules were
       completed and parallel testing of three modules remained in progress.

       The primary reason for noncompliance is FCC’s failure to meet its timetable and
       the length of time needed to implement several financial management systems’
       enhancements developed over the last three years.

   •   Agency-wide Financial Information Classification Structure – As explained in
       detail in the IC Report, Section I.B., FCC’s core financial system, FFS, has not
       been fully consistent with the USSGL. FCC recognized that some posting model
       changes needed to be made to improve the efficiency and effectiveness of
       monthly and year-end trial balances. These changes will allow FCC to eliminate
       manual adjustments currently made to correct for posting model deficiencies.
       FCC has already identified areas that require changes but has not had the time and
       resources to complete necessary analysis to effect the changes.

   •   Security – In fiscal year 2002 as in prior years, we identified several weaknesses,
       which collectively are considered a material weakness, and are described in more
       detail in our IC Report, Section VI. The weaknesses include noncompliance with
       OMB Circular No. A-130’s, Management of Federal Information Resources
       requirement for a comprehensive security plan, inadequacies and inconsistencies
       in the mainframe and network access request process, and lack of a fully
       developed and tested contingency plan. The FCC has not completed security
       plans for two of its major applications and does not expect the completion of an
       entity-wide security plan until June 30, 2003. In addition, none of the major
       applications and general support systems (GSS) have been certified and
       accredited. The initial stage of this process, which includes a risk assessment as
       part of an all-inclusive Security Test and Evaluation, was only completed for ten
       major applications, and a current risk assessment for the two GSS is in progress.
       In addition, there was a lack of an agency-wide contingency plan to address
       continuity of operations in the event of a disaster.

       Information protection-related weaknesses identified in FCC’s information
       systems environment are repeat finding conditions. Impacted areas include
       FCC’s distributed computer system as well as its mainframe computers. These
       vulnerabilities expose FCC and its computer systems to risks of external and
       internal intrusion, subject sensitive FCC information related to its major



02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                             Page 6
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



       applications to potential unauthorized access, modification, and/or disclosure, and
       increase the risks of fraud, waste and abuse.

       The weaknesses noted above have been identified since the fiscal year 1999 audit
       and progress in correcting the deficiencies has been slow. FCC explained that the
       primary reason for this noncompliance is the length of time needed to implement
       the corrective actions and the availability of resources.

Federal Accounting Standards

Due to the lack of an adequate cost accounting system, FCC was not able to produce
managerial cost information consistent with standards in the Statement of Federal
Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts
and Standards for the Federal Government, as described in our IC Report, Section II.

U.S. Standard General Ledger at the Transaction Level

Substantial compliance with the USSGL at the transaction level requires the agency’s
recording of financial events to be consistent with all applicable account descriptions and
posting models/attributes reflected in the USSGL issued by the Department of the
Treasury, Financial Management Service, effective for the period covered by the audit.
As discussed in our IC Report, Section I.B., the setup and posting model definitions do
not fully comply with the transaction posting models consistent with the USSGL
guidance and policies, when recording and classifying transactions.

Also, as discussed in Section I.A. of the IC Report, the accounting transactions of the
Universal Service Fund, the Telecommunications Relay Services and the North American
Numbering Plan, collectively called reporting entities, which were transactions from
feeder systems summarized in a trial balance for consolidation into FCC financial
statements, were not recorded in a manner consistent with the account definitions and
posting models/attributes specified in the USSGL. The feeder systems from the reporting
entities also did not record budgetary entries.

FCC Managing Director and the CFO have been assigned the responsibility of ensuring
the substantial compliance with the FFMIA. A discussion of the actions taken by FCC
and our recommendations to strengthen FCC’s financial management systems are
outlined in our IC Report. FCC management plans to have some of the corrective actions
started or implemented by fiscal year 2003.




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 7
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



Management Comments:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Controls. As FCC corrects and
resolves identified issues, the occurrences of non-compliance will diminish.

                        ********************************

Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit, and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
January 3, 2003




02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 8
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
               SECTION IV

  FEDERAL COMMUNICATIONS COMMISSION
FISCAL YEAR 2002 ANNUAL FINANCIAL REPORT
Federal
Communications
Commission




          Fiscal Year 2002
       Annual Financial Report
         (October 1, 2001 – September 30, 2002)
                                     Table of Contents
           FEDERAL COMMUNICATIONS COMMISSION FISCAL YEAR 2002
                       ANNUAL FINANCIAL REPORT

                                                                           Page


Management’s Discussion & Analysis                                           1
   Overview of the FCC                                                        1
   FCC Mission                                                                1
   FCC Vision and Business Plan                                               2
   FCC Organizational Structure                                               2
   Facilitating the Communications Revolution –FCC Implementation of the     9
   Government Performance and Results Act
   Financial Management – Legal Compliance, Systems, and Controls           42
   Possible Future Effects on the FCC – Looking Ahead                       46
   Cross-Cutting Functions of the Commission                                49
   Highlights of the Financial Statements                                   50
   Limitations of the Financial Statements                                  54
Financial Statements                                                        55
  Consolidated Balance Sheet                                                56
  Consolidated Statement of Net Cost                                        57
  Consolidated Statement of Changes in Net Position                         59
  Combined Statement of Budgetary Resources                                 60
  Consolidated Statement of Financing                                       61
  Consolidated Statement of Custodial Activity                              62
Notes to Consolidated Financial Statements                                  63
Required Supplementary Information                                          96
Other Accompanying Information                                             107
Glossary of Acronyms                                                       121




                                             i
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2002 Annual Financial Report


             MANAGEMENT’S DISCUSSION & ANALYSIS
Overview of the FCC
The Federal Communications Commission (FCC, Commission, or agency) is an independent United
States Government regulatory agency, directly responsible to Congress. The FCC was established
by the Communications Act of 1934 (the Act) and is charged with regulating interstate and
international communications by radio, television, wire, satellite, and cable. The FCC also
regulates intrastate telecommunications services for hearing-impaired and speech-impaired
individuals as set forth in Title IV of the Americans With Disabilities Act (ADA). The FCC’s
Headquarters is located in Washington, DC, and it has field locations throughout the Nation. The
FCC's jurisdiction covers the 50 states, the District of Columbia, and U.S. possessions.
The FCC is directed by five Commissioners, appointed by the President and confirmed by the
Senate for 5-year terms, except when filling an unexpired term. The President designates one of the
Commissioners to serve as Chairman. Only three Commissioners may be members of the same
political party. Commissioners may not hold a financial interest in any company or entity that has a
significant interest in activities regulated by the Commission. The Chairman and other
Commissioners supervise FCC activities, delegating responsibilities to the bureaus and staff offices.
This document contains information about the FCC’s principal financial statements for fiscal year
(FY) 2002, including a Consolidated Balance Sheet, Consolidated Statement of Net Cost,
Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources,
Consolidated Statement of Financing, Consolidated Statement of Custodial Activity, Notes to the
Financial Statements, and Required Supplementary Information. Additionally, it presents the
FCC’s mission and organizational structure, performance information, details on its systems,
controls and legal compliance, and possible future issues that may impact the Commission. It is a
guide to the key FCC initiatives and activities during FY 2002, or planned for future years, that
demonstrate the breadth of the Commission’s work.

FCC Mission


    “…the Commission continues to build upon the cornerstone
    principles of the public interest and general consumer welfare to
    promote access to communications services for all Americans…”
                                                                             Chairman Michael K. Powell
                                                                  Congressional Testimony, April 17, 20021
The fundamental mission of the FCC is to implement the Communications Act of 1934, as
amended, and the Telecommunications Act of 1996 (the 1996 Act) in a manner that promotes
competition, innovation, and deregulation in the communications industry and the availability of
high quality communications services for all Americans.



1
 Testimony before the Subcommittee on Commerce, Justice, State and the Judiciary of the Senate Committee on Appropriations by
FCC Chairman Michael K. Powell on April 17, 2002.

                                                             1
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2002 Annual Financial Report

FCC Vision and Business Plan
The FCC promotes competition in communications, protects consumers, and supports access for
every American to existing and advanced communications services. To better do this, the FCC is
executing a new business plan built along the following four dimensions:
    9 a clear substantive policy vision, consistent with the various communications statutes
      and rules, that guides FCC deliberations;
    9 a pointed emphasis on management that builds on a strong team, produces a cohesive
      and efficient operation, and leads to clear and timely decisions;
    9 an extensive training and development program to ensure that the FCC possesses
      independent technical and economic expertise; and
    9 an organizational restructuring to align the FCC with the realities of a dynamic and
      converging marketplace.2
The FCC will strive to use taxpayers’ funds constructively to improve the Commission’s services
through a comprehensive retooling of the mission in concert with the FCC’s current legislative
mandate.3 The United States has a proud legacy of facilitating and encouraging communication
services. This nation has the finest voice communication system in the world, as well as top-notch
mass media delivery systems in the form of radio, television, and cable. With advancements in the
communications industry, the FCC has begun encouraging deployment of advanced architectures
and technologies of services like broadband. Government policy will need to foster the migration
towards the digital broadband future. The Commission’s policy direction will focus on this
migration with several directional guideposts, including efforts to:
    9    facilitate the timely and efficient deployment of broadband infrastructure;
    9    creatively pursue universal service goals of ubiquity and affordability in deployment;
    9    redirect focus onto innovation and investment;
    9    harness competition and market forces;
    9    rationalize and harmonize regulations across industry segments, where appropriate; and
    9    shift from expanding permissive regulations to effective enforcement of necessary ones.4

FCC Organizational Structure
The FCC Chairman leads the Commission as head of the agency. The Commissioners supervise all
FCC activities, delegating responsibilities to the ten staff offices and six bureaus. The Commission
and the Chairman have delegated management and administrative responsibility to the Managing
Director. The Commission staff is organized by function into bureaus and staff offices. In March
2002, the FCC undertook a major reorganization to ensure the FCC, as an institution, remains
efficient, effective, and responsive. In determining what restructuring was necessary, the FCC was
guided by the following principles:
    9 develop a standardized organizational structure across the bureaus;
2
  Testimony before the Subcommittee on Commerce, Justice, State and the Judiciary of the House Committee on Appropriations by
FCC Chairman Michael K. Powell on June 28, 2001.
3
  The initial stages of the organizational restructuring, implemented on March 25, 2002, focused on the bureaus.
4
  Testimony before the Subcommittee on Appropriations by Chairman Powell on June 28, 2001.

                                                             2
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2002 Annual Financial Report

   9 identify a principal deputy in each bureau;
   9 move toward a functional alignment;
   9 reflect changes in regulation and workload;
   9 recognize that in a dynamic communications industry, change will continue;
   9 be able to adapt quickly to future changes;
   9 minimize disruptions to the agency’s work; and
   9 use the reorganization to improve technical and economic analysis in decision-making.
Recent changes in organizational structure focused on the bureaus. Under the reorganization, the
FCC consolidated functions in order to better address changes in workload and to achieve greater
efficiencies. The goal of the reorganization is to ensure enhanced policy, licensing, and economic
and technical analysis in each of the bureaus. There are now six, rather than seven, operating
bureaus: Consumer and Governmental Affairs, Enforcement, International, Media, Wireless
Telecommunications, and Wireline Competition. These bureaus are responsible for developing and
implementing regulatory programs, processing applications for licenses or other filings, analyzing
complaints, conducting investigations, and taking part in FCC hearings. A more detailed
description of the roles of each individual bureau follows below.
In addition, there are ten staff offices: Administrative Law Judges, Communications Business
Opportunities, Engineering and Technology, General Counsel, Inspector General, Legislative
Affairs, Managing Director, Media Relations, Plans and Policy, and Workplace Diversity. A more
detailed description of each office follows. Even though the bureaus and offices have individual
functions, they regularly join forces and share expertise in addressing Commission issues.

FCC Bureaus
Consumer and Governmental Affairs Bureau (CGB) – Formerly the Consumer Information Bureau,
the CIB was restructured to align the functions more closely, enhance the bureau’s policy role in
decision-making, and increase the bureau’s intergovernmental partnership role with regard to
Federal agencies, state, local, and Tribal government. The CGB communicates information to the
public regarding Commission policies, programs, and activities; handles public inquiries and
informal consumer complaints; and oversees disability mandates. The CGB has the following units:
Policy Division, Disability Rights Office, Reference Information Center, Consumer Affairs and
Outreach Division, Administration and Management Office, Systems Support Office, Information
Access and Privacy Office, and Consumer Inquiries and Complaints Division.
Enforcement Bureau (EB) – The EB serves as the primary Commission entity responsible for the
enforcement of the Act, the 1996 Act, and other communications statutes, as well as the
Commission's rules, authorizations and orders (except for certain matters). With the reorganization,
some enforcement-related functions previously in the Cable Services Bureau were transferred to the
EB. The EB consists of: Office of Management and Resources, Telecommunications Consumer
Division, Market Disputes Resolution Division, Technical and Public Safety Division,
Investigations and Hearings Division, and Regional and Field Offices.
International Bureau (IB) – The IB develops, recommends and administers policies, standards,
procedures and programs for the regulation of international telecommunications facilities and
services and the licensing of satellite facilities under its jurisdiction. The IB assumes the principal

                                                  3
                                                                    Federal Communications Commission
                                                                Fiscal Year 2002 Annual Financial Report

representational role for Commission activities in international organizations and represents the
Commission in satellite and international matters (such as rates, standards, and development issues).
Under the reorganization, the IB consolidates all intergovernmental and regional leadership and
planning functions; leverages policy-making and engineering resources to more efficiently handle
policy and rulemaking activities; and improves the focus on satellite licensing and policy issues.
The IB has the following units: Administrative and Management Office, Policy Division, Satellite
Division, and Strategic Analysis and Negotiations Division.
Media Bureau (MB) – This new bureau, which combines the former Mass Media Bureau and the
former Cable Services Bureau, develops, recommends and administers the policy and licensing
programs for the regulation of multichannel video programming distribution (i.e., cable and
satellite), broadcast radio and television, direct broadcast satellite service, video news, and
entertainment. Within the MB, the Office of Broadcast License Policy is responsible for the
licensing function of the bureau. The MB consists of the: Management and Resources Staff, Office
of Communications and Industry Information, Policy Division, Engineering Division, Industry
Analysis Division, Office of Broadcast License Policy, Audio Division, and Video Division.
Wireless Telecommunications Bureau (WTB) – The WTB has the organizational responsibility to
develop, recommend, and administer the Commission’s policies, programs and rules governing
domestic wireless telecommunications including cellular and PCS phones, pagers and two-way
radios, but does not oversee satellite communications. The bureau also regulates the use of radio
spectrum to fulfill the communications needs of businesses, local and state governments, public
safety service providers, aircraft and ship operators, and individuals. Some licensing functions
formerly in the Mass Media Bureau were transferred to WTB. Units within WTB include:
Management and Planning Staff, Auctions and Industry Analysis Division (including the Auctions
Automations Branch, Auctions Expenditures Management Branch, Legal Branch, Auctions Finance
and Market Analysis Branch, and the Auctions Operations Branch), Commercial Wireless Division,
Data Management Division, Policy Division, and Public Safety and Private Wireless Division.
Wireline Competition Bureau (WCB) – The new WCB, formerly the Common Carrier Bureau, is
responsible for matters pertaining to the regulation and licensing of communications common
carriers and ancillary operations (except for wireless telecommunications services and facilities).
The bureau develops, recommends and administers policies related to competition, pricing,
telecommunications access, industry analysis, and technology. The bureau’s activities include:
policy development and coordination; adjudicatory and rulemaking proceedings; action on requests
for interpretation or waivers of rules; determinations regarding lawfulness of carrier tariffs; action
on applications for service and facility authorizations; review of carrier performance; administration
of accounting requirements for incumbent local exchange carriers; administration of FCC reporting
requirements affecting telecommunications carriers; economic research and analysis; and
interaction with the public, local, state, and other government agencies and industry groups on
wireline telecommunications regulation and related matters. The WCB consists of: Administrative
and Management Office, Competition Policy Division, Pricing Policy Division,
Telecommunications Access Policy Division, and Industry Analysis and Technology Division.




                                                 4
                                                                   Federal Communications Commission
                                                               Fiscal Year 2002 Annual Financial Report


FCC Staff Offices

Office of Administrative Law Judges (OALJ) – The OALJ presides over hearings and issues Initial
Decisions.
Office of Communications Business Opportunities (OCBO) – The OCBO provides advice to the
Commission on issues and policies concerning opportunities for ownership and contracting by
small, minority, and women-owned communications businesses.
Office of Engineering and Technology (OET) – The OET allocates spectrum for non-governmental
use and provides expert advice on technical issues before the Commission. The OET also
establishes technical standards for spectrum users.
Office of the General Counsel (OGC) – The General Counsel serves as chief legal advisor to the
Commission and its various bureaus and offices. The OGC advises the Commission on fostering
competition and promoting deregulation in a competitive environment.
Office of Inspector General (OIG) – The OIG, established in compliance with the Inspector General
Act Amendments of 1988, provides the FCC with independent audit and investigative services
relating to the operations of the Commission. This office recommends policies for activities
designed to promote economy, efficiency, and effectiveness, as well as to prevent and detect fraud,
waste, and abuse.
Office of Legislative Affairs (OLA) – The OLA informs Congress of the Commission's regulatory
decisions, facilitates responses to Congressional inquiries, prepares Commission responses to
legislative proposals, and serves as the Commission’s main point of contact with Congress and
other governmental entities.
Office of the Managing Director (OMD) – The Managing Director is appointed by the Chairman
with approval of the Commission, and functions as a chief operating official, serving at the
direction and supervision of the FCC Chairman. The Office of the Secretary is located within the
OMD. The OMD provides direction to the bureaus and staff offices in management and
administrative matters.
Office of Media Relations (OMR) – The OMR informs the news media of FCC decisions and serves
as the Commission’s main point of contact with the media. This office also manages the FCC’s
website.
Office of Plans and Policy (OPP) – The OPP serves as the Commission’s chief economic policy
advisor, analyzing issues and developing long-term policy planning with respect to the development
and implementation of communications policies in all areas of Commission authority and
responsibility.
Office of Workplace Diversity (OWD) – The OWD advises the Commission on all issues related to
workforce diversity, affirmative recruitment, and equal employment opportunity. A principal
function of this office is to lead, advise, and assist the Commission, including all of its component
bureau/office managers, supervisors, and staff, on ways to promote inclusion and full participation
of all employees in pursuit of the Commission's mission.
The organizational chart for the FCC bureaus and offices appears on page 8.



                                                 5
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2002 Annual Financial Report


Components of the FCC for Financial Statement Purposes

The Universal Service Fund

Universal Service Fund (USF) – The USF is a significant program of the FCC. As designated in the
U.S. Budget each year, the USF consists of five elements, four of which are the universal service
support mechanisms and the fifth being the Telecommunications Relay Service (TRS) Fund. The
universal service support mechanisms were established pursuant to Section 254 of the Act, as
amended. The TRS Fund was established pursuant to Section 225 of the Act, as amended.
The universal service support mechanisms are funded through mandatory contributions from U.S.
telecommunications providers, including local and long distance phone companies, wireless and
paging companies, and payphone providers. There are four universal service support mechanisms:
high cost, low income, rural health care, and schools and libraries. The High Cost Support
Mechanisms, including High Cost Loop Support, Long Term Support, Local Switching Support,
Interstate Access Support, and Interstate Common Line Support, provide support to telephone
companies that serve high cost areas. The Low Income Support Mechanism assists low-income
consumers by supporting service connection charges as well as monthly charges. The Rural Health
Care Support Mechanism allows rural health care providers to pay the same for telecommunications
services as their urban counterparts. The Schools and Libraries Support Mechanism provides
schools and libraries discounts on telecommunications services, Internet access, and internal
connections. Consumers benefit from the support mechanisms which provide money directly to
service providers to defray the cost of delivering services to customers who use the
telecommunications services supported by these mechanisms. The universal service support
mechanisms operate on a different fiscal year from other FCC programs; the USF fiscal year
commences January 1 and ends December 31.
The TRS Fund compensates TRS providers for the reasonable costs of providing interstate
telephone transmission services that enable a person with a hearing or speech disability to use such
services to communicate with a person without hearing or speech disabilities in a manner that is
functionally equivalent to the ability of individuals without hearing or speech disabilities. The costs
of providing interstate TRS are recovered from subscribers of interstate telecommunications
services through shared-funding cost recovery mechanisms. The TRS program also operates on a
different fiscal year from other FCC programs; the TRS fiscal year commences July 1 and ends
June 30.

Universal Service Administrative Company (USAC) – USAC administers the four universal service
support mechanisms of the USF under the direction of the FCC.


National Exchange Carriers Association (NECA) – NECA administers the TRS Fund under the
direction of the FCC.




                                                  6
                                                                 Federal Communications Commission
                                                             Fiscal Year 2002 Annual Financial Report


Other FCC Components

North American Numbering Plan (NANP) – The NANP is the basic numbering scheme permitting
interoperable telecommunications service within the United States, Canada, Bermuda, and most of
the Caribbean. Section 251(e)(1) of the Act requires the Commission to create or designate one or
more impartial entities to administer telecommunications numbering and to make such numbers
available on an equitable basis. Section 251(e)(2) of the Act requires that the costs of number
administration arrangements and number portability be borne by all telecommunications carriers on
a competitively neutral basis as determined by the Commission. In implementing Section 251, the
FCC appointed a NANP Administrator and a Billing and Collection Agent. NeuStar, Inc. is the
NANP Administrator (NANPA) and the North American Billing and Collection, Inc. (NBANC) is
the Billing and Collection Agent.




                                               7
                                   Federal Communications Commission
                               Fiscal Year 2002 Annual Financial Report




Last Updated on 12-03-02   8    Non-Public – For Internal Use Only
                                                                                         Federal Communications Commission
                                                                                     Fiscal Year 2002 Annual Financial Report

     Facilitating the Communications Revolution – FCC Implementation
     of the Government Performance and Results Act

            “The …FCC continues its efforts to implement a long-term
            business plan designed to make it a more responsive, efficient
            and effective agency, capable of facing the technological and
            economic opportunities and challenges of the new
            millennium....”
                                                                                    Chairman Michael K. Powell
                                                                        Congressional Testimony, April 17, 20025


I.       Overview: Responsive to the rapid changes in technology sectors, the FCC’s strategic planning
         process is continually evolving. However, the fundamental mission of the FCC remains to
         implement the Act, as amended, in a manner that promotes competition, innovation and
         deregulation in the communications industry and to make available high-quality
         communications services for all Americans. In order to achieve these objectives in this time of
         great innovation in the communications industry, the FCC must strive to remain on the cutting
         edge of technology, economics, and the law.
         To ensure the FCC is making strides in fulfilling its mission and, in accordance with the
         Government Performance and Results Act of 1993 (GPRA), the Commission developed
         strategic goals and objectives and related performance measures. The FCC recently posted the
         revised Strategic Plan for FYs 2003 through 2008 on the FCC website at:
         http://www.fcc.gov/omd/strategicplan/strategicplan2003-2008.pdf.         The Plan reflects the
         refocusing of the FCC’s mission, strategic objective, and reallocation of resources as well as the
         implementation of the recent organizational restructuring. The consolidation of bureaus and
         activities allows the FCC to emphasize core performance measures in greater detail. Since
         passage of the GPRA, the role of, and the environment surrounding the FCC has changed
         significantly. The revised Strategic Plan reflects the direction in which the FCC should proceed
         if the American people and economy are to continue to benefit from ongoing developments in
         global communications.
         Because the revised Strategic Plan will not be implemented until FY 2003, this overview
         focuses on performance measures drawn from the FCC’s Annual Performance Plan as submitted
         to Congress with the Commission’s FY 2003 budget estimates as well as the FY 2001 Annual
         Program Performance Report (March 2002), which assesses FY 2001 performance and
         highlights the goals for FYs 2002 and 2003. These measures are consistent with the FCC’s FY
         1999-2002 Strategic Plan,6 and will be updated in future years as the new Strategic Plan takes
         effect. The performance measures selected for this Annual Financial Report were based on
         links to the Commission’s most significant activities.

     5
       Testimony before the Subcommittee on Commerce, Justice, State and the Judiciary of the Senate Committee on Appropriations by
     FCC Chairman Michael K. Powell on April 17, 2002.
     6
       Unless otherwise noted, the FCC Strategic Plan referenced is for FY 1999-2002, and not the FY 2003-2008 Strategic Plan.

                                                                   9
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2002 Annual Financial Report

II.      General Goals and Objectives: Consistent with the objectives of the Act, the Commission has
         sought to rely increasingly on market forces to promote competition to foster the availability of
         high quality communications services to consumers at reasonable prices. The FCC is
         challenged to continue to find ways to foster competitive entry into established markets, while
         encouraging the development of open, competitive markets for new and innovative
         technological services. The FCC must strive, through the enforcement of policies aimed at
         encouraging competition, to ensure that rules are adhered to fully, and to continue to monitor
         business practices and their impact on consumers. The FCC must also keep focused on the
         global communications marketplace, and the challenges that globalization poses to the sharing
         of spectrum and the maintenance of open international markets.
         The advent of Internet-based and other new, technology-driven, communications services will
         continue to erode traditional regulatory distinctions between the various sectors of the
         communications industry. The FCC’s most immediate challenge is to integrate the changing
         character of the industry into its core functions: 1) licensing; 2) competition; 3) enforcement; 4)
         consumer information services; and 5) spectrum management.7
         The FCC’s goals and objectives, listed in Figure 1, are aligned with the five core functions as
         well as the FCC’s current Strategic Plan and Annual Performance Plan. Eight performance
         measures (numbered and italicized in parentheses) related to the performance objectives are
         detailed further in Part VI of this report, starting on page 16. Not all of the FCC’s performance
         measures are addressed in this report. The eight measures included reflect the Commission’s
         mission and goals; the FCC’s most significant programs; and are consistent with the
         Commission’s implementation of the GPRA. Since the FY 2002 Annual Program Performance
         Report is not available until the end of February 2003, a complete assessment of all of the
         FCC’s FY 2002 performance measure results is not incorporated in this document. Additional
         administrative financial measures are discussed in the “Other Accompanying Information”
         section on page 107 of this report.




  7
      FCC’s FY 2003 Budget Estimates to Congress, Annual Performance Plan, page 18.

                                                                10
                                                                                Federal Communications Commission
                                                                            Fiscal Year 2002 Annual Financial Report

                                              Figure 1:
            Performance Objectives and Measures from Annual Program Performance Report8
         1. Licensing: Create A More Efficient, Effective and Responsive Agency
                 Automate agency processes. (1)
                 Streamline agency’s processes and procedures. (2 and 3)
         2. Competition:
            A. Promote Competition In All Communications Markets
                 Eliminate barriers to entry in domestic markets. (4)
                 Deregulate where appropriate to promote competition. (5)
                 Promote competition in international communications markets.
            B. Promote Opportunities For All Americans To Benefit From The Communications Revolution
                 Promote access for all Americans to communications services. (6)
                 Promote consumer education and information.
         3. Enforcement: Promote Competition In All Communications Markets
                 Enforce the rules so businesses compete fairly. (7)
         4. Consumer Information Services:
            A. Create A More Efficient, Effective and Responsive Agency
                 Provide improved access to all agency information.
            B. Promote Opportunities For All Americans To Benefit From The Communications Revolution
                 Promote access for all Americans to communications services.
         5. Spectrum Management: Manage The Electromagnetic Spectrum In The Public Interest
                  Promote more efficient use of spectrum.
                  Foster the increased availability of spectrum. (8)



        The FCC is continuing its efforts to integrate the Annual Performance Plan with budget
        development and execution. Figure 2 shows the crosswalk between the FCC’s budget
        activities and the number of related performance goals.

                                          Figure 2:
             Number of Performance Measures by Resource Category/Performance Goals
         Performance          Resource
         Goals                Categories      Licensing      Competition   Enforcement   Consumer      Spectrum
                                                                                         Information   Management

         Efficient, effective, responsive          4                                          2
         agency

         Promote competition                                      13            4

         Promote opportunities for all                            5                           2
         Americans

         Manage electromagnetic spectrum                                                                   4




8
    FCC’s FY 2001 Annual Program Performance Report, March 2002, page 3.

                                                            11
                                                                       Federal Communications Commission
                                                                   Fiscal Year 2002 Annual Financial Report


III. Resources and Strategies to Achieve Performance Goals: The FCC has identified strategies
     and resources to achieve the performance goals for each of the five core functions. In FYs 2001
     and 2002, the FCC increased the number of its program activities from the four included in the
     FY 2000 Budget to five in order to account for spectrum management program activities.
     Initially there was no corresponding change in the FCC accounting processes to separately track
     certain costs associated with spectrum management. As a result, in connection with preparing
     its FY 2001 financial statements, the FCC needed to re-allocate certain costs after its FY 2001
     year-end closing from the four activities for which costs were tracked to the five activities for its
     Statement of Net Cost using budget and other sources.
     To address this reallocation of cost issue in FY 2002, the FCC initiated a project aimed at
     enhancing its ability to more accurately capture and report costs associated with all five
     activities using its current cost accounting system. This included implementation of additional
     project codes within the FCC’s accounting system to better capture costs associated with the
     five activities, as well as for those activities related to the USF. The new project codes allow
     FCC employees to more easily and accurately report time associated with spectrum
     management and new program activities. In addition, the FCC developed supplementary time
     reporting policies and procedures for its cost accounting system to aid FCC employees in more
     accurately reporting time and expenses for each pay period.
     The FCC intends to implement a Managerial Cost Accounting System (MCAS), using in-house
     software. The FCC is planning a three-phase approach to implementation. The first phase is to
     implement a cost accounting system, followed by a budget formulation/execution system, and in
     the third phase, the FTE tracking and reporting system. The cost accounting system transition
     should begin with initial system testing in late FY 2003. When fully implemented in FY 2004,
     it will provide a robust and integrated financial management system supporting the partnership
     between program and financial managers, assuring the integrity of information for decision
     making, and measuring the full cost of the FCC’s programs and their various elements,
     activities, and outputs.
     Figure 3 reflects the estimated appropriated budgetary resources dedicated to achieving the
     performance goals within the five core functions. The data is based on the FCC’s FY 2003
     Congressional Budget submission, and does not reflect actual amounts as included in the
     Statement of Net Cost. Additionally, the data includes both direct organizational full-time
     equivalent personnel (FTE) and operating cost, as well as other staff office support (FTE and
     operating cost) necessary to provide policy direction, program development, legal services,
     executive direction and other services associated with each of the individual functions. The
     FCC Budget Office developed the cost-by-activity and FTE estimates for spectrum management
     activities by using similar percentages for allocation of funds as used in the FY 2002
     Congressional Budget submission. Changes in FTE allocations by activity reflect management
     decisions, and impact the resource levels allocated to each activity.
     In addition to the appropriated funds of $245.071 million in FY 2002, the FCC utilized an
     additional $77.918 million in auction recovery funds, and an apportionment of $12.066 million
     for administrative costs of the credit program to achieve the performance goals of the FCC.




                                                    12
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2002 Annual Financial Report

                                           Figure 3:
       Appropriated Budgetary Resources for the FCC Programs by the Five Core Functions9
                                (Dollar amounts in thousands)
                                                  FY 2001 Estimate                          FY 2002 Estimate10
                                       Cost-by-                                      Cost-by-
           Core Functions                              %           FTEs     %                       %       FTEs       %
                                       Activity                                      Activity

      1. Licensing                      $44,253      19.2%         392     20.3%      $46,073     18.8%      390     19.7%

      2. Competition                    $70,177      30.5%         502     26.0%      $73,031     29.8%      496     25.1%

      3. Enforcement                    $68,083      29.6%         593     30.7%      $72,296     29.5%      603     30.5%
           Consumer Information
      4.                                $23,918      10.4%         269     13.9%      $25,242     10.3%      271     13.7%
           Services
      5. Spectrum Management            $23,503      10.2%         175     9.1%       $28,428     11.6%      215     10.9%

           TOTAL:                      $229,933       100%         1,931   100%      $245,071      100%     1,975    100%


     A summary of the strategies to achieve each of the five core FCC functions follows.
     A. Licensing – The FCC has sought to improve its licensing activities through a multi-year
        plan to reengineer and integrate its licensing databases, and through implementation of
        interactive electronic filing systems. Initiatives have included universal licensing,
        streamlined application processes, revised and simplified licensing forms, blanket
        authorizations, authorizations for unlicensed services, and electronic filing of license
        applications and certifications. The benefits derived from these efforts are manifold and
        include a more economical use of FCC personnel resources, improvement in processing
        times, the ability of customers to file via the Internet or through other electronic filing
        mechanisms, and the ability to provide customers with immediate status reports on their
        applications. These all have resulted in improved service to the public.
     B. Competition – As the FCC’s role changes from market regulator to market facilitator, the
        Commission will rely less on traditional rulemaking procedures where possible, and will
        rely more on interagency task forces, advisory committees, and state, local, and regional
        consortia. The FCC will endeavor to assist the rapid expansion of innovative new
        technologies. In addition, the Commission will continue to promote the development of
        competition in the local exchange market through expeditious review of applications to
        increase the range of choices in local telephone service providers, multipoint video
        programming market services, and mobile wireless providers. At the same time, the
        Commission will vigorously review rules and spectrum allocation policies to ensure that
        FCC rules, regulations, and activities do not deter development of emerging technologies.




9
  Data sources: Annual Performance Plan as included in the FY 2003 Budget Estimates to Congress and supporting documentation
from the FCC Budget Office.
10
   At the time the budget was published, the FCC was involved in the restructuring and reorganization of activities, and the FTE
allocations were not finalized.

                                                              13
                                                                               Federal Communications Commission
                                                                           Fiscal Year 2002 Annual Financial Report

     C. Enforcement – An important element for competitive markets is the full and fair
        enforcement of FCC’s rules and regulations. Effective use of the FCC’s resources is
        critical to ensuring full implementation of the Act, as amended, the 1996 Act, and the
        Commission’s rules specifically designed to open communications markets to competition
        and enhancing choices for consumers. An essential step in achieving these objectives was
        the creation of the EB in November 1999, which consolidated functions formerly
        dispersed throughout the FCC. The EB was created to respond quickly and efficiently to
        the demands of a competitive environment. It allows for a streamlined, centralized
        enforcement program, capable of identifying problems as they emerge, thus better
        equipping the Commission to provide a wide range of enforcement initiatives. The EB
        and CGB work together to track trends and share information. The end result is improved
        performance through an expanded outreach program, a better-educated
        telecommunications consumer, and a more law-abiding industry.
     D. Consumer Information Services – In FY 2000, the FCC consolidated its consumer
        information activities within one organization to provide “one-stop shopping” to the
        telecommunications consumer. Consolidation of consumer information services under a
        single structure yields significant benefits to consumers and stakeholders – providing timely,
        accurate, and consistent information; tracking trends and mapping “hot” consumer issues
        nationwide, by region or by state; achieving economies of scale; and developing a useful
        Consumer Information Strategic Plan for FCC-wide applications without duplication in
        coverage. Progress in the FCC’s consumer information services includes: a thorough
        evaluation of the web site services, including a survey of users; development of a redesigned
        homepage with a wealth of information on all telecommunications topics; an electronic
        comment filing system that allows stakeholders throughout the country to file their
        rulemaking comments electronically; and Consumer Information Centers that provide
        consumers with detailed information on all telecommunications-related topics. In September
        2002, the FCC was ranked first in the Federal Government for its support of online services
        and features such as searchable databases, a comprehensive privacy and security policy,
        language translation availability, publication access, and live audio/video events. The
        website was also commended for being logical and presented in a clear, concise format.
     E.    Spectrum Management – The successful deployment of many new communications
           technologies depends on the availability of electromagnetic spectrum. To ensure that the
           FCC does not hinder the growth of new services, the Commission issued guidelines for
           future spectrum management policies designed to maximize the efficient use of spectrum
           and make more spectrum available while ensuring the public interest.
           In June 2002, the Commission established the Spectrum Policy Task Force to conduct a
           systematic evaluation of existing spectrum policies and to provide recommendations on
           improving spectrum management. The Task Force issued a Public Notice requesting
           comments on issues related to: market-oriented allocation and assignment polices;
           interference protection; efficient use of spectrum; public safety communications; and
           international issues.11 On October 30, 2002, the FCC Chairman, in a speech on new



11
  Public Notice DA 02-1311, “Spectrum Policy Task Force Seeks Public Comments on Issues Related to Commission’s Spectrum
Policies,” ET Docket No. 02-135, July 8, 2002.

                                                          14
                                                                                       Federal Communications Commission
                                                                                   Fiscal Year 2002 Annual Financial Report

               directions in wireless policy, noted that a key objective of the Commission is spectrum
               policy reform, and that reform should be based on the most updated technologies.12
               On November 7, 2002, the Task Force presented its findings and recommendations to
               modernize the rules that guide spectrum management to develop a more flexible,
               consumer-oriented approach. According to the Task Force, “increasing demand for
               spectrum-based services and devices are straining longstanding, and outmoded, spectrum
               polices.” Additional and new uses of electromagnetic spectrum hold great promise to the
               telecommunications industry and the American consumer. Key recommendations of the
               Task Force include efforts to:
                   • Migrate toward more flexible, consumer-oriented policies;
                   • Adopt quantitative standards to provide interference protection;
                   • Improve access through the time dimension; and
                   • Shift from a “command and control” model to exclusive and commons models
                       (increasing flexibility).13
               On November 15, 2002, the Task Force issued its formal report with their
               recommendations. The report can be found on the FCC website at: http://www.fcc.gov/.

IV. Verification, Validation, and Program Evaluation. The FCC is dedicated to ensuring that
    both the mission and resources entrusted to it are properly and effectively managed. The FCC
    uses numerous methods and techniques to verify and validate data underlying its performance
    indicators. Methods include: certifications of reliability from data providers, a general program
    of review and evaluation carried out by the Performance Evaluation and Records Management
    (PERM) staff in the OMD, and audits, reports, and reviews performed by other groups such as
    the IG and General Accounting Office (GAO). The performance of the FCC is also evaluated
    through the Annual Program Performance Report.
        The data included for each of the performance measures in this report includes baseline and
        trend data back to FY 1999, as applicable, or as far back as baseline data is available. In
        general, the expected data sources are internal reports generated by various FCC bureaus and
        offices,14 which are often combinations of internally-generated data and externally provided
        data from government surveys such as the Current Population Survey and industry data. In
        other cases it is provided by outside sources (and is so noted where external data is used – e.g.,
        Competition Reports).
        Since FCC staff and automated processing systems are the source for much of the data on the
        FCC’s performance, an acceptance of the professionalism, expertise, and ethical behavior of the
        FCC’s line staff is fundamental to validating FCC performance data. This trust is further
        validated by certifications (A-130 and others) done by FCC IT staff on the secure and reliable
        operations of the FCC’s information technology hardware and software. Finally, assistant
        bureau and office chiefs must sign a statement certifying the accuracy of the performance data
        they transmit, along with a brief methodology statement identifying the original source of the
        data (internal or external) and the systems used to gather, process, and analyze the data.

 12
      Remarks, Chairman, Michael K. Powell, “Broadband Migration III: New Directions in Wireless Policy,” October 30, 2002.
 13
      ET Docket 02-135, “Spectrum Policy Task Force Recommendations for Spectrum Policy Reform,” November 7, 2002.
 14
   Data from FCC programmatic reports and application processing systems, inquiry and complaint tracking systems,
 enforcement reporting systems, and hiring and training systems.

                                                                15
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2002 Annual Financial Report

     PERM does a second-level review, cross-checking the basic validation provided by the FCC’s
     Bureaus and Offices as part of its on-going program of internal controls. PERM focuses its
     program of internal controls on (in priority order): prevention, detection, and, where necessary,
     correction. Prevention controls are those designed to prevent or discourage errors or
     irregularities. Detection controls are designed to identify errors or irregularities after they have
     occurred. PERM methods include random internal reviews, formal program evaluations, and
     vulnerability assessments. Finally, if conditions are identified in a FCC bureau or office that
     show a program/project/activity is not operating effectively, efficiently, reliably, or in
     compliance with applicable laws, regulations, and priorities, PERM works with the affected
     bureau or office to remedy these conditions in a timely manner.
     The final verification and validation process include the audits and studies conducted by the
     FCC’s IG or the GAO. The IG conducts an average of nine audits of FCC activities every year
     while the GAO has been averaging several studies of FCC activities or issues per year, one or
     two of which may include recommendations to the Commission. All of these independent
     reviewers have access to FCC staff and records and point out areas of concern or in need of
     improvement when they are uncovered.
V.   Performance Measures Highlighted in the Financial Statements: The process for
     determining the appropriate performance measures for integration into the financial statements
     starts with initial discussions between PERM, the Financial Operations Center, the Budget
     Office, and program staff, as appropriate. In those discussions, participants review the GPRA
     performance measures, identify measures for sizeable FCC activities, determine data sources,
     and select measures that have significant programmatic, financial, and/or managerial impacts.
     The performance measures highlighted in the Annual Financial Report in future years will be
     updated to reflect changes in the Strategic Plan for FY 2003-2008. Additionally, once the
     MCAS is implemented, linkages between performance measures, the budget, and the Statement
     of Net Cost will be more easily achieved.
     Based on guidance from the Office of Management and Budget (OMB) and the Financial
     Accounting Standards Advisory Board (FASAB), performance measures for the FY 2002
     Annual Financial Report, highlighted below, have been selected because they are:
          9 aligned with the Commission’s mission and goals;
          9 limited to the FCC’s most significant programs; and
          9 consistent with the Commission’s implementation of the GPRA as reflected in budget
             documents and other related materials.

VI. FCC Performance Measures: This section discusses eight performance measures related to
    the FCC’s strategic goals and objectives (detailed in Figure 1 on page 11) as well as the FCC’s
    success in achieving its FY 2002 targets. All of the measures have been updated to reflect the
    performance results included in the FCC’s FY 2001 Annual Program Performance Report.
    Each section below includes a table that identifies the FCC’s FY 2002 accomplishments.
    Where data from prior years is available, they are also highlighted to provide trend information.
    Due to the recent FCC reorganization, performance information has been modified to reflect the
    creation or elimination of bureaus. The performance measures were selected by FCC
    management as significant for inclusion in this FY 2002 Annual Financial Report for reasons
    noted previously.


                                                   16
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2002 Annual Financial Report


       1. LICENSING:
           Strategic Goal – Create a More Efficient, Effective and Responsive Agency
           Performance Objective – Automate Agency Processes
           Performance Measure – Create a paperless FCC by automating functions and fully
           implementing automated licensing and electronic filing systems to promote one-stop
           shopping; consolidate individual systems and adopt one standard user interface where
           possible to simplify public use of our systems

         This performance measure encourages efficient and innovative licensing and authorization
         of filing services by automating or streamlining several critical FCC functions and business
         processes. The goal is to implement automated licensing and electronic filing systems
         across the Commission, creating a more efficient, effective and responsive FCC in a
         paperless environment. As the FCC works to improve and implement new business
         processes and practices, coupled with advances in information technology, it moves toward
         being a leader in implementing Federal e-government initiatives.
          Policy Initiative --                 FY99                   FY00              FY01               FY02
          Measurement                   Goal          Actual       Goal Actual       Goal Actual        Goal Actual
          Electronic Filing –        Provide        Provided       60%   60%         70%   77%          80%   92%
          Percentage of electronic   electronic     electronic
          applications filed via     filing         filing
          licensing/filing systems   capabilities   capabilities


         The FCC continues to seek improvements to its licensing activities through a multi-year
         Chairman-sponsored initiative to design and develop a common repository of information
         that can be shared by various Commission systems. The objective of this effort is to
         develop data and business process models for its major licensing systems and help create a
         vision for licensing systems for the future. This effort’s ultimate goal: longer-term process
         and data improvements that will help the FCC better meet its regulatory and customer
         service goals.
         Specific FCC initiatives to promote improved business processes in licensing/filing
         activities include providing universal licensing capability, streamlining the application
         process, revising and simplifying licensing forms, providing blanket authorizations, and
         enhancing electronic licensing/filing systems functionality.15 This measure compares the
         number of applications submitted using electronic licensing/filing systems with the total
         number of applications processed. In FY 2002, the percentage of licensing applications
         received electronically by the FCC was 92% of the total processed (572,531 of 621,227 total
         filings), exceeding the Commission’s 80% goal, and representing a 15% increase over FY
         2001. Figure 4 provides details for FY 2002 by bureau and office.




15
  There are twelve electronic filing/licensing systems: Universal Licensing System, Broadband Licensing System, Consolidated
Database System, International Bureau Filing System, Management Database System, Electronic Comment Filing System,
Operations Support for Complaint Analysis and Resolution, Cable Operations and Licensing System, Electronic Tariff Filing
System, Access, Equipment Authorization System, and the Experimental Licensing System.

                                                              17
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2002 Annual Financial Report

                      Figure 4: FY 2002 Electronic Filing/Licensing by Bureau and Office
                    Bureau/Office                  Number of Electronic           Total Number of              Percent
                                                    Filings/Applications         Filings/Applications          Achieved
           Office of Engineering and                        1,943                         2,018                  96.2%
           Technology
           Wireless Telecommunications                     551,560                      595,639                  92.6%
           Bureau
           Media Bureau*                                   16,289                        18,452                  88.3%
           International Bureau                             1,901                         3,323                  57.2%
           Wireline Competition Bureau                       838                          1,795                  46.6%
           Total Agency                                    572,531                      621,227                  92.1%
                                                                     st
         * Represents data from former Mass Media Bureau (1 two quarters) and new MB data (last 2 quarters).

         By comparison, in FY 2001, the number of applications received electronically by the FCC
         was 77% of the total filings processed (475,871 out of 617,259), exceeding the
         Commission’s 70% projected goal, and representing a 17% increase over FY 2000.
         In FY 2002 a total of 110 application and licensing services16 were available to the public,
         of which 74 (67%) had automated licensing/filing capability, utilizing 20 electronic filing,
         licensing, and public access systems.17
         In late FY 2000, the FCC entered into a consolidated Programming Services Contract
         (PSC), providing technical support for numerous information technology systems
         throughout various FCC bureaus and offices. Four groups of contractor staff, each
         supporting application systems by a “system group” – Administrative, Financial, Licensing,
         or Tracking – provide system technical and enhancement support. Key agency-wide
         licensing/filing systems, such as the Electronic Comment Filing System, Electronic Tariff
         Filing System, Operations Support for Complaint Analysis and Resolution, are interspersed
         among the administrative and tracking contract tasks. This approach was adopted to
         promote efficient use of contract staff and funding economies, and provide technical
         resource skills and knowledge sharing among the various applications in (and among)
         system groups. This concept also provides the added benefit of reducing time spent waiting
         for availability of the right technician by allowing them to "task share" among various
         technical support activities.
         For FY 2002, PSC technical support is funded and managed by each system group, such as
         the Licensing Group, and not by individual system applications. Commencing in FY 2004,
         the implementation of the new cost accounting system will provide the FCC with the means
         to track contractor costs to the individual application level.
         The FCC expended $22.0 million of total appropriated funds in FY 2002 toward the
         Commission’s information technology (IT) program, including base-level funds for day-to-
         day IT operations, bureau and office application systems maintenance, and limited life-cycle
         replacement. Of the expended amount, approximately, $2.9 million (13%) was used for
16
  A “service” refers to a discrete application or license.
17
  The FCC recently reviewed application, licensing and public access services to update related information on the FCC’s automated
capabilities.

                                                               18
                                                           Federal Communications Commission
                                                       Fiscal Year 2002 Annual Financial Report

electronic filing and licensing system enhancements, technical support, enhanced security,
and development.
In FY 2001, the FCC expended $23.6 million of total appropriated funds toward the
Commission’s IT program. Nearly $4.4 million (19%) of these expenditures were obligated
for electronic filing and licensing systems enhancements, technical support, and
development.
Figure 5 details actual expenditures for technical support of electronic licensing/filing
systems and total IT spending for FYs 2000 - 2002. To more accurately reflect overall costs
related to IT, in FY 2002 the expenditures reflect consolidated balances, rather than
individual bureau/office expenditures.

      Figure 5: Comparison of Licensing/Filing Systems
    Technical Support and Total IT Dollars – FYs 2000-2002

   $25,000,000


   $20,000,000


   $15,000,000                                            Licensing Technical
                                                          Support
                                                          Total IT $ (appropriated)
   $10,000,000


    $5,000,000


           $0
                   2000         2001         2002


                    Licensing Technical           Total IT $
        FY               Support                (appropriated)             %
       2000             $3.2 million             $17.7 million            18%
       2001             $4.4 million             $23.6 million            19%
       2002             $2.9 million             $22.0 million            13%

The Consumer Information Management System (CIMS) is a strategic initiative being
undertaken by the CGB to reengineer its consumer center business processes and to
modernize the associated technology infrastructure. While not an electronic licensing/filing
system per se, CIMS will remove obsolete and unsupported information tracking
technologies, reduce the existing multiple-database environment, and simplify workflows.
The overriding goal of CIMS is to create a FCC consumer center that emulates industry best
practices and deploys the best available commercial software. In FY 2002, CGB completed
CIMS Phase II, which focused on validating requirements and identifying the recommended
solution set. This solution set includes products to address electronic case management and

                                        19
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2002 Annual Financial Report

 workflow, telephony, and database technology. In FY 2003, the CGB will build and deploy
 CIMS resulting in a quantum leap in the FCC’s ability to provide service to the public and
 meet its e-government goals. Security features will be stringently administered and the
 ability to capture documents and attachments, such as electronic images, will reduce
 workflow time and eliminate paper-tracking processes. Once implemented, CIMS will
 simplify public use of FCC systems and provide the FCC with a single, integrated (“unified
 messaging” concept), resource to quickly obtain accurate and up-to-date information.


2. LICENSING:
  Strategic Goal – Create a More Efficient, Effective and Responsive Agency
  Performance Objective – Streamline Agency’s Processes & Procedures
  Performance Measure – Improve speed of disposal for processing license
  applications

 This performance measure promotes efficient and innovative licensing and authorization of
 services by creating a faster, flatter, more functional FCC. Across the Commission, the FCC
 must invest in new technologies that will improve processes and allow the Commission to
 be as responsive to customers as possible. The FCC must be structured to react quickly to
 market developments, to work more efficiently with a competitive industry, and to focus on
 bottom line results for consumers. Ultimately, the Commission must be able to render
 decisions quickly, predictably, and without imposing needless costs on industry or
 consumers through unnecessary delays.
  Policy Initiative –                 FY99                 FY00           FY01             FY02
  Measurement                  Goal     Actual      Goal      Actual   Goal Actual      Goal Actual
  Speed of Disposal (SOD) –
                               90%       88%        90%        89%     90%     94%      95%      96%
  Percentage of applications
  disposed within SOD goal


 Each of the bureaus and affected offices sets customer service speed of disposal goals for
 the processing and disposing of license applications, tariff filings, formal complaints, and
 cable service activities. Internal and external factors, including resources for staffing and
 estimates of workload, play a role in the FCC’s ability to meet goals for processing license
 applications. In some cases, conflicting applications, complex legal and engineering
 questions, and other issues impact the measurement of speed of disposal. During FY 2002,
 the MB transferred all Multichannel Multipoint Distribution Service, and Instructional
 Television Fixed Service licensing activities to the WTB as a part of the reorganization. In a
 separate effort, as part of the Chairman's initiative to streamline our processing goals, MB
 no longer distinguishes between routine and non-routine and has reduced processing goals
 to 12 months or less (except for Low Power TV). The FCC is continuing its reviews in an
 effort to improve consistency in measuring the speed of disposal.
 Tracking of the speed of disposal goals is based on “non-routine,” “routine,” and “blocked”
 categories, defined generally as follows:
     9 Routine: applications/cases/proceedings that are uncontested, non-blocked, and do not
       involve waivers or any complex matters or circumstances.

                                               20
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report

   9 Non-routine: applications/cases/proceedings that are contested or involve rule waivers,
     conflicting proposals or other issues within the bureau’s purview.
   9 Blocked: applications/cases/proceedings that involve issues or processing outside of the
       Commission's control.
In FY 2002, a total of 635,967 actions were disposed of; 608,701 of which were disposed
within the Commission’s speed of disposal goals. Agency-wide, the percentage of actions
disposed of within these goals was 95.7%, exceeding the 95% target.
Of the 603,417 actions disposed of in FY 2001, 565,830 were disposed of within the goals.
Agency-wide, the percentage of actions disposed of within the goals was 93.7%.

                          Figure 6:
Percentage of Actions Disposed Within Speed of Disposal Goals
                                FY 2002 Goal: 95%
  100%
                                                                              CSB
   90%
                                                                              EB
   80%
   70%                                                                        IB
   60%                                                                        MMB
   50%                                                                        MB**
   40%                                                                        OET
   30%                                                                        WCB
   20%                                                                        WTB
   10%                                                                        AGENCY
    0%
                 FY 01 Average                   FY 02 Average

       Source of Data: SOD Reports from bureaus/offices.
       **Reflects combined data of Mass Media Bureau & Cable Services Bureau, merged in
       the MB. Prior data for Mass Media Bureau and Cable Services Bureau is included to
       reflect     activity     prior     to      the    March        2002       merger.




                                           21
                                                                               Federal Communications Commission
                                                                           Fiscal Year 2002 Annual Financial Report



3. LICENSING:
   Strategic Goal – Create a More Efficient, Effective and Responsive Agency
   Performance Objective – Streamline Agency’s Processes & Procedures
   Performance Measure – Substantially reduce our backlog, including licensing
   applications, petitions for reconsideration, and other proceedings

 This performance measure promotes efficient and innovative licensing and authorization of
 services by creating a faster, flatter, more functional FCC with substantially reduced
 backlogs in licensing applications, petitions for reconsideration, and other proceedings. The
 FCC must be structured to react quickly to market developments, to work more efficiently
 with a competitive industry, and to protect consumers.
  Policy Initiative –                FY99                       FY00               FY01                   FY02
  Measurement*                    Goal  Actual           Goal      Actual       Goal  Actual           Goal  Actual
  Backlog Reduction –            No            --        60%        96%         90%   98.5%            95%   98.3%
  Number of applications         FY99
  backlogged vs. number of       goal.                 (not to     (4% of      (not to     (1.5% of   (not to     (1.7% of
  applications received.                               exceed      receipts    exceed      receipts   exceed      receipts
                                                       40% of      by end of   10% of      on         5% of       on
  (Backlog is 1.5 times the
                                                       receipts)   4th qtr.)   receipts)   average)   receipts)   average)
  speed of disposal goal.)
 * In some cases the FCC may not meet timelines due to external requirements (e.g., involvement of outside entities).

 In calculating the percentage of backlogged applications, the FCC incorporates the workload
 for processing new applications, which impacts the Commission’s ability to respond to
 overage cases. In FY 2002, the FCC maintained backlog levels at approximately 1.7% of
 receipts on average over the four quarters (exceeding the 5% goal), with a minor drop in the
 second quarter and a minor increase in the third quarter. Overall, the FCC reduced backlog
 by 98% FCC-wide.
 In FY 2001, the FCC reduced backlogs from 3.1% in the first quarter to 0.82% in the fourth
 quarter. Overall, by the end of FY 2001, the FCC reduced its backlog by 99% FCC-wide.
 On average, backlogs were 1.5% of receipts, thus exceeding the goal of 10%. In some
 cases, these backlogs existed due to technical issues unresolved within the industry,
 processing procedures in the satellite space program, and broadcast auction procedures.
 By reducing the number of forms required, and enabling the public to file applications
 electronically, the FCC will be in a better position to respond to backlogged applications,
 thereby providing better customer service.




                                                       22
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report


                   Figure 7: Backlog Reduction Efforts
(Percentage of Total Workload Identified as Backlogged – i.e., 1.5 times the SOD Goal)

 40%                                                                           CGB
                                                                               CSB
 35%
                                                                               EB
 30%                                                                           IB
 25%                                                                           MMB
 20%                                                                           MB**
                                                                               OET
 15%
                                                                               WCB
 10%                                                                           WTB
  5%                                                                           AGENCY

  0%
               FY 01 Average                     FY 02 Average

       Source of Data: SOD Reports from bureaus/offices.
       **Reflects combined data of Mass Media Bureau & Cable Services Bureau, merged in
       the MB. Prior data for Mass Media Bureau and Cable Services Bureau is included to
       reflect     activity     prior     to      the    March       2002        merger.




                                          23
                                                                                        Federal Communications Commission
                                                                                    Fiscal Year 2002 Annual Financial Report



           4. COMPETITION:
              Strategic Goal – Promote Competition in All Telecommunications Markets
              Performance Objective – Eliminate Barriers to Entry in Domestic Markets
              Performance Measure – Complete the opening of local telecommunications markets
              through pro-competitive unbundling, interconnections & co-location policies

            This performance measure promotes the development of competitive, innovative, and high
            quality communications systems. As the Commission strives to assist in the rapid expansion
            of innovative new technologies, its role will change from market regulator to market
            facilitator. The FCC will continue to promote competition in the local exchange market to
            dramatically increase the range of choices in local telephone service providers, multipoint
            video programming market services, and mobile wireless providers.
             Policy Initiatives –                        Goal                                 Actual Performance
             Measurement
             Competition –              FY99:                                      FY99:
             Percent growth in          ¾    Implement local competition           ¾    Implemented a variety of rulemakings
             competition and                 provisions of the                          designed to provide guidance in the
             consumer options –              Telecommunications Act of 1996.            areas of unbundling, co-location, line-
             “State of Competition                                                      sharing, and pricing in order to facilitate
             Reports”                                                                   local competition.

             (A) Competitive Local      FY00:                                      FY00:
             Exchange Carriers          ¾    15% of households with 1 CLEC;        ¾    88% of households within zip code with
             (CLECs)                    ¾    10% have 2 new CLECs.                      1 new CLEC;
                                                                                   ¾    78%18 of households with 2 new CLECs.

                                        FY01:                                      FY01:
                                        ¾    30% of households live in zip         ¾ 91% of households resided in zip codes
                                             codes with 1 CLEC;                         with at least 1 CLEC;
                                        ¾    10% with 2 CLECs.                     ¾    83% with 2 CLECs.

                                        FY02:                                     FY02:
                                        ¾    90% of households live in zip        ¾ Results will not be available until the
                                             codes with 1 CLEC;                        summer of 2003.
                                        ¾    80% with 2 CLECs;
                                        ¾    10% with 3 CLECs.




18
     Represents a revised estimate from 77% as included in the FY 2001 Annual Financial Report to 78% due to a rounding error.

                                                                 24
                                                                                        Federal Communications Commission
                                                                                    Fiscal Year 2002 Annual Financial Report

           Policy Initiatives –                       Goal                                  Actual Performance
           Measurement
           (B) Advanced              FY99:
           Technologies:             ¾    No FY99 goal
           Advanced Cable
           Services and              FY00:                                      FY00:
                                     ¾    15% of households with access to      ¾     Goals exceeded by end of calendar year
           Multichannel Video
                                          advanced cable;                             2000. Approximately 58% of TV
           Programming                                                                households have access to advanced cable
                                     ¾    10% of households with access to 3
           Distributors                   or more MVPDs.                              (cable modem) service.
           (MVPDs)                                                              ¾     91% have access to 3 or more MVPDs;
                                                                                      5%20 have access to 4 or more; 5% have
                                                                                      access to 5 or more.

                                     FY01:                                      FY01:
                                     ¾    15% of households with access to      ¾     Goals exceeded by end of calendar year
                                          advanced cable;                             2001. Approximately 66%21 of TV
                                     ¾    10% of households with access to 3          households have access to advanced cable
                                          or more MVPDs.                              (cable modem) service.
                                                                                ¾     91% have access to 3 or more MVPDs;
                                                                                      6% have access to 4 or more.

                                     FY02:                                      FY02:
                                     ¾ 10% of households with access to 3       ¾     Goals exceeded by the end of calendar
                                          or more MVPDs.19                            year 2002.
                                                                                ¾     91% have access to 3 or more MVPDs;
                                                                                      6% have access to 4 or more.
           (C) Mobile Wireless       FY99:
           Providers                 ¾    No FY99 goal.

                                     FY00:                                      FY00:
                                     ¾    73% of households with access to 5    ¾     75% of households with access to 5 or
                                          or more mobile wireless providers.          more providers.

                                     FY01:                                      FY01:
                                     ¾    78% of households with access to 5    ¾     80% of households with access to 5 or
                                          or more mobile wireless providers.          more mobile wireless providers.

                                     FY02:                                      FY02:
                                     ¾ 80% of households with access to 5       ¾ Results will not be available until the
                                          or more mobile wireless providers.          summer of 2003.



         In FY 1999, the FCC implemented a variety of rulemaking decisions designed to provide
         guidance in the areas of unbundling, co-location, line-sharing, and pricing in order to
         facilitate local competition. These decisions prescribe certain minimum points of
         interconnection necessary to permit competing carriers to choose the most efficient points at
         which to interconnect with the incumbent local exchange carrier’s (ILEC) network. While
         the actual pricing regulation is left to the states, the FCC provides a methodology for
         establishing the rates for interconnection and the purchase of unbundled elements. The


19
   In FY 2002, the FCC did not include penetration of advanced cable services as a goal in the Annual Performance Plan. While data
is still tracked for advanced communications systems (of which cable is one option) a goal was not set in the APP.
20
   Amount varies slightly from the FY 2001 Annual Financial Report due to revised estimates from the bureau (to 5%).
21
   Figure varies slightly from the FY 2001 Annual Financial Report due to revised estimates from the bureau.

                                                               25
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2002 Annual Financial Report

          FCC’s cost-based pricing methodology is based on forward-looking economic costs, and is
          at the core of bringing competition to the communications market.
          In March 2000, the Commission established a local competition and broadband data-
          gathering program to assist the Commission in its efforts to monitor and further implement
          the pro-competitive, deregulatory provisions of the 1996 Act. Under this program, service
          providers file reports with the WCB (formerly the Common Carrier Bureau) twice a year,
          providing data that allows the FCC to examine competition and barriers to entry. The MB
          collects similar industry information once each year (this was formerly done by the Cable
          Services Bureau). The data is used to develop competition reports on the communications
          industry. In some cases, these reports are based on the calendar year ending December 31 or
          based on a July 1 to June 30 year. In no cases, however, do they follow the FCC’s Federal
          fiscal year.

          Competitive Local Exchange Carriers
          During FY 2001, the Chairman met with several competitive local exchange telephone
          carriers (CLECs) to discuss and assess what is working in the industry, technological
          obstacles, and best practices to bring effective competition to local phone markets. These
          meetings are examples of FCC outreach to better understand the industry.
          As shown in Figure 8, at the end of calendar year 2001, approximately 91% of U.S.
          households resided in zip codes in which at least one CLEC was present, and 83% resided in
          zip codes in which at least two CLECs were present, exceeding FCC’s goals of 30% and
          10%, respectively. CLECs served local telephone service end-user customers in 62% of the
          nation’s zip codes, up from 56% in calendar year 2000. CLECs reported 19.7 million (or
          10.2%) of the approximately 192 million switched access lines that were in service
          nationwide at the end of December 2001, compared to 17.3 million (or 9% of nationwide
          lines) six months earlier. This represents a 14% growth in CLEC market size during the
          second half of 2001.22 Calendar year 2002 data will be available in Summer 2003.
          At the end of calendar year 2000, 88% of U.S. households resided in zip codes with access
          to at least one new local exchange carrier and 78% had access to two, exceeding the FCC’s
          goals of 15% and 10%, respectively. By comparison, at the end of calendar year 1999, 85%
          had access to at least one CLEC.23 By the end of calendar year 2000, CLECs reported that
          14.9 million (or 7.7%) of the approximately 193 million nationwide local telephone lines
          that were in service to end-user customers, compared to 11.6 million (or 6.0%) six months
          earlier. This represented a 29% increase in the CLEC market size during the second half of
          calendar year 2000.24




22
   “Local Telephone Competition: Status as of December 31, 2001,” Industry Analysis and Technology Division of the Wireline
Competition Bureau, Federal Communications Commission, July 2002. Statistics can be found in Table 1 and Table 13.
23
     This percentage is obtained externally from industry reports based on calendar year ending December 31, 1999.
24
  “Local Telephone Competition: Status as of December 31, 2000,” Industry Analysis Division of the former Common Carrier
Bureau, Federal Communications Commission, May 2001.

                                                           26
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2002 Annual Financial Report


                        Figure 8: Local Exchange Carrier Competition
                          (FY 2002 Goal: 90% of Households with Access to 1 CLEC
                                 80% with access to 2; 10% with access to 3)
                 100%
                                               88%              91%
                   90%         85%
                                                                      82%
                                                   77%
                   80%
                   70%             65%
                                                                                                      % with access to at least
                   60%                                                                                one CLEC
                   50%                                                                                % with access to at least
                                                                                                      two CLECs
                   40%
                   30%
                   20%
                   10%
                    0%
                           1999 December 2000 December 2001 December 2002 December

                  Source of Data: “Local Telephone Competition: Status as of December 31, 2001” except that
                  December 31, 1999 data is obtained externally from industry reports based on the calendar year
                  ending December 31. Results indicate availability within zip code only; the percentage of
                  residential customers currently is lower than the access rate. December 2002 statistics will not be
                  available until Summer 2003.

         Advanced Cable Services and Mutichannel Video Program Distribution
         Advanced telecommunications capability refers to the availability of high-speed, switched,
         broadband telecommunications that enables users to “originate and receive high-quality
         voice, data, graphics, and video using any technology.” “Advanced telecommunications
         capability” and “advanced services” can support two-way (provider-to-
         customer/downstream and customer-to-provider/upstream) communications with a
         broadband width in excess of 200 kilobits per second (kbps). “High-speed” services are
         those with over 200 kbps in at least one direction.25
         External factors impact the FCC’s ability to meet this goal. With many of the new
         technologies in their infancies, uncertainty remains as to the final capability of some
         services. In addition, the degree of consumer demand for these new communications
         services remains unknown, and in these initial stages, prices may outstrip demand. The
         FCC continues to take steps to remove barriers to deployment, to encourage investment in
         technologies that deliver advanced services, and vigorously promote competition in the
         marketplace. The FCC has encouraged initiatives that facilitate the increased speed of
         deployment of advanced services, by participating in a Joint Federal-State Conference on
         Advanced Services (“Joint Conference”), promoting competition-friendly laws, encouraging
         strategic planning and investment by state and local governments, and helping foster

25
  “High-Speed Services for Internet Access: Subscribership as of December 31, 2001,” Industry Analysis Division of the Wireline
Competition Bureau, Federal Communications Commission, July 2002.

                                                              27
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2002 Annual Financial Report

         activism among local business and consumer groups. The FCC continues to work with
         stakeholders on how the FCC or state commissions can better encourage deployment of
         advanced telecommunications services generally by utilizing “price cap regulations,
         regulatory forbearance, measures that can promote competition in the local
         telecommunications market, or other regulatory methods that remove barriers to
         infrastructure investment.”26
         On December 31 2002, the FCC released the “Ninth Annual Report on Competition in the
         Market for the Delivery of Video Programming.” The report found that competitive
         alternatives and consumer choices continue to develop. Cable television remained the
         dominant technology for the delivery of video programming to consumers, although its
         market share continues to decline. Unlike other competition reports, the data provided in
         this report is based on the year ending June 30.27
         The total number of subscribers to both cable and noncable multichannel video program
         distributors (MVPDs) increased to 89.9 million TV households as of June 30, 2002, an
         increase of 1.8% over the 88.3 million households subscribing to MPVDs in June 2001. The
         number of cable subscribers reached nearly 68.8 million as of June 2002, an increase of
         about 0.4% from the 68.6 million cable subscribers in June 2001. The total number of
         noncable MVPD subscribers grew to 21.1 million as of June 2002, an increase of more than
         9% over the 19.3 million subscribers in June 2001. The growth of noncable MVPD
         subscribers continues to be primarily attributable to the growth of direct broadcast satellite
         (DBS) service, which now represents 20.3% of all MVPD subscribers. Some of this
         increase is attributable to the authority granted to DBS operators to distribute local
         broadcast television stations in their local markets, which makes DBS service more
         comparable to cable service and a better competitive alternative for consumers.
         As of June 2001, the total number of subscribers to both cable and noncable MVPDs had
         increased to 88.3 million TV households, an increase of 4.6% over the 84.4 million
         households subscribing to MPVDs in June 2000. Specifically, the number of cable
         subscribers reached nearly 69 million in June 2001, an increase of about 1.9% from the 67.7
         million cable subscribers in June 2000. The total number of noncable MVPD subscribers
         grew from 16.7 million in June 2000 to 19.3 million in June 2001, an increase of more than
         15%.
         The market for the delivery of video programming to households continues to be highly
         concentrated and characterized by substantial barriers to entry. These barriers may include:
         (a) predatory conduct including “predatory pricing;” (b) strategic behavior by an incumbent
         to raise its rival’s costs by limiting the availability to rivals of certain popular programming
         as well as equipment; and (c) local and state level regulations, including delay in gaining
         access to local public rights-of-way facilities as well as delay in getting cable franchises.28
         As shown in Figure 9, by the end of calendar year 2002, 91% of households had access to at
         least three or more MVPD providers far exceeding the 10% goal. In addition, 6% of
         households had access to four or more MVPD providers. These figures were unchanged
         from the previous two years.

26
   FCC’s “Third Notice of Inquiry” released August 10, 2001 (CC Docket No. 98-146).
27
   Note: the FY 2000 Annual Financial Report mistakenly reported data as calendar year end data, rather than June 30 data.
28
   FCC 02-338, “Ninth Annual Report: Annual Status Competition in the Market for Delivery of Video Programming,” Media
Bureau, December 31, 2002, page 52.

                                                           28
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2002 Annual Financial Report

         By the end of calendar year 2001, 91% of households had access to at least three or more
         MVPD providers far exceeding the 10% goal. In addition, 6% of households had access to
         four or more MVPD providers. These figures were unchanged from calendar year 2000.
         By the end of calendar year 2000, 5% of households had access to at least five or more
         MVPD providers, falling short of the 10% goal.29 To better reflect ongoing consolidation in
         the MVPD industry, the FCC changed the annual goal to track households with access to 2,
         3, or 4 or more distributors.


                    Figure 9: Multichannel Video/Broadcasting Penetration
                           (FY 2002 Goal: 10% of Households with Access to 3 or More
                                 Multichannel Video Programming Distributors)

            100%                 91%                       91%                      91%
             90%
             80%
             70%
                                                                                                          2 MVPDs
             60%
             50%                                                                                          3 MVPDs
             40%                                                                                          4 MVPDs
             30%
             20%
                                       6%                        6%                       6%
             10%           2%                       2%                       2%
              0%
                           2000 June               2001 June                 2002 June

                  Source of Data: “Ninth Annual Report on Competition in the Market for the Delivery of Video
                  Programming.” The data is obtained externally from industry reports based on the calendar year
                  ending June 30.


         Access to Wireless Providers
         According to the FCC’s “Seventh Annual Report on the State of Competition in the
         Commercial Mobile Radio Service,” adopted by the FCC in June 2002, by the end of
         December 2001, there was continued strong growth in the mobile telephony sector.
         Subscribership increased from 109.5 million to 128.5 million and produced a nationwide
         penetration rate of roughly 45%. As shown in Figure 10, at the end of calendar year 2001,
         268 million people, or 94% of the total U.S. population, lived in counties with access to
         three or more different operators (cellular, broadband PCS, and/or digital specialized mobile
         radio providers). Over 229 million people, or 80% of the U.S. population, lived in counties
         with five or more mobile telephone operators, exceeding FCC’s goal of 78%. And, 151




29
  In order to reflect the ongoing consolidation in the MVPD industry, the FCC no longer tracks the number of households with
access to 5 or more distributors.

                                                            29
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2002 Annual Financial Report

         million, or 53% of the population, lived in counties with six different mobile telephone
         operators.30
         By comparison, according to the FCC’s “Sixth Annual Report on the State of Competition
         in the Commercial Mobile Radio Service” at the end of calendar year 2000, 259 million
         people, or almost 91%, had access to three or more different operators offering mobile
         telephone services in the counties in which they lived. Over 214 million people, or 75% of
         the U.S. population, lived in areas with five or more mobile telephone operators competing
         to offer service. And 133 million people, or 47% of the population, could choose from at
         least six different mobile telephone operators.31
         Data in Figure 10 below is based on coverage by county. A carrier need only cover a small
         portion of the geographic area in order to be considered providing service, so coverage is
         overstated. Digital technology is now dominant, with digital subscribers now comprising
         approximately 80% of all wireless subscribers (up from 72% in calendar year 2000).
         Additionally, the average price of mobile telephone service declined, continuing the
         previous year’s trend.

                                      Figure 10: Wireless Competition
                      (FY 2002 Goal: 80% Population with Access to 5 or More Providers)
        100%                             91%
                                                             94%
                     88%                                        89%
         90%                                84%
                        80%                                        80%
         80%                                   75%
                           69%
         70%                                                                                           3 or more competitors
         60%                                                                                           4 or more competitors
                                                                      53%
                                                                                                       5 or more competitors
         50%                                      47%
                                                                                                       6 or more competitors
         40%                   35%                                                                     7 or more competitors
         30%
                                                                         21%
         20%                                         12%
         10%                     4%

          0%
                  1999 December       2000 December        2001 December       2002 December

                  Source of Data: “Seventh Annual Report on the State of Competition in the Commercial Mobile
                  Radio Service,” June 2002. The data is obtained externally from industry reports based on the
                  calendar year ending December 31. December 2002 statistics will not be available until Summer
                  2003.




30
   “Seventh Annual Report on the State of Competition in the Commercial Mobile Radio Service,” FCC’s Seventh Annual Report
(FCC 02-179) adopted June 13, 2002.
31
   “Sixth Annual Report on the State of Competition in the Commercial Mobile Radio Service,” FCC’s Sixth Annual Report (FCC
01-192) released July 17, 2001.

                                                            30
                                                                                    Federal Communications Commission
                                                                                Fiscal Year 2002 Annual Financial Report



       5. COMPETITION:
           Strategic Goal – Promote Competition in All Telecommunications Markets
           Performance Objective – Deregulate where Appropriate to Promote Competition
           Performance Measure – Reduce the burden of filing, reporting, record keeping and
           accounting requirements across all communications industries

         This performance measure encourages the development of competitive, innovative, high
         quality communications systems, with a minimum of regulation, or with an absence of
         regulation where appropriate in a competitive market. The FCC is eliminating barriers to
         competition by deregulating where appropriate, and eliminating outdated rules to reduce the
         burden on participants in FCC programs.
          Policy Initiative –                      Goal                                   Actual Performance
          Measurement
          Forms Reduction –         FY99:                                 FY99:
          Percent reduction in      ¾   Continue to evaluate whether      ¾    Initiated a number of rulemakings to eliminate
          the number of forms /         certain regulations are no             obsolete or overlapping regulations and/or
          information                   longer necessary in the public         reporting requirements identified in the FY98
          collections required by       interest and should be repealed        Biennial Review of agency’s rules and
          the FCC                       or modified.                           regulations.

                                    FY00:                                 FY00:
                                    ¾   Complete an aggressive 2000       ¾    Biennial Review completed on schedule. The
                                        Biennial Review aimed at               FCC issued a Memorandum Opinion and Order
                                        eliminating unnecessary rules          relaxing a number of mass media procedures.
                                        and regulations.                  ¾    14 forms eliminated, and 12 added for an annual
                                    ¾   10% reduction in the number of         reduction of 1.4%.32
                                        forms required by the FCC,
                                        using FY99 as a baseline.

                                    FY01:                                 FY01:
                                    ¾   20% reduction in the number of    ¾    Goal partially met.
                                        forms required by the FCC,        ¾    During FY01, eliminated 20 forms / established 9
                                        using FY99 as a baseline.              new forms with a year-end total of 130,
                                                                               representing a 9.1% reduction from FY99 (143
                                                                               forms), and a 7.8% reduction from FY00 (141
                                                                               forms).33 Due to increases in number of forms,
                                                                               the result of data collection requirements imposed
                                                                               by Congress, failed to meet this goal.

                                    FY02:                                 FY02:
                                    ¾   30% reduction in the number of    ¾    During FY 2002, the FCC eliminated 12 forms
                                        forms required by the FCC,             and added 1 new form, representing a 16.8%
                                        using FY99 as a baseline.              reduction over FY99. Due to the reorganization,
                                                                               11 forms were transferred from MB to WTB.




32
   During FY 2000, the agency did not have a mechanism in place to efficiently track the total number of FCC forms, and numerous
forms identified by the OMB were counted twice. The correct number of forms at the end of FY 2000 was 141, thus changing the
percentage in forms reduction from 7% to 1.4%.
33
   As noted above, the change in the number of forms impacted the calculation of the percent change in the FY 2001 Annual
Financial Report – rather than 7.9%, the total reduction from FY 2000 was 7.8%.

                                                              31
                                                           Federal Communications Commission
                                                       Fiscal Year 2002 Annual Financial Report

According to performance data collected from the various bureaus and affected offices, the
total number of FCC forms at the start of FY 2002 was 130 Commission-wide. During FY
2002, the FCC eliminated 12 forms and added 1 new form. Due to the reorganization, 11
forms were transferred from MB to WTB. The total number of forms at the end of FY 2002
was 119, representing an 8.4% reduction from FY 2001 and a 16.8% reduction over baseline
(FY 1999), falling short of the 30% goal. The FCC has determined that a preferred way to
measure the Commission’s progress in reducing reporting requirements would be a review
of half of the FCC’s forms annually, to streamline and modernize forms, where appropriate.
This performance measurement will be implemented in FY 2003.
The total number of forms at the start of FY 2001 was 141 Commission-wide. During FY
2001, 20 forms were combined or eliminated, and 9 new forms were approved. The total
number of forms at the end of FY 2001 was 130, representing a 7.8% reduction over FY
2000.


6. COMPETITION:
  Strategic Goal – Promote Opportunities for All Americans to Benefit from the
  Communications Revolution
  Performance Objective – Promote Access For All Americans to Communications
  Services
  Performance Measure – Continue oversight of the universal service discount
  mechanism for schools; fully implement the Schools and Libraries Program

This performance measure encourages the development of competitive and innovative
communications systems, by promoting opportunities for all Americans to access existing
and future communications services. As the FCC strives to promote competition, it will
continue to monitor the marketplace to ensure that the benefits of advanced
telecommunications services and the new information economy is available to everyone,
able-bodied or disabled, in every school, instructional classroom, and library as well as in
high-cost, low-income, and rural communities throughout the United States.




                                        32
                                                                                       Federal Communications Commission
                                                                                   Fiscal Year 2002 Annual Financial Report

           Policy Initiative –                         Goal                                  Actual Performance
           Measurement
           Schools and             FY99:                                            FY99:
           Libraries –             ¾   Improve the connections of instructional     ¾   Released Order extending funding for
           Percentage of public        classrooms, libraries and rural health           schools and libraries to get connected
           school instructional        facilities to the Internet.                      to the Internet.
           rooms receiving
           telecommunications      FY00:                                            FY00:
           services, Internet      ¾   75% of schools and libraries connected to    ¾   77% of public school instructional
           access, or internal         the Internet.                                    rooms connected to the Internet.
           connections at
           reasonable rates.34     FY01:                                            FY01:
                                   ¾   90% of public school instructional rooms     ¾   87% of public school instructional
                                       connected to the Internet.                       rooms connected.

                                   FY02:                                            FY02:
                                   ¾   93% of public school instructional rooms     ¾   FY02 statistics will not be available
                                       connected to the Internet.                       until the summer of 2003.




         The Schools and Libraries support mechanism of the USF – often called the Education rate
         or “E-rate” – provides support for eligible schools and libraries to help offset the cost of
         telecommunications services, including advanced communication services and equipment.
         The range of discounts available corresponds to the income level as well as the location of
         the school or library (e.g., urban or rural). The income level for a school or district is
         measured by the percentage of students eligible for the National School Lunch Program.
         In FY 2002, the USF collected gross receipts of approximately $2.23 billion, with outlays of
         approximately $1.84 billion for the Schools and Libraries mechanism. In FY 2001, the USF
         collected gross receipts of approximately $1.98 billion, respectively, with outlays of
         approximately $1.69 billion, respectively.35 The EOY balance for the Schools and Libraries
         mechanism increased from $2.01 billion in FY 2001 to $2.40 billion in FY 2002. Figure 11
         provides the end of year (EOY) receipts, outlays and fund balance for the Schools and
         Libraries support mechanism. Overall, the fund balances for the Schools and Libraries
         Program have built-up as a result of universal service billings that were assessed based on
         projections of demand. Distributions of funding, however, may lag due, for example, to the
         timing of: the receipt of applications, review, approval, and applicant revisions.
         By the fall of 2001, approximately 99% of public schools (as distinct from instructional
         rooms)36 were connected to the Internet, an increase of 1% over the previous year’s results
         (98% in the fall of 2000). The percentage of public school instructional rooms connected to
         the Internet increased dramatically to 87% (a significant increase over the previous year’s
         connection rate of 77%), however, the results were below the FCC’s goal of 90%. This goal
         was not met because the demand for priority one services (telecommunications and Internet
         access) had increased substantially, leaving less funding for priority two services (internal
         connections that bring access to individual classrooms. As has been the case in previous

34
   Performance for Universal Service and related goals is derived from data obtained from the Universal Service Administrator and
from the National Center for Educational Statistics, and is based on a fiscal year starting July 1st and ending June 30th.
35
   Gross receipts and outlays are based on monthly SF-224 reports, using the FCC’s FY October 1 to September 30.
36
   Instructional rooms include classrooms, computer and other labs, library/media centers, and other rooms that are utilized for
instructional purposes.

                                                              33
                                                                                     Federal Communications Commission
                                                                                 Fiscal Year 2002 Annual Financial Report

         years, instructional room connection rates in schools with the highest minority enrollment
         (50% or more) and the highest poverty concentration (75% or more of the students eligible
         for school lunch programs) continued to lag behind other schools. However, despite the
         differences, Internet connections in these schools continued to increase in 2001 from 64 to
         81% in instructional classrooms with high minority enrollment and from 60 to 79% in
         instructional classrooms with the highest poverty concentration.37
         Instructional classroom connection rates for 2002 will be available when the National
         Center for Education Statistics (NCES) publishes their 2003 report in the summer of 2003.

                                   Figure 11:
               FYs 1999 – 2002 USF Schools and Libraries Mechanism
                                                       (in thousands)

                   3,000,000

                   2,500,000
                                                                                    Outlays
                   2,000,000
                                                                                    Receipts
                   1,500,000

                   1,000,000                                                        Fund Balance (EOY)

                     500,000

                              0
                                     FY         FY         FY         FY
                                    1999       2000       2001       2002


         In addition to the Schools and Libraries support mechanism, the USF also comprises the
         High-Cost, Low-Income, and Rural Health Care Support mechanisms. Figures 12, 13 and
         14 provide trend data on the year-end receipts, outlays and fund balance for each of these
         three support mechanisms, respectively.
         In FY 2002, the High Cost Support mechanisms collected gross receipts of approximately
         $2.61 billion (an increase from FY 2001 with $2.60 billion) and outlays of approximately
         $2.57 billion (a reduction from FY 2001 with $2.63 million). The EOY balance increased
         from $70.6 million in FY 2001 to $110.1 million in FY 2002. The High Cost Support
         mechanism has been impacted by two recent developments: changes adopted by the
         Commission based on recommendations of the Rural Task Force and the creation of a new
         High Cost Support mechanism, the Interstate Common Line Support.
         In FY 2002, the Low Income mechanism had gross receipts of approximately $607.2 million
         (a reduction over FY 2001 with $633.2 million), and outlays of approximately $661.6
37
  National Center for Education Statistics, “Internet Access in U.S. Public Schools and Classrooms: 1994-2001” (September 2002),
U.S. Department of Education, Office of Educational Research and Improvement (NCES 2002-018).

                                                              34
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report

million (an increase over FY 2001 with $569 million). The EOY balance decreased from
$122.8 million in FY 2001 to $68.5 million in FY 2002. Reductions in the EOY balance for
this mechanism occurred primarily because of process change improvements that eliminated
some of the lag time in the funding process.
The Rural Health Care mechanism had gross receipts of approximately $27.6 million in FY
2002 (an increase over FY 2001 with $9.1 million), and outlays of approximately $33.0
million (an increase over FY 2001 with $5.5 million). The EOY balance decreased from
$10.0 million in FY 2001 to $4.7 million in FY 2002. Decreases in the EOY balance
occurred due to the increase in popularity of the program evidenced by a significant increase
in applications. Despite this increase, efficiency in the release of funds has enabled the
EOY fund balance to remain fairly stable.

        Figure 12: FYs 1999 – 2002 USF High Cost Mechanism
                                   (in thousands)


           3,000,000

           2,500,000

           2,000,000
                                                                  Outlays
           1,500,000                                              Receipts
                                                                  Fund Balance (EOY)
           1,000,000

            500,000

                   0
                         FY       FY       FY        FY
                        1999     2000     2001      2002




                                         35
                                                    Federal Communications Commission
                                                Fiscal Year 2002 Annual Financial Report

  Figure 13: FYs 1999 – 2002 USF Low Income Mechanism
                              (in thousands)


      700,000
      600,000
      500,000                                      Outlays

      400,000                                      Receipts
      300,000
                                                   Fund Balance (EOY)
      200,000
      100,000
           0
                 FY     FY        FY      FY
                1999   2000      2001    2002




Figure 14: FYs 1999 – 2002 USF Rural Health Care Mechanism
                              (in thousands)


      90,000
      80,000
      70,000
      60,000
                                                    Outlays
      50,000
                                                    Receipts
      40,000
                                                    Fund Balance (EOY)
      30,000
      20,000
      10,000
           0
                 FY     FY        FY      FY
                1999   2000      2001    2002




                                   36
                                                                         Federal Communications Commission
                                                                     Fiscal Year 2002 Annual Financial Report


7. ENFORCEMENT:
  Strategic Goal – Promote Competition in all Communications Markets
  Performance Objective – Enforce the Rules so that Businesses Compete Fairly
  Performance Measure – Show zero tolerance for perpetrators of consumer fraud such
  as slamming and cramming; impose substantial monetary forfeitures against the worst
  offenders

This performance measure is part of the FCC’s efforts to enforce the Act, as amended, the
1996 Act, and the Commission’s rules, regulations, and authorizations. These enforcement
efforts involve investigations, inspections, compliance monitoring, and sanctions, including
civil monetary penalties (CMPs). The FCC promotes the public interest and pro-
competitive policies by enforcing statutory provisions and rules and regulations that ensure
that Americans are afforded efficient use of communications services and technologies. By
enforcing the rules, businesses will compete more fairly.
 Policy Initiative –                      Goal                              Actual Performance
 Measurement
 Zero Tolerance –           FY99:
 Percent reduction in the   ¾   No FY99 goal.
 number of informal long
 distance slamming          FY00:                                FY00:
 complaints.                ¾   10% reduction in the number of   ¾   Data collection procedures were under
                                informal long-distance               review such that it was not possible to
                                slamming complaints.                 determine if goal was met. However,
                                                                     significant monetary fines were levied on
                                                                     carriers guilty of slamming practices ($5.65
                                                                     million collected) and 9 major slamming
                                                                     actions were taken.

                            FY01:                                FY01:
                            ¾   20% reduction in the number of   ¾   The FCC exceeded its goal with a 51%
                                informal long-distance               reduction in the number of informal long-
                                slamming complaints.                 distance slamming complaints. This reflects
                                                                     the industry’s attempt to be more consumer-
                                                                     oriented, to avoid any illegal action and to
                                                                     provide the consumer with a more reliable,
                                                                     consumer friendly service. Approximately
                                                                     $520,000 was collected and 10 major
                                                                     slamming actions were taken.

                            FY02:                                FY02:
                            ¾ 40% reduction in the number of     ¾   41% reduction in the number of informal
                                informal long-distance               long-distance slamming complaints.
                                slamming complaints.


Slamming is the illegal practice of changing a consumer’s preferred local or long distance
telecommunications provider without permission. The FCC adopted new slamming liability
rules (effective November 2000), which allow states to “opt in” to become the primary
forums for administering the slamming liability rules and resolving individual slamming
complaints. Where states do not opt in, the FCC administers the rules.


                                                   37
                                                            Federal Communications Commission
                                                        Fiscal Year 2002 Annual Financial Report

The Commission’s slamming liability rules provide a remedy to better protect consumers by
requiring unauthorized carriers to absolve consumers of unauthorized charges and to
reimburse authorized carriers and consumers for charges already paid. These rules help to
eliminate profits for telephone companies that slam consumers. Where the consumer has
not paid the unauthorized carrier, the consumer will be absolved of the obligation to pay for
service for up to 30 days after a slam. Where the consumer has paid the unauthorized
carrier, the rules require the unauthorized carrier to pay 150% of the charges it received
from the consumer to the authorized carrier, which must, in turn, reimburse the consumer
50% of the charges paid by the consumer.
Consumers file informal slamming complaints (by phone, letter, e-mail), and the FCC or the
“opt-in” state serves the carrier with the complaint. Carriers have 30 days to respond. The
Commission staff then puts out an order making a determination about the carrier’s liability.
If consumers are unhappy with the outcome they may file a formal complaint with the FCC.
Complaints by carriers against other carriers are generally formal complaints (adjudications
governed by formal procedural rules). In addition to enforcing the slamming complaint
rules, the FCC regularly tracks informal slamming complaints filed with both the FCC and
the states, and where the trend shows repeat slamming cases, the FCC serves a “Notice of
Apparent Liability” (i.e., a notice of proposed forfeiture). The carrier has 30 days to file a
response to the Notice of Apparent Liability or pay the proposed forfeiture amount. In some
cases, the FCC concurs with the carrier’s response and lowers the proposed fine in the
resulting Forfeiture Order. These forfeiture proceedings have resulted in millions of dollars
in fines levied against unauthorized carriers.
In FY 2002, a total of 4,179 informal long-distance slamming complaints were filed with the
FCC, representing a 41.2% reduction over FY 2000 (baseline). Approximately, 1,986
additional complaints were forwarded to “opt-in” states to resolve (under the provisions
noted above), and therefore were not included in the FCC’s FY 2002 results. While the
FCC met the FY 2002 goal with over 40% fewer slamming complaints in FY 2000, the
number of slamming complaints filed with the FCC increased between FYs 2001 and 2002.
One possible reason for the increase in complaints may be due to the fact that the FCC has
successfully educated consumers, through fact sheets, brochures and direct outreach, about
their right to seek refunds due to the new slamming liability rules. To manage the increase
in pending slamming complaints, the FCC has detailed six staff within the CGB to process
cases more quickly. Additionally, in order to deter slamming, the FCC continues to fine
violators. During FY 2002, the FCC issued one Forfeiture Order in the amount of
$1,020,000 and one Notice of Apparent Liability for $1,200,000. The FCC is working with
the Department of Justice (DOJ) to collect the $1,020,000 forfeiture, and the FCC is
evaluating the carrier’s response in the $1,200,000 proceeding.
In FY 2001, 3,493 informal long-distance slamming complaints were filed with the FCC for
resolution, representing a reduction of 50.8% over FY 2000. Approximately 2,300
additional slamming complaints received by the FCC in FY 2001 were forwarded to the
“opt-in” states to resolve, and therefore were not included in the FCC’s FY 2001 results.
The FCC also completed ten major actions (i.e., issued a Forfeiture Order, Consent Decree,
and/or Petition for Reconsideration) against six carriers, and $520,000 was collected for
slamming offenses against one carrier. Where the FCC is unable to collect fines, or
negotiate an appropriate settlement, the cases are referred to the DOJ for collection. The FY
2000 performance plan did not include quantitative goals for reducing the number of
                                         38
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2002 Annual Financial Report

         slamming complaints. However, in FY 2000, the FCC received a total of 7,104 slamming
         complaints filed with the Commission by members of the public. During FY 2000, the FCC
         completed nine major actions against eight carriers guilty of slamming practices. The FCC
         collected $5.65 million for violations from three of the carriers.

       8. SPECTRUM MANAGEMENT:
           Strategic Goal – Manage the Electromagnetic Spectrum in the Public Interest
           Performance Objective – Foster the Increased Availability of Spectrum
           Performance Measure – Increase the availability of flexibly allocated spectrum for
           new services by 20% (over FY 2000); initiate third generation (3G) spectrum
           allocations

         This performance measure promotes efficient and effective management of the Nation’s
         airwaves for all non-Federal Government users, including commercial, international
         business, and public safety users. Spectrum management includes the structures and
         processes for allocating and assigning this scarce resource in a way that promotes
         competition while ensuring the public interest is served. The Commission employs market-
         based solutions to maximize use of spectrum in an efficient and equitable manner.
          Policy Initiative –                     Goal                                Actual Performance
          Measurement
          New Services – The       FY00:                                  FY00:
          number of new mobile,    ¾    Initiate actions to promote the   ¾   Received a total of 100 applications to support
          fixed, and broadcast          development of new services.          the development of new technology
          services.                ¾    Allocate 4 GHz of spectrum            applications in 7 services.
                                        for unlicensed services.          ¾   Completed a Report and Order allocating 2
                                                                              GHz of spectrum for unlicensed services.

                                   FY01:                                  FY01:38
                                   ¾    Increase the availability of      ¾   Completed a proceeding to add flexibility to
                                        flexibly allocated spectrum by        190 MHz of spectrum at 2.5 GHz.
                                        20% (baseline: FY00).             ¾   Initiated Advanced Wireless Services
                                   ¾    Initiate 3G spectrum                  (includes 3G) spectrum allocations by issuing
                                        allocations.                          a Notice of Proposed Rulemaking.

                                   FY02:                                  FY02:
                                   ¾    Increase availability of          ¾   Completed spectrum allocations in two
                                        flexibly allocated spectrum by        separate proceedings for 77 MHz of spectrum
                                        20% (baseline: FY00).                 transferred from Federal government use and
                                   ¾    Implement 3G spectrum                 48 MHz of spectrum reallocated from TV
                                        allocation and service rules.         broadcast use.
                                                                          ¾   Completed flexible spectrum allocations for
                                                                              125 MHz, an increase of 47.6% (baseline: FY
                                                                              00 of 262.5 MHz).
                                                                          ¾   Advanced Wireless Services (3G) spectrum
                                                                              allocations were delayed until after FY 2002
                                                                              assessment completed.




38
  Note that information provided in the FY 2002 Annual Financial Report differs from the previous year’s results as the OET
provided updates reflecting corrected FY 2001 performance data.

                                                             39
                                                             Federal Communications Commission
                                                         Fiscal Year 2002 Annual Financial Report

In June 2002, the FCC created a Spectrum Policy Task Force to improve spectrum
management by identifying and evaluating changes in spectrum policy that will increase the
public benefits derived from the use of the radio spectrum. The Task Force was directed to:
   •   Recommend ways to evolve the current "command and control" approach to
       spectrum policy into a more integrated, market-oriented approach that provides
       greater regulatory certainty, while minimizing regulatory intervention.
   •   Assist the Commission in addressing ubiquitous spectrum issues, including
       interference protection, spectral efficiency, effective public safety communications,
       and implications of international spectrum policies.
Spectrum is divided into bands of frequencies. Each band is associated with one or more
allocations, which determine the type of use allowed (e.g., fixed, mobile, broadcast, etc.).
Some of the considerations in determining allocations include: public need and benefits;
amount required to provide a particular service or services by one or more licensees;
technical considerations, including interference control with other services; and economic
viability of services. Finding spectrum for new services includes efforts to increase sharing
(different services using the same spectrum) or reallocating spectrum for different uses (and
relocating incumbent users to other spectrum).
Advanced wireless service systems – including those employing “3G” services - will
provide access, by means of one or more radio links, to a wide range of telecommunication
services supported by fixed networks and to other services specific to mobile users. These
services are likely to employ a range of mobile terminal types (for mobile or fixed use) that
link to terrestrial and/or satellite-based networks. Key features of 3G systems include: a
high degree of commonality of design worldwide, compatibility of services, use of small
pocket terminals with worldwide roaming capability, and Internet and other multimedia
applications. It is likely that many of the applications developed for the advanced wireless
services will include one or more of these attributes.
Because of the critical nature of Federal Government-use spectrum, the transfer of spectrum
to non-Federal Government use has been a complex and time-consuming process. For
example, in July 2001, the Department of Commerce (DOC) and the FCC agreed to
postpone the FY 2001 deadline for the Commission to identify spectrum allocations for 3G
systems until FY 2002. The National Telecommunications and Information Administration
(NTIA), the Department of Defense (DOD), the Commission and other government
stakeholders worked together to identify spectrum for advanced wireless services. The
interagency effort included the examination of existing Federal operations in spectrum
already earmarked for transfer to non-Federal use – specifically, the 1710-1755 MHz band.
The terms of the transfer would have allowed certain Federal operations – both military and
non-military to continue indefinitely. Permissible, grandfathered, operations at 16 military
facilities would have particularly impeded the development of new nationwide services. An
interagency working group developed a creative plan that can be used to relocate the
majority of these operations to other bands no later than 2008, thus substantially clearing the
band for commercial use.
In July 2002, NTIA announced that 90 MHz of spectrum could be made available for
advanced wireless services in the United States. However, the spectrum was not allocated
until early FY 2003. On November 7, 2002, the FCC issued a Second Report and Order that

                                          40
                                                            Federal Communications Commission
                                                        Fiscal Year 2002 Annual Financial Report

allocated two contiguous 45 MHz frequency bands for fixed and mobile services.
Additionally, the FCC issued a companion Notice of Proposed Rulemaking that proposed
licensing and servicing rules to permit these bands to be used for any service consistent with
the bands’ fixed and mobile allocations, including provision of advanced wireless services.
This spectrum is intended to provide capacity for new wireless carriers and additional
capacity for existing wireless carriers to keep pace with consumer demand for new and
innovative services. The Commission will also continue to evaluate whether additional
spectrum can be made available for wireless services, as future events warrant.
In FY 2002, seven auctions of spectrum were held, and the FCC recorded $133.5 million in
net winning bids. This amount represents the net winning bids excluding possible defaults
as well as the costs to the FCC of $77.9 million. Auction of the Upper 700 MHz band
(Auction No. 31) and portions of the Lower 700 MHz band (Auction No. 44) were
postponed from FY 2002 to FY 2003. Additional information on these delays is discussed
in the “Highlights to the Financial Statements” section of this MD&A. The FY 2003
President’s Budget submitted in FY 2001 estimated that a total of $530 million in auction
receipts would be generated from the anticipated auctions in FY 2002.
In FY 2001, four auctions of spectrum were held, and the FCC recorded $16.9 billion in net
winning bids. This amount represents the net winning bids excluding possible defaults and
the costs to the FCC of $67.5 million. This amount is recognized as revenue when a final
payment date is established by a Public “prepared to grant” Notice rather than when the
auction is held or cash is received.
There were several reasons for the increase in costs to support the spectrum auction program
activities from $67.5 million in FY 2001 to $77.9 million in FY 2002. The increases reflect:
annualized pay increases to provide personnel compensation and benefits as well as
increases resulting from enhanced accuracy in cost reporting for commission-wide on-board
staff and the addition of direct staff increases to support the program; overhead costs in
previously underreported areas such as information technology; increases in building rent,
telephone service, utilities, etc. associated with the increase in FTE support; supplies,
equipment and security costs to house and support the Revenue Accounting and
Management Information System, the Commission Registration System (CORES); as well
as the costs of security enhancements to respond to concerns raised as a result of “9-11” to
ensure employee safety and implement previous OIG security audit recommendations;
increased costs for loan maintenance, storage and support as well as contract costs for full
loan servicing by a major financial services firm; licensing litigation costs, physical and
computer security, additional audit related costs, including enhanced inventory control
support, audit travel, auctions program services contract increases; and upgrades to auctions
infrastructure including IT equipment and software and physical plant upgrades in the
Gettysburg facility. In FY 2002, the FCC was apportioned $12.066 million to support the
administrative costs related to the spectrum auction Credit Programs.




                                         41
                                                                 Federal Communications Commission
                                                             Fiscal Year 2002 Annual Financial Report

Financial Management – Legal Compliance, Systems, and Controls
  Legal Compliance
  The FCC, like other Federal agencies, is required to comply with statutes and regulations related
  to appropriations, safety and health, and employment. Compliance with such requirements is
  the responsibility of FCC management. The OMD has responsibility for implementing
  accounting and financial policies, systems, and reports; improving the reliability of financial
  information; implementing debt collection; and implementing financial management legislation
  including the following:
         9 Prompt Payment Act of 1982
         9 Federal Managers’ Financial Integrity Act of 1982
         9 Cash Management Improvement Act of 1990
         9 Federal Credit Reform Act of 1990, as amended
         9 Chief Financial Officer’s Act of 1990
         9 Government Performance and Results Act of 1993
         9 Government Management Reform Act of 1994
         9 Federal Financial Management Improvement Act of 1996
         9 Debt Collection Improvement Act of 1996
         9 Reports Consolidation Act of 2000
         9 Accountability for Tax Dollars Act of 2002
  In the FCC’s efforts to achieve compliance with applicable legislation, it is necessary to have
  effective management and system controls in place. The FCC has established formal policies
  and procedures regarding the processing, maintaining, and reporting of financial information.
  The FCC has updated its policies and procedures for financial-related sections (e.g., Accounts
  Receivable, Budget, Revenue, Administrative Expenses). Revisions to remaining sections,
  including policies and procedures for the preparation of the financial statements and
  performance measures, are currently in progress. Although the FCC has made significant
  improvement with regards to its management controls, additional improvement is needed as
  indicated by the results of the FY 2001 financial statement audit. These improvement efforts
  are described below.
  Systems
  The Financial Systems Operations Group, within the OMD, oversees maintenance support for
  the system controls of the financial systems. The following summarizes several significant
  financial systems:
         9 Federal Financial System
         9 Revenue & Accounting Management Information System
         9 Collections System
         9 Management Cost Accounting System
  The Federal Financial System (FFS) is a commercial off-the-shelf (COTS) software package,
  which serves as the FCC's central accounting system. FFS runs on a mainframe located at the
  Department of the Interior's (DOI) National Business Center (NBC) in Denver, Colorado. The
  DOI NBC provides system maintenance support through a cross-servicing agreement. FCC
  staff within the office of the Associate Managing Director – Financial Operations (AMD-FO),
  performs system operations, maintenance of system tables, and security administration for the


                                               42
                                                                 Federal Communications Commission
                                                             Fiscal Year 2002 Annual Financial Report

FFS application. The system is supplemented by a data warehouse, which provides ad hoc
reporting capabilities.
The Revenue Accounting and Management Information System (RAMIS) is a COTS software
package modified to handle all of the collections, accounts receivables, and loan management
specific to the FCC. It is designed to interface with the FCC’s central accounting system, FFS,
and licensing systems throughout the Commission. Once all reporting modules are complete,
all collection activity of the FCC will be recorded and tracked in RAMIS. RAMIS will also
record the collection of receipts, produce dunning letters for past due accounts, and track
account forfeitures submitted to the OGC for referral to the DOJ for collection. Implementation
of RAMIS is intended to assist the FCC in achieving better system integration, as well as to
meet system requirements established by the Joint Financial Management Improvement
Program (JFMIP). As of the date of the FY 2002 audit, the RAMIS system is serving as the
system of record for all fines and forfeitures activities. It also records collections received from
Mellon Bank in parallel with the Collections System.
The Collections System is a custom-built database application designed to store and display all
collections accounting information for the FCC. It is designed to interface with licensing and
other systems throughout the Commission. In FY 2002, the FCC began phasing out the
processing of application and regulatory fees in the Collections System in conjunction with the
implementation of RAMIS.
Also as part of the RAMIS implementation, use of the Nortridge Loan System (NLS), the COTS
software package formerly used to track the Spectrum Auction Direct Loan Portfolio program,
was discontinued. The information from the Nortridge database, at the time of retirement, is
still available for historical records through a data warehouse, which provides the FCC with the
capability to retrieve and print payment histories.
The AMD-FO is in the process of developing requirements for a streamlined automated
management cost accounting system that will be in compliance with high-level core financial
system requirements for cost and budget management as prescribed by the JFMIP. The AMD-
FO is planning to link the MCAS to in-house software, and is planning a three-phase approach.
The first phase is to implement a cost accounting system, followed by a budget
formulation/execution system, and finally, in the third phase, the FTE tracking and reporting
system. The cost accounting system transition should begin with system testing in late FY
2003. Once implemented in FY 2004, the MCAS will provide a financial management system
that offers FCC management an increased level of detail concerning the cost of doing business.
Financial management data and information, which is accurate, timely, and consistent across
FCC bureaus and offices, will be available simultaneously to program managers, financial
managers and budget officials. The MCAS will support budget and cost control, performance
measurement, fee and price determinations for reimbursements, program evaluations, and
economic decisions. The MCAS will use JFMIP-certified COTS managerial cost accounting
and budget formulation and execution applications and related implementation support services.
Not included as part of its financial systems, but still an important financial management tool
for FCC management in FY 2002, are the Loan Model Spreadsheets used to calculate loan
balances on the FCC’s credit reform loans. On a monthly basis, the spreadsheets are updated
with the monthly collections from RAMIS. This process was previously done through the NLS,
but after several months of parallel downloading of collections information during FY 2002, the
FCC now receives the collections information directly from RAMIS. The Loan Model

                                              43
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report

Spreadsheets have been maintained by an outside contractor throughout the course of the year
and have served as the basis for numbers used in the calculation of FCC’s subsidy reestimate
and loan subsidiary records. Ultimately, these spreadsheets will be replaced by an outside loan
servicing system.
The FCC has contracted with a major financial services firm to provide loan servicing for the
portfolio, document management, and Uniform Commercial Code (UCC) review and filing
services. The FCC will complete the transfer of loan data to its new loan service provider in
December 2002, with the full loan servicing implementation scheduled for January 2003. The
FCC also tasked the service provider with producing a document management, imaging and
retrieval system. A secure password-protected system, it can be accessed via the Internet. The
system further allows users to electronically store, retrieve, copy and correlate data and images
directly from their desktop. The FCC currently has the ability to search and retrieve loan
documents from desktops, thereby eliminating the need to manually store and research files.
Internal Controls
The FCC has in place numerous internal controls over financial reporting that provide
reasonable assurance the financial statements do not contain material misstatement, and fairly
present information related to assets, liabilities and net position. As noted in the preceding
section, transactions are executed in accordance with budgetary and financial laws, consistent
with the FCC statutory requirements, and are recorded in accordance with Federal accounting
standards. Additionally, assets are properly acquired and used, safeguarded to deter theft,
accidental loss or unauthorized disposition, and fraud. Further, the FCC internal controls exist
to assure the existence and completeness of the performance measures, as required by OMB
Bulletin 01-09 (Form and Content of Agency Financial Statements).
The FCC received a qualified opinion in FY 2001 due to scope limitation in the areas of cost
allocation, the USF and other entities. Auditors found material weaknesses for the following:
   1. Financial Reporting
      a. controlling quality in the preparation of financial statements
      b. supervising the USF and TRS Fund financial reporting process
      c. addressing changes in accounting for program costs
      d. obtaining auditable financial data from Local Number Portability Administration
      e. integrating financial management systems
      f. correcting and updating financial system setup and posting model definitions
      g. recording activities in a timely manner and preparing and analyzing financial activity
      h. improving Federal Agencies’ Centralized Trial Balance (FACTS) reporting process
      i. resolving a combination of reportable conditions, including recovering USF
          disbursements
   2. Cost Accounting System
   3. USF and TRS Fund Financial Reporting
   4. Loans Receivable and Related Accounts
      a. improving loan subsidiary ledger system
      b. reconciling general ledger to the subsidiary ledger balances
   5. Information Technology
                                             44
                                                                Federal Communications Commission
                                                            Fiscal Year 2002 Annual Financial Report

       a. creating a comprehensive security plan in compliance with OMB Circular A-130
       b. improving controls to protect FCC information
       c. accelerating efforts to develop and test contingency plans
   Additionally, the auditors identified the following reportable conditions for the FCC to:
   1. Improve Controls Surrounding Data used in the Preparation of the Management’s
      Discussion and Analysis (MD&A)
   2. Improve Internal Controls over Certain Accounts Receivable
   3. Improve Supporting Documentation and Controls on Property and Equipment
   4. Improve Controls over Accounts Receivable and Accounts Payable Subsidiary Records
   5. Ensure Compliance with Clinger-Cohen Act of 1996
   6. Conduct OMB Circular A-127 and A-130 Reviews
In accordance with the Federal Managers’ Financial Integrity Act (FMFIA), the FCC has
identified corrective actions to be taken during FY 2002 for the purpose of addressing material
weaknesses and reportable conditions related to internal controls. The FCC has created a team
to address all findings in the internal control report. The team has identified items that can be
resolved in the short- (this fiscal year), medium- (next fiscal year), and long-term. Issues being
addressed related to FY 2002 financial reporting include: continued efforts to develop policies
and procedures for improved quality control over preparation of financial statements; increased
oversight of USF and TRS reporting through development of new procedures; improvements in
the cost accounting system through training employees on the proper use of the revised activity
codes and emphasizing the importance of properly coding their time; continued efforts to
address certain FCC fund specific issues to improve the financial reporting process; timely
recording activities are anticipated as management becomes more familiar with processes; and
improved FACTS reporting will be addressed through planned staff training. As noted earlier in
this report, the cost accounting system is being addressed in the short term, and the FCC hopes
to begin testing the cost accounting system by the end of FY 2003, with implementation in FY
2004. Increased controls over the financial reporting of the USF and TRS Fund have been put
in place. For example, a new procedure for USF and NANP was established to include both a
low level and senior management review of information submitted prior to inclusion in the
financial statements. In FY 2002, the FCC established a monthly cash reconciliation process to
improve control over the application of cash in the loan model for loan receivables and related
accounts. Once the RAMIS and loan servicing systems are fully implemented and integrated
with FFS, the FCC will establish a monthly loan balance reconciliation.
The FCC also identified corrective action plans for non-conformances including: developing,
documenting and implementing policies and procedures and program evaluations to address
several noted deficiencies, continuing implementation of new financial systems for increased
level of controls and elimination of manual processes, resolving several property, plant and
equipment items such as capitalized versus non-capitalized costs, increasing controls over
accounts receivable and payable, and reducing the use of journal vouchers by implementing
additional compliant standard journal entries.
As in the past, the OGC determined that NANP is an entity of the FCC and therefore should, if
deemed material by management, be included in the FCC's FY 2002 financial statements. The
determination for it as an entity is primarily based on the level of FCC oversight of the program

                                             45
                                                                 Federal Communications Commission
                                                             Fiscal Year 2002 Annual Financial Report

  and the program's close connection to the FCC's core mission. Administratively, the NANP
  program is subject to controls including the ability to: select or remove administrators; review
  or change carrier contribution factors; veto or modify management decisions; and require audits.

Possible Future Effects on the FCC – Looking Ahead
  The Commission has identified certain demands, risks, uncertainties, events, conditions, and
  trends that may impact the FCC’s ability to achieve its goals and objectives in the future. A
  range of external factors may affect the continued development of competition in
  telecommunications markets. An overview of nine potential factors follows.
  First, convergence-driven competition depends heavily on market and economic uncertainties.
  To date, traditional wireline telephone service providers, cable operators, wireless firms, and
  satellite companies have made massive investments in new networks that do, or will, allow:
     9 telephone companies to offer high-speed Internet and possibly video service,
     9 cable operators to offer phone service and high-speed Internet,
     9 wireless companies to offer phone service reliable and inexpensive enough to compete
       for basic local voice telephony, and
     9 satellite companies to offer television, radio and high-speed Internet.
  With the current economic situation in the telecommunications industry, including high-profile
  bankruptcies, restructuring and putative mergers, the pace of investment in these networks may
  be impacted, and competition may be slower to develop.
  Second, significant technological uncertainty remains for many new converged technologies.
  For example, although the carriage of voice traffic over packet-based, Internet Protocol (IP)
  networks promises significant new competitive entry into the local and long distance voice
  markets, “IP telephony” technology is still developing. Also, the use of shared “tree-and-
  branch” networks, such as hybrid fiber-coax cable networks for voice or data service, similarly
  poses technical obstacles at moderate to high penetration levels. Until the full reliability of
  cable networks can be demonstrated, the competitive impact of cable entry into telephone and
  data markets may be delayed. As a third example, a significant factor in the development of
  robust competition in the broadband access market is the slow rate of technological
  development of various “xDSL“ (digital subscriber lines which provide high-speed data
  transmission) technologies that will be used to offer high-speed service over copper telephone
  loops. Each of these, as well as many other technological factors, could affect the rate at which
  competition develops across communications markets.
  A third category of uncertainty is the degree of consumer demand for new communications
  services. Many new services, such as high-speed Internet access, digital television (DTV),
  wireless data service, and satellite-delivered services will continue to be deployed by service
  providers, and many market analysts forecast strong consumer adoption rates. However, the
  breadth and depth of long-term consumer demand for these new services remain unknown. The
  business models of many new competitors hinge on combining multiple existing and new
  services on a single service delivery platform. The profitability of companies that are
  "overbuilding" new hybrid fiber-coax networks to compete with cable and telephone
  incumbents depends on selling customers bundles of service including multichannel digital
  video, high-speed Internet access, and telephony. Only by combining revenue streams can new

                                               46
                                                                 Federal Communications Commission
                                                             Fiscal Year 2002 Annual Financial Report

entrants, saddled with heavy network construction costs, compete with incumbents operating
existing networks. If consumer adoption of new services fails to meet expectations, competition
could be slower to develop.
The fourth factor, combining both consumer demand and impacts on equipment manufacturers,
involves the recent plan to give consumers access to digital programming over television by
requiring off-air DTV tuners on nearly all new TV sets by 2007. The FCC’s five-year rollout
plan starts with larger, more expensive TV sets to minimize the costs for both equipment
manufacturers and consumers. The FCC estimates that approximately 81 million television sets
in the U.S. (over 30% of the total) rely solely on free, over-the-air broadcasting (i.e., via
antennae vs. cable or satellite). About 46.5 million of these sets that rely on over-the-air service
are in broadcast-only homes (i.e., where cable and/or satellite are not available). While the
DTV tuner will initially add costs, economies of scale will drive costs down for manufacturers
and consumers.
Fifth, the prospects for competitive communications markets are significantly affected not only
by national developments, but also by developments in world markets. The opportunities for
increased competition in the United States can be more fully realized if other countries join us
in fostering competition in their communications marketplaces. Market access restrictions in
foreign countries significantly impede U.S. companies' ability to compete on a global scale.
Specifically, the FCC’s vision of fully competitive communications markets in the U.S. is
contingent, to some degree, on whether other nations also establish the necessary conditions for
deregulation, competition, and increased private investment in their communications
infrastructure. The FCC’s success will depend on vigorous enforcement of the market access
commitments set forth in the 1997 World Trade Organization (WTO) Agreement on Basic
Telecommunications Services.
The Commission's ability to carry out its vision also is largely dependent on a sixth category of
uncertainty—adequate resources to carry out critical activities. In many cases, the FCC will
need to redeploy existing budget and staff resources to address changing priorities. The FCC is
planning a three-phase approach for implementation of new systems for cost accounting, budget
formulation and execution, and FTE tracking and reporting. The cost accounting system
transition should begin by the end of FY 2004. These systems will improve the Commission’s
ability to appropriately allocate resources and to more accurately link resources to performance.
The FCC’s success is tied directly to its ability to maintain critical staffing levels and adequate
funding. Moreover, for the FCC to fulfill its congressional charge, it will write and execute a
new strategic plan built along the following dimensions: (1) a clear policy vision for
broadband, spectrum, media, competition, and homeland security and (2) a pointed emphasis on
management that builds a strong team, produces a cohesive and efficient operation, and leads to
timely decisions.
Seventh, the recent financial upheavals in the telecommunications industry and the resulting
impact on the stock market caused by questionable business practices have led to a
reexamination of enforcement activities, including auditing and accounting reviews of common
carriers. In July 2002, the FCC asked Congress to extend the Commission’s ability to prevent
service disruptions, to increase the maximum fines the FCC can impose in enforcement actions,
and to provide the right regulatory environment for the provision of broadband services.
Specifically, the request asked for an increase in the maximum fine allowable under the Act
from $120,000 to $1 million for a single violation and from $1.2 million to $10 million for a

                                              47
                                                                            Federal Communications Commission
                                                                        Fiscal Year 2002 Annual Financial Report

     continuing violation and to lengthen the statue of limitation for common carrier enforcement.39
     While the FCC has taken measures to ensure that the American public continues to have
     uninterrupted access to essential communications services, the current instability in the
     telecommunications industry will continue to affect the economic viability of both conventional
     and technologically innovative new communications services.

            “With the events of September 11th, it has become imperative that
            the communications community come together to determine our
            role in ensuring homeland security. We must be aggressive in
            ensuring that our policies maximize the many efforts being made to
            make our nation safe. We will work with industry to ensure the
            reliability and security of our nation’s communications
            infrastructure.”
                                                                         Chairman Michael K. Powell
                                                                Press Conference, October 23, 200140

     Eighth, the Commission’s ability to achieve its goals and objectives in the future will be
     affected by the unpredictable. Factors beyond the FCC’s control range from possible future
     actions by Congress, changing Federal laws and potentially affecting FCC’s responsibilities and
     workload, to unexpected international events such as those of September 11, 2001. Events such
     as “9-11” emphasized the need to ensure the reliability and interoperability of the nation’s
     communications networks.
     And finally, relative to the USF, on Feb. 14, 2002, the Commission adopted a Notice of
     Proposed Rulemaking (NPRM) concerning changes to the contribution methodology for federal
     universal service support mechanisms. On June 13, 2002, the FCC adopted an Order to ensure
     that unused funds from the USF’s schools and libraries program will be applied to stabilize the
     amount of contributions to USF until March 2003. Following that period, surplus USF funds
     will be distributed through the Schools and Libraries mechanism, increasing the funds available
     for participants. The annual funding cap for the Schools and Libraries program is $2.25 billion,
     and as of May 2002, the program had received over $8.25 billion in funding commitments since
     its inception in 1998.
     Over the last four years, overall demand on the USF has grown considerably, rising from $1.9
     billion in 1997 to $5.5 billion in 2002. At the same time, the universal service revenue base has
     become smaller, causing the contribution factor, and therefore carrier contribution obligations,
     to increase, and carriers have generally passed through much of these increases to their
     customer base. The following market trends are impacting the current revenue base supporting
     USF:
        •    New Entrants / Increased Competition – To date, Regional Bell Operating Companies
             have authority to provide in-region long distance service in 13 states. Additionally, for
             the first time, interstate telecommunications revenues declined in 2001.


39
   Testimony of FCC Chairman, Michael K. Powell before the Senate Commerce Committee on, “Financial Turmoil in the
Telecommunications Marketplace: Maintaining the Operations of Essential Communications,” July 30, 2002.
40
   Press conference on “Digital Broadband Migration, Part II,” October 23, 2001.

                                                       48
                                                                   Federal Communications Commission
                                                               Fiscal Year 2002 Annual Financial Report

     •   Wireless Sector Growth / Technology Migration – Subscribership to mobile services
         has increased from 55.3 million in 1997 to 109.5 million in 2001, and minutes of use has
         increased from 117 minutes per month to 255 minutes per month over the same period.
     •   Bundled Services – Bundling, such as local and long distance, and telecommunications
         and non-telecommunications services, has implications for carriers’ ability to distinguish
         and allocate revenue from these different services.
     •   Bankruptcies – Recent bankruptcies among major interstate service providers will
         further reduce the revenue base.

Cross-Cutting Functions of the Commission
  The Commission routinely interacts with a number of other Federal agencies. For example, the
  FCC:
     9 coordinates radio antenna and tower proposals with the Federal Aviation Administration
       (FAA) to prevent interference and to ensure the safety of life and property;
     9 measures spurious radio signal emissions in cooperation with the Environmental
       Protection Agency (EPA) to monitor public risks associated with radiation;
     9 coordinates with the U.S. Customs Service (USCS) concerning the import of electronic
       devices;
     9 coordinates with the NTIA to ensure the effective management of the public and private
       spectrum;
     9 works closely with the FTC on consumer issues, e.g., unscrupulous practices such as
       “slamming” and “cramming” practiced by some service providers;
     9 coordinates with Federal agencies to ensure public safety, public health, and other
       emergency and defense personnel have effective communications services in the event
       of a terrorist attack or other national disaster such as wireless priority access. Agencies
       sharing responsibility include the Homeland Security Office, Network Reliability and
       Interoperability Council (NRIC), Media Security and Reliability Council (MSRC),
       DOD, and the Federal Emergency Management Agency among others; and
     9 coordinates with the DOJ on enforcement Section 271 of the Act, which ensures that a
       Bell Operating Company (BOC) continues to comply with market opening requirements
       after the Commission has approved its application to provide long distance service in its
       home region.
  In addition to coordination efforts with other Federal agencies, the FCC must also seek the input
  of state and local governments to achieve a truly national telecommunications policy. The 1996
  Act set the groundwork for this goal, and the Commission is fulfilling its role in establishing the
  rules for opening communications markets across the country, in partnership with state
  regulators. The Commission will continue to work with state and local agencies, and toward
  this end the FCC has instituted a Local and State Government Advisory Committee to share
  information and views on many critical communications issues.




                                                49
                                                                  Federal Communications Commission
                                                              Fiscal Year 2002 Annual Financial Report



Highlights of the Financial Statements
  Future Effects of Current Demands
  Since 1994, the FCC has conducted auctions of licenses for spectrum. These auctions are open
  to any eligible company or individual that submits an application and upfront payment, and is
  found to be a qualified bidder by the Commission. Qualified bidders are those applicants whose
  FCC Form 175 applications have been accepted for filing and that have submitted timely
  upfront payments sufficient to make them eligible to bid on at least one of the licenses for which
  they applied.
  Auction No. 35 – NextWave
  In FY 2001, Auction No. 35 offered a total of 422 licenses covering 195 markets for C and F
  Block Broadband PCS (January 2001). In Auction No. 35, the FCC reauctioned spectrum
  associated with the licenses won by NextWave and for which the company defaulted on its
  payments. Under the Commission’s rules, NextWave’s default resulted in automatic
  cancellation of its licenses. In June 2001, the U.S. Court of Appeals for the District of
  Columbia Circuit held that Section 525 of the Bankruptcy Code precluded the FCC from
  canceling NextWave’s licenses.
  In October 2001, the Government asked the Supreme Court to review the ruling by the D.C.
  Circuit. On March 4, 2002, the Supreme Court granted the Government’s petition for certiorari
  from the Court of Appeals decision. The FCC prosecuted its case to the Supreme Court, and
  oral argument was held in the case on October 8, 2002.
  On January 4, 2002, the Auction No. 35 winning bidders for spectrum associated with
  NextWave's licenses asked the FCC to refund the approximately $3.3 billion in down payments
  that the agency had been holding since February 2001. On March 26, 2002, the Commission
  issued an order to return 85% of approximately $3.3 billion in down payments, retaining
  amounts equal to 3% of each winning bid, the minimum bidder default payment under the
  Commission’s rules. The Commission stated that the FCC will keep the related Auction No. 35
  licenses in a pending status until final resolution of the litigation and will require the winning
  bidders to pay their full bids if the U.S. Supreme Court rules in the FCC's favor. To date, the
  FCC has refunded 22 bidders a total of $2.8 billion.

  On September 12, 2002, the FCC released a public notice seeking views on whether it should
  allow carriers to opt out of their $16.3 billion in bids for licenses reclaimed from NextWave,
  and another bankrupt company. Commissioners solicited feedback on two opt-out options: (1)
  full refund and option to dismiss all pending applications – applicants would lose all claims to
  the affected Auction No. 35 licenses – or (2) selective opt-out for pending applications –
  applicants would have the opportunity to pick and choose licenses to keep or dismiss.

  On November 14, 2002, the Commission announced their decision in the matter: Eligible
  Auction No. 35 winning bidders that request dismissal of their pending applications will be
  relieved of their bid obligations and receive a full refund of their deposits. The Order imposes
  no restrictions on electing bidders’ ability to acquire such spectrum in future auctions. Eligible
  winning bidders must make an election not later than 45 days from the date of this Order.
  Noting that the telecommunications industries have been undergoing serious economic

                                               50
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2002 Annual Financial Report

     difficulties, the Commission said that granting this relief to Auction No. 35 bidders may help
     consumers by promoting greater stability in the wireless sector and allowing the companies to
     redirect their capital and focus their resources on providing communications services. During
     the month of December 2002, the Commission received and processed refunds for 18 of the 22
     bidders for a total of $486.3 million. Refunds for the other four bidders, totaling $3.2 million,
     remain pending final approval.

     On January 27, 2003, the Supreme Court of the United States made a favorable ruling for
     NextWave Personal Communications, Inc. (Nextwave) on the FCC’s case against NextWave.

     The recovery and timing of recovery on loans in default are key factors in the FCC’s calculation
     of its annual credit reform subsidy. For the FCC’s FY 2003 credit subsidy re-estimate, which is
     reflected in the FY 2002 financial statements, the FCC assumed a 100% recovery rate for the
     NextWave licenses with receipt in the first quarter of FY 2005. The Supreme Court decision
     addresses ownership of the licenses, not the amount of the payments owed by NextWave as a
     result of its winning bids for the licenses. Any dispute regarding the amounts owed by
     NextWave for the licenses, and the timing of future recoveries has not changed as a result of the
     Supreme Court ruling. These issues will be resolved in bankruptcy court. As a result, the FCC
     has not made additional changes to these financial statements for this event.
     Delayed Auctions

     In May 2002, the FCC issued a decision postponing the June 2002 auction of licenses in the
     Upper 700 MHz band (Auction No. 31) until January 2003, in order to provide Congress more
     time to consider legislation affecting the timing of that auction, and accordingly, bidder
     preparation and planning.41 On June 19, 2002, the President signed into law the “Auction
     Reform Act of 2002,” which prohibited the FCC from commencing auction of licenses in the
     Lower 700 MHz band (Auction No. 44) originally scheduled for that same day. The Auction
     Reform Act directed the Commission to commence an auction of a portion of the Lower 700
     MHz band, the C and D block licenses, no earlier than August 19, 2002 and no later than
     September 19, 2002. Additionally, it required the FCC, within one month of enactment, to
     return to bidders for licenses in the A, B, and E blocks in Auction No. 44 the full amount of all
     upfront payments made by such bidders for such licenses.42 The auction commenced August
     27, 2002. On September 18, 2002, the FCC completed the auction of 740 licenses in the Lower
     700 MHz C and D blocks, or the 710-716/740-746 MHz and 716-722 MHz bands (“Auction
     No. 44”), raising (in net high bids) a total of $88,651,630 for the U.S. Treasury. In this auction,
     102 winning bidders won a total of 484 licenses.43

     Results of Financial Position and Operations
     A significant aspect of the FCC’s operations is managing its Spectrum Auction Direct Loan
     portfolio (Spectrum Auction). In FY 2002, the net loans receivable balance, which represents
     installments due from loans under the Spectrum Auction program, was approximately $5.3
     billion, representing more than half of the Commission’s total assets of $9.8 billion.

41
   FCC Public Notice, FCC 02-158, “Report No. AUC-02-31-F (Auction 31) and AUC-02-44-D (Auction No. 44), May 24, 2002.
42
   Memorandum Opinion and Order, “Auction No. 44 Revised Schedule, License, Inventory and Procedures, Public Notice DA-02-
1817,” July 25, 2002.
43
   FCC Public Notice, DA-02-2323, “Lower 700 MHz Band Auction Closes,” Report No. AUC 02-44-1 (Auction No. 44),
September 20, 2002.

                                                           51
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report

The FCC is required to annually adjust its allowance for losses on the credit portfolio based on
the most current portfolio performance information. In accordance with OMB guidance, the
FCC calculates its subsidy reestimate based on the most recent economic and technical
assumptions.
In FY 2002, at the direction of the OMB, the FCC changed the discount rate methodology it
used to calculate subsidy reestimates. In prior years, the discount rate for each cohort was set
based on the weighted average comparable Treasury rate at the time of “loan disbursement,” or
the grant date. The OMB directed the FCC to switch to a simplified actual annual average
discount rate approach. This approach is most commonly used by other Federal credit agencies
in calculating reestimates. If the FY 2003 reestimate had been done using the old methodology,
the FY 2002 subsidy expense recognized in these financial statements would have been higher
by $56.3 million.
Also in FY 2002, the FCC made the conversion from the use of the OMB Subsidy Model to the
use of the OMB Credit Subsidy Calculator (CSC). Unlike the OMB Subsidy Model, the CSC
allows for input of the loan disbursements at the exact month of disbursement. The increased
precision in the timing of disbursements resulted in subsidy rate changes from the FY 2002
reestimate. These changes do not reflect a change in the FCC’s risk, but rather a change in the
tools that OMB issues for agency use.
For the FY 2001 financial statements, the FCC completed one subsidy reestimate in December
2001 to reflect the loan performance through September 30, 2001. The result of this reestimate
was an upward adjustment of $91.7 million that was reported in the FY 2001 financial
statements, and in the FY 2002 budget.
The FCC’s FY 2003 subsidy reestimate resulted in an upward reestimate totaling $500.1 million
in the Spectrum Auction program of which, $346.4 million is primarily due to the timing of
recoveries on previously defaulted NextWave loans. An additional $153.7 million increase is
due to interest on the reestimate, which represents interest lost from the time of origination.
This reestimate is reported in the FCC’s FY 2002 financial statements, but will not be reported
in the budget until FY 2003. The average subsidy rate increased from 44.9% in the FY 2001
financial statements to 48.4% in the FY 2002 financial statements.
The most significant components of the subsidy cost historically have been the FY 1997 C and
F Block installment loans. Based on the FY 2003 reestimate, the FY 1997 C and F Block
account for 97% of the Spectrum Auction licenses.
The FY 2003 subsidy cost reestimate of the C Block FY 1997-cohort as included in the FY
2002 financial statements was 54.3%, an increase from 50.7% in the FY 2001 financial
statements, which equated to a subsidy cost of $4.9 billion, an increase from $4.6 billion the
prior year. The F Block FY 1997 cohort subsidy rate for as included in the FY 2002 financial
statements was –44.7%, an increase from –52.4% in the FY 2001 financial statements, which
equated to a subsidy cost of -$222 million, an increase from -$260 million the prior year.
The subsidy reestimates for the C and F Block 1997-cohorts increased primarily because the
expected cash flows from the Auction No. 35 recovery time was extended from mid-2002 to
mid-2003 for non-NextWave related licenses, and from the end of FY 2002 to the first quarter
of FY 2005 for NextWave related licenses. The switch from the FCC-specific discount rate to
the OMB default discount rate also contributed to the increase in the subsidy rate.


                                            52
                                                               Federal Communications Commission
                                                           Fiscal Year 2002 Annual Financial Report

The Narrowband FY 2003 subsidy rate included in the FY 2002 financial statements was
55.0%, a decrease from 56.5% in the FY 2001 financial statements, which equated to a subsidy
cost of $66.9 million, a decrease from $68.6 million the prior year. The subsidy cost decreased
for Narrowband in the FY 2003 reestimate primarily due to the timing of recoveries being
shortened from mid 2005 to the fourth quarter of 2004 and the change to OMB published
“Actual average interest rates.”
The Interactive Video and Data Service (IVDS) FY 2003 subsidy rate included in the FY 2002
financial statements was 81.1%, a decrease from 90.7% in the FY 2001 financial statements,
which equated to a subsidy cost of $71.8 million, a decrease from $80.3 million the prior year.
The subsidy cost decreased for IVDS in FY 2003 as a result of an increase in loan payments and
thus a lower number of defaults and the change to OMB published “Actual average interest
rates.”
Borrowers are required to repay loans on a quarterly basis and are allowed to prepay their loans
without penalties. In FY 2002, 141 loans were paid off. Collections resulting from these loan
payoffs, which include principal, interest, suspension interest, and late fees, totaled $264.5
million. When compared with FCC’s total collections of $345.1 million in principal, interest,
suspension interest, and late fees, loan payoffs represent approximately 77% of all collections.
The Debt Collection Act of 1996 requires Federal agencies to transfer to the Treasury for debt
collection any non-tax debt that is over 180 days delinquent. In cases where delinquency
occurs, the full amount of outstanding debt including, but not limited to, outstanding principal,
past-due interest, and late fees, will be accelerated and must be paid in full. Failure to pay in
full upon demand results in the transfer of the debt to the Treasury FMS for debt collection and
the assessment of additional interest, penalties, and other administrative charges. In FY 2002,
the FCC transferred 18 loans totaling $3.8 million to Treasury for debt collection.
FCC’s assets include its Fund Balance with the Department of the Treasury (Treasury) and Cash
and Other Monetary Assets. The approximately $2.8 billion decrease over FY 2001 in Fund
Balance with Treasury is primarily the result of $2.8 billion in refunds processed for Auction
No. 35. The $741 million increase over FY 2001 in Cash and Other Monetary Assets is
attributed to the continued change in USF investments, away from individual securities and into
mutual funds and money market funds. USF continues to build a Fund Balance due to the lag in
distribution of funds.
The FCC’s most significant liability account is Debt of $5.9 billion. Debt includes $5.8 billion
owed to Treasury for borrowing related to credit reform installment loans, and $114 million in
debt with the public for one voucher issued as a result of litigation. Deferred revenue decreased
by $2.8 billion over FY 2001, also as a result of Auction No. 35 refunds.
The net cost of FCC operations for FY 2002 was $5.8 billion, which was allocated to the five
programs of the FCC: Consumer Information Service, Enforcement, Competition, Licensing,
and Spectrum Management; and to Credit Reform, the USF and NANP. The $2.7 billion
decrease can be contributed to the fact that multiple, large subsidy reestimates were not
performed in FY 2002 as they were in FY 2001.




                                             53
                                                                   Federal Communications Commission
                                                               Fiscal Year 2002 Annual Financial Report

  The FCC’s budget authority in FY 2002 was $173 million, and an additional $5.5 billion for
  USF, which in total represents a $23.9 billion decrease over FY 2001. The decrease is a result
  of not having the large upward or downward subsidy reestimates that led to the $23.5 billion in
  authority in FY 2001. For FY 2002, the FCC received upward reestimate authority of $133
  million and borrowing authority of $4.4 million.
  Another significant dimension of the financial statements is the USF. The Fund continued to
  grow over the past year, and collections have outpaced the new support requirements of carriers.
  The Fund has met all obligations during the year. Management expects the Fund to continue to
  meet all obligations presented.
  The USF had a total cash distribution of $5.1 billion in fiscal year 2002. Net cash collections of
  $5.5 billion exceeded the total cash distributed by $364 million. Those collections when added
  to previous collections and receivables constitute the total net assets of the Fund, $3.2 billion.
  Those assets are sufficient to meet the total liabilities of the Fund and consideration of the best
  way to reduce the growing fund balance in this program is underway at the FCC.
  In FY 2002, FCC management deemed the activity of the NANP as material. As a result, the
  FCC is incorporating the activity of the NANP into these financial statements for the first time.
  NANP contributes an additional $12.5 million in total assets to the FCC Balance Sheet,
  primarily in Cash and Other Monetary Assets where the NANP holds $11.6 million. The net
  cost added by inclusion of the NANP totals $1.3 million.

Limitations of the Financial Statements
  The financial statements have been prepared to report the financial position and results of
  operations of the FCC, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements
  have been prepared from the books and records of the FCC in accordance with generally
  accepted accounting principles (GAAP) for Federal entities and the formats prescribed by the
  OMB, the statements are in addition to the financial reports used to monitor and control
  budgetary resources which are prepared from the same books and records.
  The statements should be read with the realization that they are for a component of the U.S.
  Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
  without legislation that provides resources to do so.




                                                54
             Federal Communications Commission
         Fiscal Year 2002 Annual Financial Report




 FINANCIAL
STATEMENTS




    55
                                         Federal Communications Commission
                                             Consolidated Balance Sheet
                                          As of September 30, 2002 and 2001
                                                        (dollars in thousands)


                                                                            2002                   2001
ASSETS (Note 2)
 Intragovernmental
   Fund Balance with Treasury (Note 3)                              $            1,285,165    $      4,058,202
   Accounts Receivable (Note 6)                                                      3,041                 -
 Total Intragovernmental                                                         1,288,206           4,058,202

 Cash and Other Monetary Assets (Note 4)                                         2,347,998           1,606,598
 Investments (Note 5)                                                              328,194             656,116
 Accounts Receivable, net (Note 6)                                                 515,359             773,078
 Loans Receivable, net (Note 7)                                                  5,259,258           5,972,496
 General Property, Plant, and Equipment, net (Note 9)                               41,813              35,318
 Other                                                                                   2                 -

Total Assets                                                        $            9,780,830    $     13,101,808

LIABILITIES (Note 10)
 Intragovernmental
   Debt (Note 11)                                                   $            5,770,915    $      6,109,604
   Other (Note 12)
     Custodial                                                                    691,662             848,619
     Other                                                                          1,074               2,973
   Total Other                                                                    692,736             851,592

 Total Intragovernmental                                                         6,463,651           6,961,196

 Accounts Payable                                                                 410,171             350,297
 Debt Held by the Public (Note 11)                                                114,425             125,274
 Other (Note 12)
  Deferred Revenue                                                                551,450            3,304,671
  Other                                                                           113,990               95,000
 Total Other                                                                      665,440            3,399,671

Total Liabilities                                                   $            7,653,687    $     10,836,438

 Commitments and Contingencies (Note 14)

NET POSITION
 Unexpended Appropriations                                          $               22,158    $         24,012
 Cumulative Results of Operations                                                2,104,985           2,241,358

Total Net Position                                                               2,127,143           2,265,370

Total Liabilities and Net Position                                  $            9,780,830    $     13,101,808




                                 The accompanying notes are an integral part of these statements

                                                                  56
                               Federal Communications Commission
                                Consolidated Statement of Net Cost
                  For the Years Ended September 30, 2002 and September 30, 2001
                                                (dollars in thousands)


                                                                         2002                  2001
PROGRAM COSTS:
Licensing:
  Intragovernmental gross costs                                   $          18,805        $      19,209
  Less: Intragovernmental earned revenue                                       (274)                (313)
  Intragovernmental net costs                                                18,531               18,896

 Gross costs with the public                                                 55,448                61,831
 Less: Earned revenues from the public                                      (76,853)              (86,588)
 Net costs with the public                                                  (21,405)              (24,757)
   Total net cost                                                            (2,874)               (5,861)

Competition:
 Intragovernmental gross costs                                    $          27,368        $      21,146
 Less: Intragovernmental earned revenue                                        (386)                (342)
 Intragovernmental net costs                                                 26,982               20,804

 Gross costs with the public                                                 80,624                68,093
 Less: Earned revenues from the public                                     (108,113)              (94,534)
 Net costs with the public                                                  (27,489)              (26,441)
   Total net cost                                                              (507)               (5,637)

Enforcement:
 Intragovernmental gross costs                                    $          17,899        $      18,100
 Less: Intragovernmental earned revenue                                        (247)                (290)
 Intragovernmental net costs                                                 17,652               17,810

 Gross costs with the public                                                 52,728                58,253
 Less: Earned revenues from the public                                      (69,073)              (80,263)
 Net costs with the public                                                  (16,345)              (22,010)
   Total net cost                                                             1,307                (4,200)

Consumer Information Services:
 Intragovernmental gross costs                                    $             8,994      $          3,685
 Less: Intragovernmental earned revenue                                          (125)                  (59)
 Intragovernmental net costs                                                    8,869                 3,626

 Gross costs with the public                                                 26,495                11,671
 Less: Earned revenues from the public                                      (34,859)              (16,434)
 Net costs with the public                                                   (8,364)               (4,763)
   Total net cost                                                               505                (1,137)

Spectrum Management:
 Intragovernmental gross costs                                    $          10,382        $          6,598
 Less: Intragovernmental earned revenue                                        (147)                   (106)
 Intragovernmental net costs                                                 10,235                   6,492

 Gross costs with the public                                                 30,584                21,036
 Less: Earned revenues from the public                                      (41,139)              (29,403)
 Net costs with the public                                                  (10,555)               (8,367)
   Total net cost                                                              (320)               (1,875)

                                                   Page 1 of 2



                         The accompanying notes are an integral part of these statements

                                                       57
                                Federal Communications Commission
                                 Consolidated Statement of Net Cost
                   For the Years Ended September 30, 2002 and September 30, 2001
                                                 (dollars in thousands)


                                                                          2002                  2001
Universal Service:
 Intragovernmental gross costs                                     $             463        $          -
 Less: Intragovernmental earned revenue                                           (7)                  -
 Intragovernmental net costs                                                     456                   -

 Gross costs with the public                                               5,282,968             4,980,967
 Less: Earned revenues from the public                                        (1,807)                  -
 Net costs with the public                                                 5,281,161             4,980,967
   Total net cost                                                          5,281,617             4,980,967

Numbering:
 Intragovernmental gross costs                                     $              -         $          -
 Less: Intragovernmental earned revenue                                           -                    -
 Intragovernmental net costs                                                      -                    -

 Gross costs with the public                                                   9,685                   -
 Less: Earned revenues from the public                                       (11,010)                  -
 Net costs with the public                                                    (1,325)                  -
   Total net cost                                                             (1,325)                  -

Credit Reform:
 Intragovernmental gross costs                                     $         416,251        $    1,214,175
 Less: Intragovernmental earned revenue                                      (26,000)             (843,627)
 Intragovernmental net costs                                                 390,251               370,548

 Gross costs with the public                                                 521,095             7,965,866
 Less: Earned revenues from the public                                      (399,705)           (4,760,043)
 Net costs with the public                                                   121,390             3,205,823
   Total net cost                                                            511,641             3,576,371

Total Net Program Costs                                            $       5,790,044        $    8,538,628

Cost not Assigned to Programs:
 Depreciation                                                      $          10,716        $      11,662
 Telecommunications Development Fund                                             262               19,852
 Other Expenses                                                                1,313                1,036

Less: Earned Revenues not Attributed to Programs:
 Telecommunications Development Fund                               $             (262)      $      (19,852)

Net Cost of Operations (Note 16)                                   $       5,802,073        $    8,551,326




                                                    Page 2 of 2

                          The accompanying notes are an integral part of these statements

                                                        58
                            Federal Communications Commision
                      Consolidated Statement of Changes in Net Position
                           For the Year Ended September 30, 2002
                                            (dollars in thousands)



                                                                          Cumulative
                                                                            Results            Unexpended
                                                                         of Operations        Appropriations

Beginning Balances                                                   $          2,241,358 $           24,012
Prior period adjustments (Note 17)                                                (22,073)               -
New Reporting Entity (Note 29)                                                     10,781                -
Beginning balances, as adjusted                                                 2,230,066             24,012

Budgetary Financing Sources:
 Appropriations received                                                              -               387,428
 Other adjustments (recission, etc) (+/-)                                             -              (220,338)
 Appropriations used                                                              168,944            (168,944)

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)                                     (21,284)                -
 Imputed financing from costs absorbed by others                                   11,069                 -
 Universal Service Fund Nonexchange Revenue                                     5,518,572                 -
 Other (+/-)                                                                         (309)                -

Total Financing Sources                                                         5,676,992              (1,854)

Less: Net Cost of Operations                                                    5,802,073

Ending Balances                                                      $          2,104,985    $        22,158




                       The accompanying notes are an integral part of these statements

                                                     59
                         Federal Communications Commission
                      Combined Statement of Budgetary Resources
                        For the Year Ended September 30, 2002
                                        (dollars in thousands)



                                                                                    Non Budgetary
                                                                                    Credit Program
                                                             Budgetary            Financing Account
Budgetary Resources:

Budget Authority
 Appropriations Received                                 $       5,711,907    $                  -
 Borrowing Authority                                                   -                       4,456

Unobligated Balance:
 Beginning of Period (Note 21)                                   1,917,318                    18,175
Spending Authority from Offsetting Collections:
 Earned
   Collected                                                       312,914                   762,860
   Receivable from Federal Sources                                       7                       -
 Changed Unfilled Customer Orders
   Without Advance from Federal Sources                                  1                       -
Subtotal                                                         7,942,147                   785,491

Recoveries of Prior Year Obligations                                 6,958                       -
Permanently not available                                          (15,524)                 (343,145)

Total Budgetary Resources                                $       7,933,581    $              442,346


Status of Budgetary Resources:

Obligations Incurred (Note 18):
 Direct                                                  $       5,686,628    $              420,777
 Reimbursable                                                        1,372                       -
 Subtotal                                                        5,688,000                   420,777
Unobligated Balance:
 Apportioned                                                         7,398                    21,569
 Exempt from Apportionment                                       2,228,067                       -
Unobligated Balance not Available                                   10,116                       -

Total Status of Budgetary Resources                      $       7,933,581    $              442,346


Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period (Note 21)    $         407,397    $                  -
Obligated Balance, net, End of Period:
 Accounts Receivable                                                   405                       -
 Unfilled Customer Orders from Federal Sources                        (532)                      -
 Undelivered Orders                                                 43,592                       -
 Accounts Payable                                                  409,366                       -

Outlays:
 Disbursements                                                   5,635,599                   420,777
 Collections                                                      (312,914)                 (762,860)
 Subtotal                                                        5,322,685                  (342,083)
Less: Offsetting Receipts                                           21,284                       -
Net Outlays                                              $       5,301,401 $                (342,083)

                   The accompanying notes are an integral part of these statements

                                                  60
                                     Federal Communications Commission
                                      Consolidated Statement of Financing
                                     For the Year Ended September 30, 2002
                                                    (dollars in thousands)



Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                                   $   6,108,777
 Less: Spending authority from offsetting collections and recoveries                                        1,082,739
 Obligations net of offsetting collections and recoveries                                                   5,026,038
 Less: Offsetting receipts                                                                                     21,284
 Net obligations                                                                                            5,004,754
Other Resources
 Transfers in/out without reimbursement (+/-)                                                                 (21,284)
 Imputed financing from costs absorbed by others                                                               11,069
 Other (+/-)                                                                                                      309
 Net other resources used to finance activities                                                                (9,906)

Total resources used to finance activities                                                                  4,994,848

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                            (8,264)
 Resources that fund expenses recognized in prior periods                                                     (23,975)
 Budgetary offsetting collections and receipts that do not affect net cost of operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                 (739,915)
   Other                                                                                                      399,705
 Resources that finance the acquisition of assets                                                              15,773
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                  (5,623)

 Total resources used to finance items not part of the net cost of operations                                (362,299)

Total resources used to finance the net cost of operations                                                  5,357,147

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                            1,255
 Upward/Downward reestimates of credit subsidy (+/-)                                                         366,685
 Increase in exchange revenue receivable from the public                                                      (1,893)
 Other (+/-)                                                                                                 (22,996)

 Total components of Net Cost of Operations that will require or generate resources in future periods        343,051

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                10,716
 Other (+/-)                                                                                                  91,159

 Total components of Net Cost of Operations that will not require or generate resources                      101,875

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                              444,926

Net Cost of Operations                                                                                  $   5,802,073



                             The accompanying notes are an integral part of these statements

                                                              61
                                       Federal Communications Commission
                                    Consolidated Statement of Custodial Activity
                          For the Years Ended September 30, 2002 and September 30, 2001
                                                        (dollars in thousands)


                                                                                           2002              2001
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                                                $         405,321    $    1,507,584
   Fines and Penalties                                                                         38,957            52,916
   Credit Reform Interest (Note 29)                                                           416,251               -
   TDA Interest                                                                                   258            19,886
 Total Cash Collections                                                                       860,787         1,580,386

 Accrual Adjustments
  Spectrum Auctions                                                                          (192,756)         129,848
  Fines and Penalties                                                                          (4,865)            (315)
  TDA Interest                                                                                      4              (34)
 Total Accrual Adjustments                                                                   (197,617)         129,499

Total Custodial Revenue                                                                       663,170         1,709,885

Disposition of Collections:
 Transferred to Others:
   Recipient A: U.S. Treasury                                                                (456,366)       (1,077,197)
   Recipient B: FCC Financing Account - Credit Reform (Recoveries)                           (258,163)              -

 (Increase)/Decrease in Amounts Yet to be Transferred                                         156,957          (543,540)
 Refunds and Other Payments                                                                   (16,552)           (1,771)
 Retained by the Reporting Entity                                                             (89,046)          (87,377)

Net Custodial Activity                                                              $               -    $          -




                                  The accompanying notes are an integral part of these statements

                                                                 62
               Federal Communications Commission
           Fiscal Year 2002 Annual Financial Report




NOTES TO THE
CONSOLIDATED
  FINANCIAL
 STATEMENTS




      63
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2002 and 2001
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies:

Reporting Entity

The Federal Communications Commission (“FCC” or “Commission”) is an independent United
States government agency, directly reporting to Congress. The FCC was established by the
Communications Act of 1934, as amended, and is charged with regulating interstate and
international communications by radio, television, wire, satellite, and cable. The FCC's
jurisdiction covers the 50 States, the District of Columbia, and the U.S. possessions.

The FCC is directed by five Commissioners appointed by the President of the United States and
confirmed by the Senate for five-year terms, except when filling an unexpired term. The
President designates one of the Commissioners to serve as Chairman. Only three Commissioners
may be members of the same political party. Commissioners may not hold a financial interest in
any company or entity that has a significant interest in activities regulated by the Commission.

The FCC’s operations are divided among six bureaus that are supported by ten offices. The six
bureaus are International, Consumer and Governmental Affairs, Media, Wireline Competition,
Wireless Telecommunications, and Enforcement. Two outside entities, the Universal Service
Administrative Company (USAC) and the National Exchange Carrier Association (NECA)
administer the activities of the Universal Service Fund Program (USF Program). The USF
Program includes the Universal Service Fund (USF), administered by USAC, and the
Telecommunications Relay Service Fund (TRS), administered by NECA. The USF consists of
four universal service support mechanisms that were established pursuant to Section 254 of the
Communications Act of 1934, as amended. The USAC was appointed by the FCC to administer
the four USF support mechanisms: high cost areas, low-income consumers, schools and libraries,
and rural health care providers. It also submits projections of demand and administrative
expenses for each of these mechanisms and quarterly USF contribution data to the FCC. The
TRS was established by the Americans with Disabilities Act of 1990, Title IV, and provides
telephone service to the blind and physically handicapped. The NECA is the appointed
administrator for the TRS Fund. For consolidating purposes, we group USF and TRS together as
“Universal Service.”

An additional component of the FCC, as defined by Statement of Federal Financial Accounting
Concepts (SFFAC) No. 2 Entity and Display, includes the North American Numbering Plan
(NANP) program administered by the North American Numbering Plan Administrator
(NANPA). The administrators and billing and collection agent serve an initial period of five
years and are required to be independent and impartial non-governmental entities under FCC
regulations (47 C.F.R. §52.12, 52.21h). Revenues to support the program are collected by the
administrator or the billing and collection agent (47 C.F.R. §52.16, 52.17, 52.32, 52.33).
Amounts presented for this component in these statements are referred to under the heading
“NANP.” The inclusion of the NANP program in FY 2002 represents a change in the reporting
entity from FY 2001. The impact of this change on FY 2001 has been disclosed in Note 29.



                                              64
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2002 and 2001
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Basis of Accounting

The consolidated financial statements have been prepared from the accounting records of the
FCC and its consolidating entities in conformity with accounting principles generally accepted in
the United States (GAAP), and standards specified by the Office of Management and Budget
(OMB) in OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements (OMB
Form and Content). GAAP for Federal entities are the standards prescribed by FASAB, which
was designated the official accounting standards-setting body for the Federal government by the
American Institute of Certified Public Accountants. The consolidated financial statements are
different from the financial reports, also prepared by FCC pursuant to OMB directives used to
monitor and control FCC’s use of budgetary resources.

Basis of Presentation

The accompanying consolidated financial statements have been prepared to report the financial
position, results of operations, changes in net position, budgetary resources, custodial activity,
and financing of the FCC as of and for the year ended September 30, 2002 and the financial
position, results of operations, and custodial activity as of and for the year ended September 30,
2001. The consolidated financial statements have been prepared from the books and records of
the FCC in accordance with OMB Form and Content and GAAP of the Federal government.

The preparation of financial statements, in accordance with accounting principles generally
accepted in the United States, requires management to make estimates and assumptions that
affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
liabilities at the date of the financial statements, and the reported amounts of revenues and
expenses during the reporting period. Actual results may differ from those estimates.

All significant intra-entity balances and transactions have been eliminated in consolidation. A
distinction has been made in the financial statements between asset and liability balances arising
from transactions with other Federal government agencies and all other asset and liability
balances. These balances are specifically identified under the heading, “Intragovernmental.”

Presentation changes have been made in FY 2002 as a result of a change in reporting entity, new
reporting guidance, and internal policy changes that are not comparable with FY 2001
presentation. Additional disclosures regarding the impact of these changes are included in
Note 29.




                                               65
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Assets

Assets are tangible or intangible items owned by the FCC that have probable economic benefits
that can be obtained or controlled by the FCC. The intragovernmental assets of an agency are
separately reported on the face of the balance sheet. The non-entity assets, which are assets the
entity holds but does not have the authority to use in its operations, are separately disclosed in
Note 2. Entity assets are those assets which the reporting entity holds and has the authority to
use in its operations.

Fund Balance with Treasury

The FCC maintains seven types of accounts with the U.S. Treasury: general, revolving, deposit,
special, receipt, trust, and clearing. The general and revolving accounts may be used by the FCC
to finance expenditures depending on budgetary availability. The deposit accounts are used to
hold funds received through spectrum auctions, international telecommunications settlements
(ITS), or regulatory fee monies until they can be distributed to the proper account. The special
account is used to track USF and TRS funds held outside of the U.S. Treasury. The receipt
accounts are used to record collections made by the FCC on behalf of the Department of the
Treasury’s General fund. The trust account was established in FY 2001 to track funds donated
for a special study on noise and interference affecting the performance of current and proposed
communications systems, and the clearing account is used to clear unidentified collections and
reimbursements throughout the year.

Cash and Other Monetary Assets

Cash and Other Monetary Assets represents cash on deposit at several commercial banks and
highly liquid securities with an original maturity of three months or less. The commercial
accounts are in the form of mutual funds and money market funds that can easily be drawn
against. In the case of USF, TRS and NANP, interest proceeds are reinvested and remain
available for use. In the case of the FCC, these funds represent third party deposits made
pursuant to the FCC Spectrum Auction activities. Upon conclusion of individual auctions, funds
on deposit are offset against amounts due from successful bidders or returned to unsuccessful
bidders. The funds are held in the Telecommunications Development Account (TDA), an
interest bearing account, for subsequent transfer to the Telecommunications Development Fund
(TDF) during and for a 45 day period after the close of a given auction. These funds represent a
liability to the FCC until such time as they are applied toward a valid spectrum license, returned
to the depositor, or transferred to the TDF.

The 1996 Act established the TDF, the purpose of which is to: (1) promote access to capital for
small businesses in order to enhance competition in the telecommunications industry; (2)
stimulate new technology development, and promote employment and training; and (3) support
universal service and promote delivery of telecommunications to underserved rural and urban
                                               66
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Cash and Other Monetary Assets (continued)

areas. Pursuant to 47 U.S.C. Section 309(j)(8), the FCC is authorized to transfer interest accrued
on deposits from the TDA to the TDF.

Cash on deposit typically exceeds federally insured limits. The Federal Reserve requires the
bank to collateralize all funds on deposit from the FCC at 110%.

Investments

Investments are reported net of any unamortized premium or discount. All of USF’s investments
are in marketable non-federal debt securities. All investments are considered to be short term
with maturity dates that do not exceed one year.

Accounts Receivable, Net

Accounts Receivable consists of claims by the FCC for payment from other entities. Gross
receivables shall be reduced to net realizable value by an allowance for doubtful accounts.

Loans

Reporting requirements for direct loan obligations made after fiscal year 1991 are governed by
the Federal Credit Reform Act (FCRA) of 1990, as amended. The FCRA requires that the
present value of the subsidy costs (present value of the estimated cash outflows over the life of
the loans minus the present value of the estimated cash inflows, discounted at the interest rate of
marketable Treasury securities with a similar maturity term) associated with direct loans be
recognized as a cost in the year that the loan is obligated. Direct loans are reported net of an
allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost,
including all costs incurred to bring the PP&E to and from a location suitable for its intended
use. The cost of PP&E acquired through donation is the estimated fair value when acquired. The
cost of PP&E transferred from other Federal entities is the net book value recorded by the
transferring entity.

All PP&E with an initial acquisition cost of $25,000 or more, and an estimated useful life of two
years or greater, are capitalized. Bulk purchases of similar items, which individually are not
worth $25,000, but collectively are greater than $250,000, are also capitalized using the same
equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful life of the item. The useful lives used are: 40 years
                                                67
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2002 and 2001
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Property, Plant and Equipment (continued)

for buildings, seventeen years for patents, seven years for equipment and furniture, five years for
computers and vehicles, and three years for software. Land and land rights, including permanent
improvements, are not depreciated. Also, software in process is not depreciated. Normal
maintenance and repair costs are expensed as incurred.

The FCC’s authority relative to seized and forfeited property is cited in 47 U.S.C., Section 510.
Seized property consists of personal property and equipment seized from illegal
telecommunication operations. The property is considered prohibited and held pending an
outcome of court proceedings. Forfeited property consists of seized property turned over to the
FCC and disposed of through the General Service Administration's (GSA) surplus process or
destroyed. The values assigned to the seized and forfeited property are determined by FCC
engineers and are based on current market values for comparable property.

Accounts Payable and Accrued Liabilities

Accounts payable and accrued liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. FCC liabilities cannot be liquidated without
legislation that provides resources to do so. Since the FCC is a component of the U.S.
Government, a sovereign entity, payments of all liabilities other than contracts can be abrogated
by the sovereign entity.

Liabilities Covered by Budgetary Resources – Represent liabilities funded by available
budgetary resources including: (1) new budget authority, (2) spending authority from offsetting
collections, (3) recoveries of expired budget authority, (4) unobligated balances of budgetary
resources at the beginning of the year, and (5) permanent indefinite appropriations or borrowing
authority, as of the Consolidated Balance Sheet date. All liabilities covered by budgetary
resources are classified as current, and are expected to be paid within one year following the
reporting date.

Liabilities Not Covered by Budgetary Resources – Exist when funding has not yet been made
available through Congressional appropriations or current earnings. The FCC recognizes such
liabilities for employee annual leave earned but not taken, and amounts billed by the Department
of Labor for Federal Employee’s Compensation Act (disability) payments.

Deferred Revenue

The FCC collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. Spectrum sales transactions typically consist of an initial down payment equal to
20% of the net winning bid and a final down payment at the time the license is granted. All first
down payment money is recognized by the FCC as deferred revenue until a final payment date is
established by “prepared to grant” public notice.
                                                68
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Debt to the U.S. Treasury

This account represents amounts due to the Bureau of Public Debt, Treasury, to support the
Spectrum Auction Loans Program. Borrowings are determined based on the FCC’s subsidy
estimate and re-estimate in accordance with the FCRA of 1990, as amended, and guidance issued
by OMB. Interest payments made by the FCC on borrowings from the Bureau of Public Debt
are recorded in a receipt account maintained by the FCC. New guidance from Treasury FMS
requires the FCC to record the collection of the interest as custodial activity. This represents a
change in treatment from FY 2001.

Retirement Plans and Other Benefits

Federal Employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, but not yet due and payable. These costs include pensions, other retirement benefits,
and other post-employment benefits. These benefits are administered by Office of Personnel
Management (OPM) and not by the FCC. Since the FCC does not administer the benefit plans,
the FCC does not recognize any liability on the Consolidated Balance Sheet for pensions, other
retirement benefits, and other post-employment benefits. FCC does, however, recognize and
allocate the imputed costs on the Statement of Net Costs and recognizes imputed financing
related to these costs on the Statement of Changes in Net Position.

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or
other termination of employment before retirement. Pension plans may also include benefits to
survivors and dependents, and they may contain early retirement or other special features. Most
FCC employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employee Retirement System (FERS). Under CSRS, FCC makes matching contributions equal
to seven percent of basic pay. For FERS employees, FCC contributes the employer’s matching
share for Social Security and contributes an amount equal to one percent of employee pay to a
savings plan and matches up to an additional four percent of pay. Most employees hired after
December 31, 1983, are covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded
liabilities, if any, applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability
for death, disability, medical and miscellaneous costs for approval compensation cases. The
liability is determined using a method that utilizes historical benefit payment patterns related to a
specific incurred period to predict the ultimate payment related to that period. No actuarial
liability is determined by the Department of Labor (DOL) for the FCC, due to the immateriality
to the Federal government as a whole.



                                                 69
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect leave balances and current pay
rates. Annual leave is reflected as a liability that is not covered by current budgetary resources.
Sick leave and other types of non-vested leave are expensed as taken.

Revenues and Other Financing Sources

Exchange revenue is the amount of money earned for goods and services provided to other
agencies and the public. For example, spectrum auction sales and reimbursable agreements are
considered exchange revenue to the Federal government. Exchange revenue, except for radio
spectrum auction proceeds, is reported on the SNC where it is allocated based on the ratio of
individual program costs to total program costs. Nonexchange revenue is recorded for
transactions where revenue is earned at no substantial cost to the provider. For example,
collections from fines and forfeitures are considered nonexchange revenue. Nonexchange
revenue is reported on either the SCNP or the SCA. Other Financing sources are funding such as
appropriations, where resources are received and nothing of value is given in return. Other
Financing sources are reported on SCNP.

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993
directed the FCC to assess and collect regulatory fees to recover the costs incurred in carrying
out certain provisions of the Agency’s mission. Regulatory fees are intended to offset costs
associated with the FCC competition, enforcement, consumer information, and spectrum
management activities. Since 1993, Congress has annually reviewed the regulatory fee collection
requirements of the Commission and established the total fee levels to be collected. Fees
collected up to the level established by Congress are applied against the FCC’s annual
appropriation via a negative warrant processed at the close of each fiscal year. Only once, in
fiscal year 1998, have fee attainments been less than the established level. The regulatory fee
levels of $218,757 and $200,146 established for FY 2002 and FY 2001, respectively, were
achieved.

Radio Spectrum Auction Proceeds (Exchange) – The proceeds from auctioning the right to use
the radio spectrum are exchange revenues, because each party receives and sacrifices something
of value. The amount of revenue is earned by sales in the market at auctions. The proceeds from
the auction of the radio spectrum bear little relationship to the costs recognized by the FCC,
which collects the revenue, and should not, according to SFFAS No. 7, Accounting for Revenue
and Other Financing Sources and Concepts for Reconciling Budgetary and Financial
Accounting, as issued by the FASAB, be offset against the costs of the FCC in determining its
net cost of operations. Therefore, FCC accounts for this exchange revenue as a custodial activity.
Revenue on spectrum auction is recognized when the final payment date is established by the
“prepared to grant” public notice.
                                                70
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Revenues and Other Financing Sources (continued)

When spectrum licenses are transferred between companies in the market place, additional
revenues may be recognized as a result of unjust enrichments. Unjust enrichments occur when
the original licensee qualifies to receive a bidding credit at the time of the auction that the new
licensee does not qualify to receive. In these cases, the FCC requires that the original credit be
paid as a condition to approving the transfer. For recognition purposes, the FCC recognizes
unjust enrichment revenue under three different scenarios: 1) at the time of receipt if the original
license was paid in full, 2) at the point when both a payoff and unjust enrichment have been
received if the license was in the installment loan program and is being paid off, or 3) at the later
of the assignment and assumption effective date or the date the executed agreement and funds
are received at the Commission if the license is in the installment loan program and the existing
loan is being assumed.

Offsetting Collections (Exchange) – One of FCC’s primary functions is the management of the
Spectrum Auction Program on behalf of the U.S. Government. Proceeds from the auctions are
initially remitted to the FCC and later transferred to the U.S. Treasury, net of anticipated auction
related costs. Under 47 U.S.C. Section 309, a portion of the Spectrum Auction proceeds may be
retained by the FCC to offset the cost of performing the auction function. Collections used to
offset the cost of performing auctions related activity totaled $77,918 for FY 2002 and $67,526
for FY 2001.

Application Fees (Exchange) - Congress authorized the FCC (Section 8, 47 U.S.C.) to impose
and collect application processing fees and directed the FCC to prescribe charges for certain
types of application processing or authorization services it provides to communications entities
over which the FCC has jurisdiction. Application fees are deposited in the U.S. Treasury and are
not available for the FCC to use. Application fees collected in FY 2002 and FY 2001 were
$21,284 and $24,053, respectively.

Reimbursable Work Agreements (Exchange) – The FCC recognizes reimbursable work
agreement revenue when earned, i.e. goods have been delivered or services rendered. The FCC
executed agreements with other agencies totaling approximately $1,233 in FY 2002 and $1,100
in FY 2001.

Annual Appropriations (Financing Source) - The FCC receives an annual salaries and expense
appropriation from Congress. These funds are used to fund operations during the course of the
fiscal year and are repaid to the U.S. Treasury once regulatory fees have been collected. The
annual appropriation for fiscal year 2002 was $245,042 less anticipated regulatory fee
collections of $218,757 resulting in a net appropriation of $26,285. The annual appropriation for
FY 2001 was $230,000 less regulatory fee collections of $200,146 for a net appropriation of
$29,854.


                                                 71
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Revenues and Other Financing Sources (continued)

Subsidy Estimates and Reestimates (Financing Source) – The FCC receives permanent-indefinite
authority in accordance with the FCRA of 1990, as amended , to fund its subsidy estimates
and reestimates, unless otherwise prescribed by OMB. This authority funds repayment to the
U.S. Treasury for the portion of Spectrum Auction loans that will not be recovered from the
borrower.

USF Program (Nonexchange Revenue) – Carriers conducting interstate telecommunications are
required to remit a portion of their revenues to fund the cost of providing universal service. The
USF Program consists of five elements, four of which are the USF support mechanisms: (1)
schools and libraries; (2) low income consumers; (3) high cost areas; and (4) rural health care.
The fifth element is the TRS which provides services to the blind and physically handicapped.

Transactions with Related Parties

In the course of its operations, the FCC has relationships and financial transactions with
numerous Federal agencies. The more prominent of those relationships are with the Department
of the Treasury (Treasury) and the OMB. FCC also has relationships with agencies such as the
GSA, the DOL, the OPM, and the Department of Agriculture (USDA), National Finance Center
(NFC), among others.

In addition to its relationships and financial transactions with Federal agencies, the FCC has a
direct relationship with organizations that were established to assist the FCC in carrying out its
mission. These organizations are USAC, which administers the four USF support mechanisms,
NECA which administers the TRS Fund, and the North American Numbering Plan
Administration which includes NBANC as the Billing and Collection agent and Neustar as the
NANP Administrator and the Thousand Block Pooling administrator.

Other related entities not meeting the inclusion criteria as defined by SFFAC No.2 include the
programs administered by the Local Number Portability Administrator (LNPA). LNPA works
with carriers to update data tables for required number portability.

Net Position

Net position account balances consist of the following components:

Unexpended Appropriations – Unexpended Appropriations represent amounts of spending
authority that are unobligated and available to the FCC, or obligated but not expended.
Unexpended appropriations can also result from downward subsidy cost reestimates of
mandatory loan programs.


                                               72
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)


Note 1 - Summary of Significant Accounting Policies: (continued)

Net Position (continued)

Cumulative Results of Operations – Cumulative Results of Operations represent the FCC’s net
results of operations (expenses less revenues and other financing sources) since inception. As a
Federal Entity, the FCC is tasked with operating on a break even basis however, certain timing
differences result in the reflection of a balance in cumulative results. The most significant of
these is the timing difference between the receipt of USF contributions and the approval and
disbursement of those funds to qualified providers. Other differences occur as a result of the
accounting for capital equipment purchases and the recognition of certain expenses such as leave
that are funded by future authority.

Note 2 - Non-entity Assets:

The following summarizes non-entity assets as of September 30, 2002 and 2001:

                                                                2002                 2001
     Intragovernmental:
         Fund balance with Treasury                        $ 1,190,419           $ 3,954,848
         Accounts Receivable, Net                                3,041                     -
      Total Intragovernmental                                1,193,460             3,954,848

     Cash and other monetary assets                             35,402                  7,524
     Accounts receivable, net                                   20,330                223,761
     Total non-entity assets                                 1,249,192              4,186,133
     Total entity assets                                     8,531,638              8,915,675
     Total assets                                          $ 9,780,830            $13,101,808

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum
auction winning bids. These deposits accounted for $1,185,363 in FY 2002 and $3,948,676 in
FY 2001. Non-entity Cash and Other Monetary Assets consist of upfront deposits made by
potential spectrum auction bidders. Receivables that are considered non-entity are those for
regulatory fees, application fees, fines and forfeitures, spectrum auction receivables, and ITS
receivables.




                                              73
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 3 - Fund Balance with Treasury:

The following summarizes Fund Balance with Treasury as of September 30, 2002 and 2001:

Fund Balances:
                                                        2002                2001

        Trust Funds                                 $         -        $        88
        Revolving Funds                                  21,569             18,175
        Appropriated Funds                               73,177             85,179
        Deposit Funds                                 1,190,419          3,954,760
Total Fund Balance                                  $ 1,285,165        $ 4,058,202

Status of Fund Balance with Treasury:
                                                        2002                2001
       Unobligated Balance
             Available                              $    30,620        $   31,760
             Unavailable                              1,198,764         3,962,612
       Obligated Balance not yet Disbursed               55,781             63,830
       Total                                        $ 1,285,165        $ 4,058,202

Trust Funds – The FCC maintains one Gift and Bequest fund, established in FY 2001. The funds
were given to perform a study on noise and interference affecting the performance of existing
and proposed communication systems. All remaining funds were used during FY 2002.

Revolving Funds – The credit reform financing account is considered to be a revolving fund by
the U.S. Treasury. This is the only revolving fund maintained by the FCC. This fund records
cash flows associated with the FCC’s Auction Spectrum Loan program.

Appropriated Funds - These funds consist of salaries and expense appropriation accounts used to
fund agency operations and capital expenditures, no-year accounts used to carryover spectrum
auction and regulatory fee funds not obligated in the year received, and the credit reform
program account.

Deposit Funds - These funds are maintained to account for receipts awaiting proper classification
or receipts being held in escrow until proper distribution can be made. There are three deposit
accounts used by FCC to hold spectrum auction receipts, international telecommunications
settlements, and regulatory fee monies. Deposit funds are not available for use by the FCC
unless they are properly identified or reclassified as FCC funds, otherwise, these funds will be
returned to the depositor or transferred to the Treasury.




                                               74
                        FEDERAL COMMUNICATIONS COMMISSION
                         NOTES TO THE FINANCIAL STATEMENTS
                                  September 30, 2002 and 2001
                           (dollars in thousands unless otherwise stated)

Note 4 – Cash and Other Monetary Assets:

The following summarizes Cash and Other Monetary Assets as of September 30, 2002 and 2001:

                                              2002                       2001

Cash                                      $ 2,344,941              $ 1,602,254
Accrued Interest                                3,057                    4,344
Total                                     $ 2,347,998              $ 1,606,598

In FY 2002, Cash and Other Monetary Assets include $35,402 in upfront deposits and related
accrued interest being held for various Spectrum Auctions. There is also $2,300,949 in
Universal Service contributions and related accrued interest being held for distribution and
$11,647 in NANP deposits and related accrued interest.

In FY 2001, Cash and Other Monetary Assets includes $7,524 in upfront deposits and related
accrued interest being held for various Auctions and $65 in cash held in the Imprest Fund. There
was also $1,599,009 in Universal Service contributions and related accrued interest being held
for distribution. NANP was not consolidated in the FY 2001 balance.

Accrued interest is composed of interest income earned by The FCC, Universal Service and
NANP, but not received on demand deposits as of September 30.

Note 5 - Investments:

The following summarizes Investments as of September 30, 2002 and 2001:


                                                      Unamortized             Market
                                          Amortization (Premium) Investments, Value
FY 2002                               Cost Method       Discount    Net      Disclosure
   Intragovernmental
        Marketable Securities   $        -    EI        $      -     $          -   $           -

   Other Securites:
       Marketable Securities        326,701   EI            812          327,513        327,111
       Repurchase Agreements              -   NA              -                -               -
   Total Other Securities           326,701                 812          327,513        327,111
   Accrued Interest                   1,493   NA               -                -         1,493

    Total                       $ 328,194                                           $ 328,604




                                                     75
                         FEDERAL COMMUNICATIONS COMMISSION
                          NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2002 and 2001
                            (dollars in thousands unless otherwise stated)

Note 5 - Investments: (continued)
                                                        Unamortized            Market
                                           Amortization (Premium) Investments, Value
FY 2001                                Cost Method       Discount    Net      Disclosure
   Intragovernmental
        Marketable Securities    $         -   SL          $       -   $           -       $        -

   Other Securities:
       Marketable Securities         620,056   SL              3,669       623,725             611,648
       Repurchase Agreements          32,515   NA                  -        32,515              32,515
   Total Other Securities            652,571                   3,669       656,240             644,163
   Accrued Interest                    3,545   NA                  -              -              3,545

    Total                        $ 656,116                                                 $ 647,708


EI – Effective Interest Method
SL – Straight Line Method
NA – Not Applicable

Investment balances represent USF funds that have been invested in low risk marketable
securities. All investments are considered to be short term with maturity dates greater than three
months but generally not exceeding one year. All investments are held to maturity therefore no
adjustments have been made to present market values.

Note 6 - Accounts Receivable, Net:

The following summarizes Accounts Receivable as of September 30, 2002 and 2001:

                                                    2002                    2001
Intra-governmental
 Gross Accounts Receivable                     $      3,041            $               -
 Allowance for Doubtful Accounts               (          -)           (               -)

Net Accounts Receivable                        $      3,041            $               -

With the Public
 Gross Accounts Receivable                     $ 740,279               $ 880,679
 Allowance for Doubtful Accounts               ( 224,920)              ( 107,601)
Net Accounts Receivable                        $ 515,359               $ 773,078

Accounts receivable are recorded net of any related allowance for doubtful accounts. The FCC’s
portion is determined by applying predetermined percentages against the respective year the
receivable was established. The current formula for FCC accounts receivables is 25% for those
91 -180 days, 75% for those 181-365 days, and 100% for anything greater than 365 days


                                                      76
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 6 - Accounts Receivable, Net: (continued)

outstanding. All Notice of Apparent Liabilities (NAL) are reserved 100% since the FCC does
not have the authority to bill these entities. An additional analysis of higher dollar value
receivables is also performed on individual account balances. The USF portion is determined by
calculating an estimated general allowance for doubtful accounts receivable, and reserving 100%
for known bankruptcy and inactive accounts. The general allowance is calculated by multiplying
the aged billing amounts by the percentage of the monthly delinquent accounts receivable over
the monthly billing amounts.

FY 2002 accounts receivable balances by type include $656,189 due from Universal Service
contributors. The related allowance for Universal Service receivables is $162,000. NANP
accounts for an additional $962 with a related allowance of $137. Another $19,987 is specific to
47 U.S.C., Section 9 regulatory fees with a related allowance of $9,134. Spectrum auction
receivables total $7,097 with a related allowance of $5,567. Fines and forfeitures receivables are
another $47,342 with a related allowance of $46,723. Other accounts receivable total $11,743
with a related allowance of $1,359.

FY 2001 accounts receivable balances by type include $632,622 due from Universal Service
contributors. The related allowance for Universal Service receivables was $83,381. Another
$18,494 was specific to 47 U.S.C., Section 9 regulatory fees as of September 30, 2001 with a
related allowance of $2,902. Spectrum auction receivables totaled $199,317 with a related
allowance of $5,031 established for the full amount of one receivable that has been sent to the
Department of Justice for settlement. Fines and forfeitures receivables were another $24,179
with a related $16,155 allowance for doubtful accounts. Other accounts receivable total $6,067
with a related allowance of $132.

Note 7 - Direct Loans, Non-Federal Borrowers:

Under Section 309(j)(3) of the Communications Act of 1934, as amended, Congress directed the
FCC to implement a competitive bidding (auctions) system for licensing spectrum, in order to
expand economic opportunity, promote competition, and facilitate the development and delivery
of new and improved telecommunications services to the public. Section 309(j)(4) gave the
Commission certain instructions for implementing regulations for this system, including a
directive to ensure that small businesses, rural telephone companies, and women and minority-
owned businesses were provided with an opportunity to participate in the provision of spectrum-
based services. By statute, the FCC can use various means to facilitate expanded participation,
including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the FCC provided installment financing in connection with its Spectrum
Auction events, including the C Block Broadband Personal Communications Services' (PCS), F
Block PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multipoint Distribution
Service
                                               77
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 7 - Direct Loans, Non-Federal Borrowers: (continued)

(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten-year periods to repay their net winning bid amount
(less the down payment amount), with up to five-year, interest-only, initial payment periods. Interest
rates varied by the type of borrower. Retention of licenses granted at auction was strictly conditioned
on making full and timely payment of amounts as they become due. The return or repossession of
auctioned licenses, which may have previously been associated with installment payment plans, does
not directly or immediately affect the amount of the outstanding debt recorded in the agency’s
financial records. Outstanding debt adjustments are subject to the completion of a separate process.

The FCC’s first auction was conducted in 1994, and starting in 1995, installment payment
mechanisms were used to finance portions of some of the winning bid amounts. Except for the
Pioneer Broadband PCS, which was paid off in FY 2001, all of FCC’s loan portfolio is
accounted for in accordance with the FCRA of 1990. As of FY 2002, the FCC’s installment loan
portfolio is tracked under ten cohorts. The loans receivable balance and value of the assets
related to the direct loans are not the same as the proceeds FCC would expect to receive from
selling their loans.

In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 2,
Accounting for Direct Loans and Loan Guarantees, Federal agencies are required to reestimate
the subsidy estimates and re-estimates annually as of the date of the financial statements. Any
increase or decrease in the subsidy cost allowance resulting from the reestimates is recognized as
a change in the subsidy expense.

The most recent subsidy reestimate was completed in December 2002 for performance data
through September 30, 2002. The result of this reestimate was a net upward adjustment of
$346,421 that is reported in the FY 2002 financial statements.

As required under the FCRA of 1990, as amended, the FCC coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria to be used in calculating the
subsidy estimates and re-estimates. This joint effort is undertaken to facilitate the development
and improvement of cost and recovery rate estimates. Therefore, the subsidy cost allowance has
been prepared under specific guidance provided by the OMB in an effort to ensure that the
objectives of the Federal government, taken as a whole, are being achieved and may not
represent the FCC’s current policy position on the auction of spectrum held previously by other
parties.

In FY 2002, at the request of OMB, the FCC changed the discount rates it used to calculate
subsidy reestimates. In prior years, the discount rate for each cohort was set based on the
weighted average of comparable Treasury rate at the time of loan disbursement, or the grant date.
 OMB asked the FCC to switch to the simpler actual annual average discount rate approach for
the most recent reestimate. This approach is most commonly used by other Federal credit
agencies, and allows the FCC to make better use of the tools created by OMB for

                                                  78
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 7 - Direct Loans, Non-Federal Borrowers: (continued)

credit agencies. Application of the weighted average discount rates to the most recent subsidy
reestimate would have resulted in additional net subsidy cost of $56,328.

Loans Receivable - Loans receivable for post-1995 Spectrum Auctions are recorded at the
principal outstanding, net of allowance for subsidy. Allowance for subsidy costs represent the
difference between the present values of estimated net cash inflows and outflows of the
Spectrum Auction loans. The allowance for subsidy cost is amortized using the effective interest
method based on the U.S. Treasury’s interest rate for the year that the loans were disbursed. The
allowance for subsidy also provides for write-offs on defaults and other costs that may affect
cash flows.

Accrued Interest – FCC accrues interest on loans as it is earned. Current FCC policy
automatically grants Spectrum Auction loans two sequential three-month grace periods for
which borrowers are charged late fees. In accordance with the FCC rules, at the end of the six-
month total grace period, loans are considered to be in default and the license is automatically
cancelled. For financial reporting purposes, it is the FCC’s policy to discontinue accruing
interest on loans that are beyond the six-month grace period, since these loans are considered
non-performing. Therefore, it is the FCC’s policy to accrue and record interest only on the
performing loans for financial reporting purposes.

Direct Loans Obligated After FY 1991

                      Loans                                           Allowance for Value of
                      Receivable,    Interest         Other           Subsidy Cost    Assets Related
Loan Program          Gross          Receivable       Receivables     (Present Value) to Direct Loans
Spectrum Auctions:
   FY 2002 Bal.       $ 5,293,072    $ 292,747        $       2,506   $ (329,067)    $ 5,259,258

   FY 2001 Bal.       $ 5,593,132    $ 291,656        $       2,935   $   84,773     $ 5,972,496

Total Amount of Direct Loans Disbursed (Post 1991)

Loan Program               FY 2002                FY 2001

Spectrum Auctions     $      1,369          $             -




                                                 79
                    FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2002 and 2001
                       (dollars in thousands unless otherwise stated)

Note 7 - Direct Loans, Non-Federal Borrowers: (continued)

Subsidy Expense for Direct Loans by Program and Component

1. Subsidy Expense for New Direct Loans Disbursed:

                     Interest
   Loan Program      Differential   Defaults             Fees          Other            Total
   FY 2002           $    (129)     $   339              $ -           $   -           $ 210

   FY 2001           $      -       $       -            $   -         $       -       $      -

2. Direct Loan Modifications and Reestimates:
                                       Interest Rate             Technical         Total
   Loan Program      Modifications     Reestimates               Reestimates       Reestimates
   Spectrum Auctions

   FY 2002 (Net)     $          -       $            -           $   346,421       $       346,421

   FY 2001 (Net)     $          -       $            -           $ 2,668,531       $ 2,668,531

3. Total Direct Loan Subsidy Expense:

   FY 2002           $ 346,631

   FY 2001           $ 2,668,531


Subsidy Rates for Direct Loans by Program and Component

                      Interest
 Loan Program        Differential   Defaults             Fees          Other           Total
 FY 2002                (9.40)%     24.77%                  0%            0%           15.37%
 FY 2001                    0%          0%                  0%            0%             0%




                                                80
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 7 - Direct Loans, Non-Federal Borrowers: (continued)

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                            2002              2001
Beginning Balance of the Subsidy Cost Allowance         $ ( 84,773)     $ ( 982,418)

Subsidy expense for direct loans disbursed:
During the reporting years by component:
       Interest rate differential costs                         (129)              -
       Default costs (net of recoveries)                         339               -
       Fees and other collections                                  -               -
       Other subsidy costs                                          -              -

Adjustments:
      Loan modifications                                          -                -
      Fees received                                       258,163                  -
      Loans written off                                           -      (2,352,755)
      Subsidy allowance amortization                     (191,170)          591,430
      Other                                                    216            (9,561)
Ending balance before reestimates                          (17,354)      (2,753,304)

Subsidy reestimates:
       Interest rate reestimate                                  -                  -
       Technical/default reestimate                        346,421          2,668,531

Ending balance of the subsidy cost allowance            $ 329,067       $    (84,773)

Administrative Expense

   Spectrum Auctions Total FY 2002                  $   9,770

   Spectrum Auctions Total FY 2001                  $   6,700

Note 8 – Seized and Forfeited Property:

Consistent with OMB Form and Content, seized and forfeited property that cannot be sold due to
legal restrictions, but may be either donated or destroyed, is not recognized for financial
purposes. However, the number and value of seized and forfeited property is reported below in
accordance with OMB Form and Content. The property database accounts for this property
using the lot number assigned to it.




                                               81
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 8 – Seized and Forfeited Property: (continued)

Seized Property

FCC seizes property from illegally operated radio and other communication operations. The
property is held pending the outcome of court proceedings. The property is comprised of
prohibited property, radio frequency, audio equipment, and other communications equipment.

FY 2002
                                     No. of          Dollar
Seized                                Lots           Value
Beginning Balance                     18            $ 37
Seized                                11               33
Forfeited                              (5)            (17)
Ending Balance                        24               53

FY 2001
                                     No. of          Dollar
Seized                                Lots           Value
Beginning Balance                     26            $ 55
Seized                                10               15
Forfeited                            (18)             (33)
Ending Balance                        18               37

Forfeited Property

Forfeited property consists of seized property legally turned over to the FCC. The FCC does not
resell the items. Forfeited items are either disposed of through the GSA surplus process or
destroyed. The property is comprised of prohibited property, radio frequency, audio equipment,
and other communications equipment.


FY 2002
                                      No. of         Dollar
Forfeited                              Lots          Value
Beginning Balance                       18           $ 19
Forfeited                                5              17
Disposed                               (16)           (30)
Ending Balance                            7              6




                                               82
                    FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2002 and 2001
                       (dollars in thousands unless otherwise stated)

Note 8 - Seized and Forfeited Property: (continued)

FY 2001
                                     No. of           Dollar
Forfeited                             Lots            Value
Beginning Balance                      53             $ 61
Forfeited                              18                33
Disposed                              (53)             ( 75)
Ending Balance                         18                19

Note 9 - General Property, Plant and Equipment, Net:

The following summarizes General Property, Plant and Equipment (PP&E) as of September 30,
2002 and 2001:

FY 2002             Acquisition          Accumulated            Net Book            Service
Classes of PP&E       Cost               Depreciation            Value            Life in Years
Land                $   1,304            $         -           $     1,304        N/A
Buildings               4,091                 3,867                    224        40
Furniture              19,158                10,491                  8,667        7
Equipment               9,795                 6,375                  3,420        7
Computer Equip.        18,019                 9,484                  8,535        5
Bulk Purchases          4,409                 3,548                    861        5-7
Vehicle Systems         2,913                 2,287                    626        5
Broadcast Station,
Equipment               4,096                       4,077               19        7
Patent                     800                        255              545        17
ADP Software           18,557                      15,293            3,264        3
Software In Process    14,348                           -           14,348        N/A

Total               $    97,490          $         55,677      $    41,813




                                              83
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 9 - General Property, Plant and Equipment, Net: (continued)

FY 2001             Acquisition              Accumulated            Net Book                   Service
Classes of PP&E       Cost                   Depreciation            Value                   Life in Years
Land                $    1,304               $         -           $     1,304               N/A
Buildings                4,091                     3,858                   233               40
Furniture               19,158                     7,755                11,403               7
Equipment                7,891                     5,497                 2,394               7
Computer Equip.         14,214                     8,583                 5,631               5
Bulk Purchases           4,409                     2,753                 1,656               5-7
Vehicle Systems          2,913                     1,901                 1,012               5
Broadcast Station
Equipment                4,096                         4,036                    60           7
Patent                     800                           208                   592           17
ADP Software            16,037                        11,807                 4,230           3
Software In Process      6,803                             -                 6,803           N/A

Total                  $    81,716           $        46,398       $     35,318

Internally developed software includes the direct costs incurred during the software development
stage. All assets classes are depreciated on a straight-line basis.

Note 10 - Liabilities Not Covered by Budgetary Resources:

                                                                    2002                  2001
        Intragovernmental:
             Other:
               FECA Liability                                  $       438            $      313

        Other:
             Unfunded Leave                                         14,612                 13,357
        Total liabilities not covered by budgetary resources        15,050                 13,670
        Total liabilities covered by budgetary resources         7,638,637             10,822,768
        Total Liabilities                                      $ 7,653,687           $ 10,836,438


The Federal Employees Compensation Act (FECA) liability represents the amount of bills
received by the Department of Labor for worker’s compensation. These bills are received one
year in advance of when they are due and are not funded until the subsequent Fiscal Year.

Unfunded Leave is funded at the time when it is taken, and is therefore not funded with current
year budgetary resources, but with future resources.



                                                 84
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 11 - Debt:


                                2001                           2001                     2002
                              Beginning       Net             Ending        Net        Ending
                               Balance      Borrowing         Balance     Borrowing    Balance

Agency Debt:
   Intragovernmental          $         -   $          -      $         - $        - $       -
   Held by the Public             125,274              -          125,274   (10,849)   114,425
   Total Agency Debt              125,274              -          125,274   (10,849)   114,425

Other Debt:
    Debt to the Treasury      5,307,271         802,333    6,109,604       (338,689)   5,770,915
    Held by the Public                -               -             -             -             -
    Total Agency Debt         5,307,271         802,333    6,109,604       (338,689)   5,770,915

Total Debt                    5,432,545         802,333    6,234,878       (349,538)   5,885,340


Classification of Debt:
                                                     2002                   2001
    Debt to the Treasury                        $ 5,770,915             $ 6,109,604
    Debt held by the Public                         114,425                 125,274
               Total Debt                       $ 5,885,340             $ 6,234,878

Agency debt is comprised of a liability of $114,425 resulting from litigation against the FCC.
The liability consists of a voucher that can be used as credit for payment against winning bid
amounts in future auctions. The voucher is scheduled to expire in FY 2003. The FCC also
borrows from the U.S. Treasury for costs associated with its Spectrum Auction Loan Program.
Borrowings are determined upon calculation of the subsidy estimates and reestimates in
accordance with the FCRA of 1990, as amended. The borrowings pertain to all loan cohorts.




                                                  85
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 12 - Other Liabilities:

The following summarizes Other Liabilities as of September 30, 2002 and 2001:

                                                              2002            2001
                                                             Current         Current
Intra-governmental
    Custodial Liability                                 $ 691,662         $ 848,619
    Other:
        Accrued Payroll                                          656          1,919
        FECA Liability                                            438           313
        Other Liability                                           (20)          741
        Total Other                                             1,074         2,973
Total Intragovernmental                                  $    692,736     $ 851,592

Deferred Revenue                                        $     551,450     $ 3,304,671
Other:
       Accrued Payroll                                       4,223              9,047
       Unfunded Leave                                       14,612             13,357
       Deposit/Unapplied Liability                          19,987             20,784
       Prepaid Contributions                                64,870             36,116
       Other                                                10,298             15,696
Total Other                                                113,990             95,000
Total Other Public                                       $ 665,440        $ 3,399,671


The Custodial Liability includes both cash collected and receivables being held for transfer to
the U.S. Treasury General Fund. The FCC collects the following types of custodial revenue:
spectrum auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS
processing fees, and interest revenue on auction deposits (held for TDF).

Deposit/Unapplied Liabilities represent either upfront deposits made by auction bidders, or funds
received that are being held until proper application is determined.

Prepaid Contributions includes USF contributions paid in advance that will be drawn down
during the course of the year and contribution overpayments that may be refunded.




                                               86
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 13 - Leases:

Operating Leases

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal
Agency, the FCC is not liable for any lease terms beyond one year. The FCC anticipates that
space levels consistent with FY 2002 will be required for the next five years and has estimated
space and copier payments consistent with that need in the schedule below. No estimates
beyond five years have been provided because of the cancelable nature of the agreements.

Future lease obligations under operating leases are as follows:

   Fiscal Year                      Bldg                   Copier                   Total

       2003                       $ 36,404                $ 1,154                 $ 37,558
       2004                         36,630                  1,154                   37,784
       2005                         36,867                  1,171                   38,038
       2006                         37,101                  1,171                   38,272
       2007                         37,232                  1,171                   38,403
Total Future Lease Payments      $ 184,234                $ 5,821                 $190,055


Note 14 - Commitments and Contingencies:

A contingency is an existing condition, situation, or set of circumstances involving uncertainty
regarding possible gain or loss to FCC. The uncertainty will ultimately be resolved when one or
more future events occur or fail to occur. With the exception of pending, threatened, or potential
litigation, a contingent liability is recognized when a past transaction or event has occurred, a
future outflow or other sacrifice of resources is more likely than not, and the related future
outflow or sacrifice is measurable. For pending, threatened, or potential litigation, a liability is
recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
resources is likely, and the related future outflow or sacrifice of resources is measurable.

The FCC is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, several bankruptcy proceedings are ongoing related to the loan
portfolio. See Note 7 for more information related to the loans. In the opinion of FCC
management, the ultimate resolution of proceedings, actions and claims, outside of the loans,
will not materially affect the financial position or results of operations of FCC.




                                                87
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 14 - Commitments and Contingencies: (continued)

The FCC, USAC, and the Department of Justice are investigating a number of cases related to
disbursements of funds from the schools and libraries program, which might result in future
proceedings or actions. The number of cases under investigation has increased from FY 2001 to
FY 2002, but the complexity of these actions continue to preclude management from estimating
the total amount of recovery that may result from these actions.

During FY 2001, the Fund recovered $1.6 million as a result of these investigations. During FY
2002, the Fund received no recoveries. These matters include an investigation of certain
contracting provisions of one of the largest service suppliers, who has recently acquired a portion
of a major accounting firm which provides significant accounting support to the Fund.

The FCC has examined its obligations related to canceled FY 1997 authority and believes that it
has no outstanding commitments that will require future resources.

Note 15 - Exchange Revenues:

Section 9(a) of the Communications Act of 1934, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by
Congress, that it incurs in carrying out competition, enforcement, consumer information, and
spectrum management activities. OMB Circular No. A-25 revised, User Charges, requires an
agency to assess a user charge against each identifiable recipient for special benefits derived
from Federal activities beyond those received by the general public. The Circular also requires
that user fees be established to recover the full cost to the Federal government of providing the
service when the Government is not acting in its capacity as a sovereign entity. Where a statute
prohibits certain aspects of the user fee, the statute shall take precedence over the requirements
of OMB Circular A-25. These fees were established by Congressional authority, and, consistent
with OMB Circular A-25, the FCC did not determine the full costs associated with its regulatory
activity in the establishment of regulatory fees.

Note 16 - Gross Costs and Earned Revenue by Budget Functional Classification:

The tables below represent the costs and revenues of the FCC by budget functional classification
for FY 2002 and FY 2001.

Budget
Functional
Classification       Gross Cost       Earned Revenue        Net Cost

2002
376                $ 6,571,821        $    (737,614)      $ 5,823,359
959                        262              (32,396)          (21,286)
Total              $ 6,572,083        $    (770,010)      $ 5,802,073
                                                88
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 16 - Gross Costs and Earned Revenue by Budget Functional Classification:
(continued)

Budget
Functional
Classification        Gross Cost       Earned Revenue       Net Cost

2001
376               $ 14,463,326         $ (5,887,946)    $ 8,575,380
959                     19,852              (43,906)        (24,054)
Total             $ 14,483,178         $ (5,931,852)    $ 8,551,326


Intragovernmental:

Budget
Functional
Classification        Gross Cost   Earned Revenue           Net Cost

2002
376               $     500,162    $      389,065       $   889,227
959                           -           201,716           201,716
Total             $     500,162    $      590,781       $ 1,090,943

2001
376               $ 1,292,464      $     (844,722)      $   447,742
959                         -           1,637,433         1,637,433
Total             $ 1,292,464      $      792,711       $ 2,085,175

   Code 376 – Other advancement of commerce
   Code 959 – Other undistributed offsetting receipts




                                               89
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 17 - Prior Period Adjustments:

During FY 2002, prior period adjustments were made to the accounting records. These
adjustments were identified as part of a continuing effort to establish stronger review and control
procedures. The following schedule presents the adjustments by category for September 30,
2002:

                                                             FY 2002
Entries to recognize property and related
depreciation for items purchased in prior
years but not identified until the current year             $           859

FY 1997 Cancelled Authority Adjustments                               (2,591)

Recognition of PY Revenue                                               605

Conversion of Multi-Year Regulatory fees
to a deferred revenue basis vs year of receipt basis                (20,884)

Other                                                                   (62)

Total Prior Period Adjustments                              $       ( 22,073)

Note 18 - Apportionment Categories of Obligations Incurred:

The following summarizes Apportionment Categories of Obligations Incurred as of September
30, 2002:

                                          Budgetary         Non-Budgetary
Direct
     Category A                       $   476,192               $      420,777
     Category B                                 -                            -
     Exempt from Appropriation          5,210,436                            -
Total Direct                          $ 5,686,628               $      420,777

Reimbursable
     Category A                       $      1,372              $               -
     Category B                                   -                             -
     Exempt from Appropriation                   -                              -
Total Reimbursable                    $      1,372              $               -




                                                  90
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 19 - Available Borrowing/Contract Authority, End of Period:

FCC receives borrowing authority consistent with the Federal Credit Reform Act of 1990, as
amended. The borrowing is authorized through an indefinite permanent authority at interest
rates set each year by the Treasury. In addition, the FCC has permanent indefinite authority for
subsidizing the Spectrum Auction direct loan program.

With the exception of a monetary credit that resulted as a judgment against the FCC, all
borrowings are from the Bureau of Public Debt. In accordance with applicable standards, all
funds are borrowed at the beginning of the period. Therefore, the FCC does not carry over any
unused borrowing authority. Repayments of borrowings are made in accordance with the terms
of the Federal Credit Reform Act of 1990, as amended. Financing sources for repayment are
collections from borrowers or subsidy. The FCC had no available borrowing authority at
September 30, 2002.

Note 20 - Terms of Borrowing Authority Used:

The FCC has three types of Financing Sources. These are loan payments made by the Public,
interest from U.S. Treasury, and subsidy expense received from Treasury. The Federal Credit
Reform Act of 1990 stipulates that the rate used for subsidy calculations, borrowings, and
interest on uninvested funds must be for a maturity comparable to the maturity of the direct loans
being made to the Public. The majority of FCC’s direct loans have a maturity of ten years.

Note 21 – Adjustments to Beginning Balance of Budgetary Resources

The Unobligated Balance – Beginning of Period has been decreased by $343,627 and $56,981 to
recognize the impact of including Delivered Orders – Unpaid and Outstanding Checks in the
prior year. A corresponding increase of $343,627 has also been recognized for the Obligated
balance, net, Beginning of Period.

Note 22 – Permanent Indefinite Appropriations:

The FCC receives permanent indefinite appropriations authority as the funding source for its
credit reform program account. As required by the Federal Credit Reform Act of 1990, this
account records the subsidy costs associated with the direct loans obligated in 1992 and beyond
(including modifications of direct loans or loan guarantees that resulted from obligations or
commitments in any year), as well as administrative expenses of the loan program. The FCC
received $130,348 related to subsidy and $11,828 related to administrative expense. These
appropriations are available until used.




                                               91
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2002 and 2001
                         (dollars in thousands unless otherwise stated)

Note 23 – Legal Arrangements Affecting Use of Unobligated Balances:

Regulatory Fees received in excess of the legislative level contained in the FCC’s annual
appropriation language may be carried forward by the FCC for use in the next fiscal year, subject
to the notification of the Congressional appropriations subcommittees. All other no year
unobligated balances are available without restriction at the start of the next fiscal year following
apportionment by the Office of Management and Budget.

Note 24 - Explanation of Differences Between the Statement of Budgetary Resources and
the Budget of the U.S. Government:

SFFAS No. 7 calls for explanations of material differences between budgetary resources
available, status of those resources, and outlays as presented in the statement of budgetary
resources to the related actual balances published in the Budget of the United States Government.
However, the Budget of the United States Government with actual numbers for FY 2002 has not
been published. Pursuant to 31 USC 1105, the Budget of the United States Government will be
released the first Monday in February, and will be available at the following website:
http:/www.whitehouse.gov/omb.

Note 25 - Explanation of the Relationship Between Liabilities Not Covered by Budgetary
Resources on the Balance Sheet and the Change in Components Requiring or Generating
Resources in Future Periods:

There are two amounts shown in Note 10 as not covered by budgetary resources: FECA
Liability and Unfunded Leave. The changes in both of these balances between FY 2001 and FY
2002 are reflected as part of Components Requiring or Generating Resources in Future Periods
on the Statement of Financing. The change in unfunded leave of $1,255 is shown on the
Increase in Unfunded Leave Liability line on the statement of financing, and the change in
FECA Liability of $125 is included as part of the other line item.

Note 26 - Description of Transfers that Appear as a Reconciling Item on the Statement of
Financing:

The FCC collects applications fees to cover the cost of processing license applications. The FCC
reports the revenue associated with these fees as a revenue source on its Statement of Net Cost.
However, the fees are not retained by the FCC. To reflect the transfer of these fees back to the
Treasury, the FCC recognizes a transfer out on the Statement of Changes in Net Position. The
amount of $21,284 on the Statement of Financing is the total transferred for application fees.




                                                 92
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 27 - Nonexchange Revenue:

The FCC records all nonexchange revenue recognized on the Statement of Custodial Activity
using the accrual basis of accounting. Pursuant to direction provided in SFFAS No. 7, the FCC
records Auctions exchange revenue on the Statement of Custodial Activity as well. All
receivables recognized as custodial revenues are subjected to the same allowance for loss
calculations as other FCC receivables with the exception of Notices of Apparent Liability which
are reserved at 100%.

Note 28 - Dedicated Collections:

U.S. telecommunication companies are obligated to pay assessments for Universal Service
support and for Telecommunications Relay Service, which are established by the FCC. These
assessments are accounted for in the Budget of the U.S. Government as the “Universal Service
Fund.” As defined by the SFFAS No. 7, such monies are not considered exchange revenues
because neither the FCC nor the USF Program sacrificed value or received value in return for the
collection and disbursement of the contributed funds (e.g., provided goods or services for a
price).

The FCC currently recognizes the assessments collected under the USF Program as nonexchange
revenue on its Statement of Changes in Net Position, and the related disbursements as program
expenses on the Statement of Net Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with
managing the USF Program. See Required Supplementary Information for complete disclosure
of all activity related to the USF Program.

                                                FY 2002                  FY 2001
Assets

Cash and Other
Monetary Asset (Note 4)                     $ 2,300,949                  $ 1,599,009
Investments (Note 5)                            328,194                      656,116
Accounts Receivable, net (Note 6)               494,189                      549,241

Liabilities

Accounts Payable                            $        397,180             $    343,627
Other Liabilities                                     64,561                   36,116

Net Position                                     2,661,591                   2,424,623




                                                93
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 28 - Dedicated Collections: (continued)

                                                 FY 2002                    FY 2001
Nonexchange Revenue
 Contributions                               $    5,466,034                 $ 5,263,872
 Interest                                            52,538                      88,868


Expenses
 Provider Related                            $    5,238,739                 $ 4,940,907
 Administrative Costs                                42,865                      40,060

The administrative costs are expenses related to managing and overseeing the USF Program. The
USF Program is charged administrative expenses by the USAC and the NECA for expenses such
as salaries and benefits of the employees dedicated to managing the universal service support
mechanisms and the telecommunications relay services mechanism, rent and utilities for office
space used, providing accounting and other financial reporting related services, and other
miscellaneous activities.

Note 29 – Comparability of the Statements:

Two reporting changes were made during FY 2002 that impacted the comparability of the FY
2002 statements with FY 2001. The FY 2001 balances have not been restated for these changes
however, the impact of the changes on FY 2001 is disclosed below:

Inclusion of NANP entity in FCC financial Statement - Management determined that the
inclusion of the NANP program administered by the NANPA provides a more complete
presentation of FCC financial balances (See Note 1). To establish opening entity balances, the
beginning net position has been adjusted by $10,781 in the current fiscal year.

Credit Reform Interest - Based on new guidance from Treasury-FMS, the FCC reported the
amount collected in the Treasury interest receipt account as a custodial collection and transfer to
Treasury (See Note 1). If the same guidance were in effect for FY 2001, the FCC would have
recognized credit reform interest and additional transfers to the U.S. Treasury of $1,214,175.

Note 30 – Reclassifications:

The FCC has adopted OMB Form and Content of Agency Financial Statements effective
October 1, 2001. Accordingly, certain amounts for FY 2001 were reclassified to conform with
this bulletin.




                                                 94
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2002 and 2001
                        (dollars in thousands unless otherwise stated)

Note 31 – Subsequent Events:

On January 27, 2003, the Supreme Court of the United States made a favorable ruling for
NextWave Personal Communications, Inc. (Nextwave) on the FCC’s case against NextWave. At
issue was the ownership of licenses for spectrum for which NextWave was the winning bidder in
FCC spectrum auctions held in 1996 and 1997 (Auctions 5, 10 and 11). At the time of original
auctions, the value of the spectrum licenses sold was approximately $4.7 billion. Sometime after
obtaining the licenses, NextWave declared bankruptcy, and in the course of the bankruptcy
proceeding, NextWave failed to make the required installment payments due under the FCC’s
installment payment plan authorized by the Commission’s rules. Under the Commission’s rules,
NextWave’s payment default resulted in automatic cancellation of its licenses and the FCC took
the licenses back for re-auction.

In FY 2001, the FCC auction (Auction 35) of licenses of spectrum associated with previously
auctioned spectrum licenses resulted in approximately $16 billion in winning bids. While the
revenue from Auction 35 was not recognized as spectrum auction revenue due to its pending
status, the winning bids represented recovery on a significant portion of the previously auctioned
spectrum licenses for the purpose of subsidy cost estimation as required by the FCRA of 1990.

In response to a request from the winning bidders of spectrum re-auctioned as discussed above,
the Commission issued an order on March 26, 2002, to return $2.8 billion, or 85% of
approximately $3.3 billion in down payments relating to Auction 35, retaining amounts equal to
3% of each winning bid, the minimum bidder default payment under the Commission’s rules.
As a result of further requests from the winning bidders, the Commission issued an order on
November 14, 2002, to grant relief to the eligible winning bidders in Auction 35. Most of those
requests have been processed as of December 31, 2002.

The recovery and timing of recovery on loans in default are key factors in the FCC’s calculation
of its annual credit reform subsidy. For the FCC’s FY 2003 credit subsidy re-estimate, which is
reflected in the FY 2002 financial statements, the FCC assumed a 100% recovery rate for the
NextWave licenses with receipt in the first quarter of FY 2005. The Supreme Court decision
addresses ownership of the licenses, not the amount of the payments owed by NextWave as a
result of its winning bids for the licenses. Any dispute regarding the amounts owed by
NextWave for the licenses, and the timing of future recoveries has not changed as a result of the
Supreme Court ruling. These issues will be resolved in bankruptcy court. As a result, the FCC
has not made additional changes to these financial statements for this event.

FCC does not believe that an adjustment is necessary on the Federal credit reform subsidy
calculation for this significant event because the timing of the recovery assumptions made and
the recovery assumption of 100 percent recovery are still appropriate. In addition, FCC is not
able to determine any potential contingent liability impact of this ruling on other licenses that
were cancelled and re-auctioned in the past. Therefore, no adjustment was made to the
September 30, 2002, financial statements for the effects of this subsequent event.


                                               95
               Federal Communications Commission
           Fiscal Year 2002 Annual Financial Report




   REQUIRED
SUPPLEMENTARY
 INFORMATION




      96
                                           FEDERAL COMMUNICATIONS COMMISSION
                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                         September 30, 2002
                                          (Dollars in thousands unless otherwise stated)




                                                     Intra-Governmental Assets




Partner                                              Fund                  Accounts               Loans
Code    Trading Partner                             Balance                Receivable           Receivable        Investments         Other            Total

17      Department of Navy                                         -               2,273                      -               -               -   $      2,273

97      Department of Defense                                      -                 768                      -               -               -            768

20      Department of Treasury                         1,285,165                        -                     -               -               -       1,285,165

99      General Fund/Other                                     -                        -                     -           -                   -             -

        Total                                   $      1,285,165                   3,041    $                 -   $           -   $           -   $ 1,288,206




                                                    Intra-Governmental Liabilities




                                                                         Borrowings
Partner                                             Accounts                From                  Other
Code    Trading Partner                              Payable           Treasury (BPD)           Liabilities           Total

        Funded

20      Department of Treasury                  $                  -   $      5,770,915     $                 -   $ 5,770,915

16      Department of Labor
             Workman's Compensation                            -                        -                438              438
        Total Department of Labor                              -                        -                438              438

24      Office of Personnel Management
               Health                                          -                        -                174              174
               Life                                            -                        -                  7                7
               Retirement                                      -                        -                376              376
        Total Office of Personnel Management                   -                        -                557              557

        Accrued Liabilities
4       Government Printing Office                             -                        -                  -              -
13      Department of Commerce                                 -                        -                  -              -
14      Department of Interior                                 -                        -                (20)             (20)
19      Department of State & ICASS                            -                        -                  -              -
21      Department of Army                                     -                        -                  -              -
24      Office of Personal Management                          -                        -                  -              -
47      General Services Administration                        -                        -                  -              -
        Total Accrued Liabilities                                  -                    -                (20)             (20)

20      Department of Treasury                                     -                    -                     -               -

99      General Fund/Other                                         -                    -           691,761           691,761

        Total                                   $                  -   $      5,770,915     $       692,736       $ 6,463,651




                                                                              97
                                          FEDERAL COMMUNICATIONS COMMISSION
                                          REQUIRED SUPPLEMENTARY INFORMATION
                                                        September 30, 2002
                                         (Dollars in thousands unless otherwise stated)


                                     Intragovernmental Earned Revenues and Related Costs


Partner
Code Trading Partner                                         Earned Revenue                    Expenses

03    Library of Congress                                    $               -             $              19

04    Government Printing Office                                             -                       1,323

12    Department of Agriculture & NFC                                        -                        245

13    Department of Commerce                                                 -                            89

14    Department of Interior                                                 -                        806

15    Department Of Justice                                               150                             39

16    Department of Labor
           Workman's Compensation                                                                     215
            Other                                                                                     998

17    Department of Navy                                                                                  78

18    United States Postal Service                                           -                        621

19    U. S. Department of State                                                                            6

20    Department of Treasury
            Bureau of Public Debt                                       26,000                     416,251
            Financial Mang. Svc.                                           195                           -
            Imputed Costs                                                    -                           -
            Other                                                            -                          61

21    Department of Army                                                     -                             -

24    Office of Personnel Management
             Health                                                          -                       7,225
             Life                                                            -                         263
             Retirement                                                      -                      15,760
             Other                                                           -                         803
             Imputed Costs                                                   -                      11,024

45    Equal Employment Opportunity                                                                        10

47    General Services Administration                                        -                      36,133

58    Federal Emergency Management Agency                                    -                            50

69    Dept. of Transportation - USCG                                      150                              -

72    Agency for International Aid                                        101                              -

75    Federal Occupation and Health                                          -                            51

95    Board for International Broadcasting                                120                              -

97    Department of Defense                                               470                             26

99    General Fund/Other                                                     -                       8,066

      Total                                                  $          27,186             $       500,162




                                                                            98
                        Federal Communications Commission
                        Required Supplementary Information
                            September 30, 2002 and 2001



DEFERRED MAINTENANCE

To determine the estimated cost of deferred maintenance in fiscal year 2000, FCC
contracted with professional building inspectors to inspect its real property holdings
including buildings and structures. The inspection reports were, in most cases,
comprehensive reviews of the buildings and ground conditions and included all items that
required attention, whether critical to the functionality of the building or more of a
cosmetic nature. In assessing deferred maintenance in fiscal year 2002, FCC reviewed
the prior year report and updated it for items completed and newly identified projects.
The estimated deferred maintenance for FY 2002 and FY 2001 are $1.5 million and $1.6
million, respectively.




                                         99
                                                                Federal Communications Commission
                                                                    Consolidating Balance Sheet
                                                                      As of September 30, 2002
                                                                              (dollars in thousands)




ASSETS                                                                        FCC                         USF                  NANP                Consolidated
  Intragovernmental
    Fund Balance with Treasury (Note 3)                              $           1,285,165        $                 -      $          -        $        1,285,165
    Accounts Receivable (Note 6)                                     $               3,041                          -                 -        $            3,041
  Total Intragovernmental                                                        1,288,206                          -                 -                 1,288,206

  Cash and Other Monetary Assets (Note 4)                                           35,402                    2,300,949           11,647                2,347,998
  Investments (Note 5)                                                                 -                        328,194              -                    328,194
  Accounts Receivable, net (Note 6)                                                 20,345                      494,189              825                  515,359
  Loans Receivable, net (Note 7)                                                 5,259,258                          -                -                  5,259,258
  General Property, Plant, and Equipment, net (Note 9)                              41,813                          -                -                     41,813
   Other                                                                                 2                          -                -                          2

Total Assets                                                                     6,645,026                    3,123,332           12,472                9,780,830

LIABILITIES
  Intragovernmental
    Debt (Note 11)                                                   $           5,770,915        $                 -      $          -        $        5,770,915
    Other (Note 12)
      Custodial                                                                     691,662                         -                 -                  691,662
      Other                                                                           1,074                         -                 -                    1,074
    Total Other                                                                     692,736                         -                 -                  692,736

  Total Intragovernmental                                                        6,463,651                          -                 -                 6,463,651

  Accounts Payable                                                                   12,935                     397,180                   56             410,171
  Debt Held by the Public (Note 11)                                                 114,425                         -                 -                  114,425
  Other (Note 12)
   Deferred Revenue                                                                 551,450                         -                 -                  551,450
   Other                                                                             49,119                      64,561               310                113,990
  Total Other                                                                       600,569                      64,561               310                665,440

Total Liabilities                                                    $           7,191,580        $             461,741    $          366      $        7,653,687

  Commitments and Contingencies (Note 14)

NET POSITION
  Unexpended Appropriations                                          $              22,158        $                 -      $         -         $           22,158
  Cumulative Results of Operations                                                (568,712)                   2,661,591           12,106                2,104,985

Total Net Position                                                                (546,554)                   2,661,591           12,106                2,127,143

Total Liabilities and Net Position                                   $           6,645,026        $           3,123,332    $      12,472       $        9,780,830




                                                         The accompanying notes are an integral part of these statements

                                                                                       100
                                                Federal Communications Commission
                                                 Consolidating Statement of Net Cost
                                                For the Year Ended September 30, 2002
                                                              (dollars in thousands)




                                                              FCC                         USF                   NANP           Consolidated
PROGRAM COSTS:
Licensing:
 Intragovernmental gross costs                         $          18,805            $             -         $          -   $          18,805
 Less: Intragovernmental earned revenue                             (274)                         -                    -                (274)
 Intragovernmental net costs                                      18,531                          -                    -              18,531

 Gross costs with the public                                      55,448                          -                    -               55,448
 Less: Earned revenues from the public                           (76,853)                         -                    -              (76,853)
 Net costs with the public                                       (21,405)                         -                    -              (21,405)
  Total net cost                                                  (2,874)                         -                    -               (2,874)


Competition:
 Intragovernmental gross costs                         $          27,368            $             -         $          -   $          27,368
 Less: Intragovernmental earned revenue                             (386)                         -                    -                (386)
 Intragovernmental net costs                                      26,982                          -                    -              26,982

 Gross costs with the public                                      80,624                          -                    -               80,624
 Less: Earned revenues from the public                          (108,113)                         -                    -             (108,113)
 Net costs with the public                                       (27,489)                         -                    -              (27,489)
  Total net cost                                                    (507)                         -                    -                 (507)


Enforcement:
 Intragovernmental gross costs                         $          17,899            $             -         $          -   $          17,899
 Less: Intragovernmental earned revenue                             (247)                         -                    -                (247)
 Intragovernmental net costs                                      17,652                          -                    -              17,652

 Gross costs with the public                                      52,728                          -                    -               52,728
 Less: Earned revenues from the public                           (69,073)                         -                    -              (69,073)
 Net costs with the public                                       (16,345)                         -                    -              (16,345)
  Total net cost                                                   1,307                          -                    -                1,307


Consumer Information Services:
 Intragovernmental gross costs                         $            8,994           $             -         $          -   $            8,994
 Less: Intragovernmental earned revenue                              (125)                        -                    -                 (125)
 Intragovernmental net costs                                        8,869                         -                    -                8,869

 Gross costs with the public                                      26,495                          -                    -               26,495
 Less: Earned revenues from the public                           (34,859)                         -                    -              (34,859)
 Net costs with the public                                        (8,364)                         -                    -               (8,364)
  Total net cost                                                     505                          -                    -                  505


Spectrum Management:
 Intragovernmental gross costs                         $          10,382            $             -         $          -   $          10,382
 Less: Intragovernmental earned revenue                             (147)                         -                    -                (147)
 Intragovernmental net costs                                      10,235                          -                    -              10,235

 Gross costs with the public                                      30,584                          -                    -               30,584
 Less: Earned revenues from the public                           (41,139)                         -                    -              (41,139)
 Net costs with the public                                       (10,555)                         -                    -              (10,555)
  Total net cost                                                    (320)                         -                    -                 (320)




                                                                      Page 1 of 2




                                          The accompanying notes are an integral part of these statements

                                                                       101
                                                 Federal Communications Commission
                                                  Consolidating Statement of Net Cost
                                                 For the Year Ended September 30, 2002
                                                               (dollars in thousands)




                                                               FCC                         USF                   NANP             Consolidated




Universal Service:

 Intragovernmental gross costs                          $              463          $              -         $          -     $             463
 Less: Intragovernmental earned revenue                                 (7)                        -                    -                    (7)
 Intragovernmental net costs                                           456                         -                    -                   456

 Gross costs with the public                                          1,364                 5,281,604                   -              5,282,968
 Less: Earned revenues from the public                               (1,807)                      -                     -                 (1,807)
 Net costs with the public                                             (443)                5,281,604                   -              5,281,161
  Total net cost                                                         13                 5,281,604                   -              5,281,617


Numbering:
 Intragovernmental gross costs                          $              -            $             -          $          -     $              -
 Less: Intragovernmental earned revenue                                -                          -                     -                    -
 Intragovernmental net costs                                           -                          -                     -                    -

 Gross costs with the public                                           -                          -                  9,685                 9,685
 Less: Earned revenues from the public                                 -                          -                (11,010)              (11,010)
 Net costs with the public                                             -                          -                 (1,325)               (1,325)
  Total net cost                                                       -                          -                 (1,325)               (1,325)


Credit Reform:
 Intragovernmental gross costs                          $         416,251           $              -         $          -     $         416,251
 Less: Intragovernmental earned revenue                           (26,000)                         -                    -               (26,000)
 Intragovernmental net costs                                      390,251                          -                    -               390,251

 Gross costs with the public                                      521,095                          -                    -                521,095
 Less: Earned revenues from the public                           (399,705)                         -                    -               (399,705)
 Net costs with the public                                        121,390                          -                    -                121,390
  Total net cost                                                  511,641                          -                    -                511,641


Total Net Program Costs                                 $         509,765           $       5,281,604        $      (1,325)   $        5,790,044


Cost not Assigned to Programs:
 Depreciation                                           $          10,716           $              -         $          -     $          10,716
 Telecommunications Development Fund                                  262                          -                    -                   262
 Other Expenses                                                     1,313                          -                    -                 1,313
                                                                                                                                            -
Less: Earned Revenues not Attributed to Programs:
 Telecommunications Development Fund                    $             (262)         $              -         $          -     $             (262)



Net Cost of Operations (Note 16)                        $         521,794           $       5,281,604        $      (1,325)   $        5,802,073




                                                                      Page 2 of 2




                                           The accompanying notes are an integral part of these statements

                                                                           102
                                                                                    Federal Communications Commission
                                                                              Consolidating Statement of Changes in Net Position
                                                                                   For the Year Ended September 30, 2002
                                                                                                      (dollars in thousands)

                                                                       FCC                                             USF                                           NANP                               Consolidated
                                                        Cumulative                                     Cumulative                                        Cumulative                           Cumulative
                                                          Results         Unexpended                     Results              Unexpended                   Results        Unexpended            Results          Unexpended
                                                       of Operations     Appropriations               of Operations          Appropriations             of Operations   Appropriations       of Operations      Appropriations

Beginning Balances                                 $         (183,265) $         24,012           $         2,424,623 $                  -          $             -   $             -    $        2,241,358 $             24,012
Prior period adjustments (Note 17)                            (22,073)              -                             -                      -                        -                 -               (22,073)                 -
New Reporting Entity (Note 29)                                                                                                                                 10,781                                10,781                  -
Beginning balances, as adjusted                              (205,338)           24,012                     2,424,623                    -                     10,781               -             2,230,066               24,012

Budgetary Financing Sources:
 Appropriations received                                          -             387,428                            -                     -                         -                -                   -                387,428
 Appropriations transferred in/out (+/-)                          -                 -                              -                     -                         -                -                   -                    -
 Other adjustments (recission, etc) (+/-)                         -            (220,338)                           -                     -                         -                -                   -               (220,338)
 Appropriations used                                          168,944          (168,944)                           -                     -                         -                -               168,944             (168,944)

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)                 (21,284)               -                            -                      -                         -                -               (21,284)                 -
 Imputed financing from costs absorbed by others               11,069                -                            -                      -                         -                -                11,069                  -
 Universal Service Fund Nonexchange Revenue                       -                  -                      5,518,572                    -                         -                -             5,518,572                  -
 Other (+/-)                                                     (309)               -                            -                      -                         -                -                  (309)                 -

Total Financing Sources                                       158,420             (1,854)                   5,518,572                    -                         -                -             5,676,992               (1,854)

Less: Net Cost of Operations                                  521,794                                       5,281,604                                           (1,325)                           5,802,073

Ending Balances                                    $         (568,712) $         22,158           $         2,661,591 $                  -          $          12,106 $             -    $        2,104,985 $             22,158




                                                                                  The accompanying notes are an integral part of these statements

                                                                                                                  103
                                                                             Federal Communications Commission
                                                                          Combining Statement of Budgetary Resources
                                                                            For the Year Ended September 30, 2002
                                                                                             (dollars in thousands)


                                                                           FCC                                                        USF                                 Consolidated
                                                                                 Non Budgetary                                            Non Budgetary                             Non Budgetary
                                                                                 Credit Program                                           Credit Program                            Credit Program
                                                            Budgetary          Financing Account                      Budgetary         Financing Account         Budgetary       Financing Account
Budgetary Resources:

Budget Authority
 Appropriations Received                                $         168,671     $                -              $           5,543,236     $             -       $        5,711,907    $           -
 Borrowing Authority                                                  -                      4,456                               -                    -                       -               4,456

Unobligated Balance:
 Beginning of Period (Note 21)                                     22,051                   18,175                        1,895,267                   -                1,917,318             18,175
Spending Authority from Offsetting Collections:
 Earned
   Collected                                                      312,914                  762,860                                -                   -                 312,914             762,860
   Receivable from Federal Sources                                      7                      -                                  -                   -                       7                 -
 Changed Unfilled Customer Orders
   Without Advance from Federal Sources                                 1                      -                                 -                    -                        1                -
Subtotal                                                          503,644                  785,491                        7,438,503                       -            7,942,147            785,491

Recoveries of Prior Year Obligations                                6,958                      -                                  -                   -                    6,958                -
Permanently not available                                         (15,524)                (343,145)                               -                   -                  (15,524)          (343,145)

Total Budgetary Resources                               $         495,078     $            442,346            $           7,438,503     $             -       $        7,933,581    $       442,346


Status of Budgetary Resources:

Obligations Incurred (Note 18):
 Direct                                                 $         476,192     $            420,777            $           5,210,436     $             -       $        5,686,628    $       420,777
 Reimbursable                                                       1,372                      -                                 -                    -                    1,372                -
 Subtotal                                                         477,564                  420,777                        5,210,436                   -                5,688,000            420,777
Unobligated Balance:
 Apportioned                                                        7,398                   21,569                               -                    -                    7,398             21,569
 Other Available                                                      -                        -                          2,228,067                   -                2,228,067                -
Unobligated Balance not Available                                  10,116                      -                                 -                    -                   10,116                -

Total Status of Budgetary Resources                     $         495,078     $            442,346            $           7,438,503     $             -       $        7,933,581    $       442,346


Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period (Note 21)   $          63,770     $                 -             $             343,627     $             -       $         407,397     $           -
Obligated Balance, net, End of Period:
 Accounts Receivable                                                  405                       -                               -                     -                     405                 -
 Unfilled Customer Orders from Federal Sources                       (532)                      -                               -                     -                    (532)                -
 Undelivered Orders                                                43,592                       -                               -                     -                  43,592                 -
 Accounts Payable                                                  12,186                       -                           397,180                   -                 409,366                 -

Outlays:
  Disbursements                                                   478,716                  420,777                        5,156,883                   -                5,635,599            420,777
  Collections                                                    (312,914)                (762,860)                              -                    -                 (312,914)          (762,860)
  Subtotal                                                        165,802                 (342,083)                       5,156,883                   -                5,322,685           (342,083)
Less: Offsetting Receipts                                          21,284                         -                              -                    -                   21,284                -
Net Outlays                                                       144,518                 (342,083)                       5,156,883                   -                5,301,401           (342,083)




                                                                        The accompanying notes are an integral part of these statements

                                                                                                      104
                                                                                        Federal Communications Commission
                                                                                        Consolidating Statement of Financing
                                                                                       For the Year Ended September 30, 2002
                                                                                                     (dollars in thousands)


                                                                                                           FCC                          USF                NANP             Consolidated
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                                               $          898,341           $        5,210,436    $          -     $        6,108,777
 Less: Spending authority from offsetting collections and recoveries                                         1,082,739                           -                -              1,082,739
 Obligations net of offsetting collections and recoveries                                                     (184,398)                   5,210,436               -              5,026,038
 Less: Offsetting receipts                                                                                      21,284                           -                -                 21,284
 Net obligations                                                                                              (205,682)                   5,210,436               -              5,004,754
Other Resources
 Transfers in/out without reimbursement (+/-)                                                                  (21,284)                           -               -                (21,284)
 Imputed financing from costs absorbed by others                                                                11,069                            -               -                 11,069
 Other (+/-)                                                                                                       309                            -               -                    309
 Net other resources used to finance activities                                                                 (9,906)                           -               -                 (9,906)

Total resources used to finance activities                                                                    (215,588)                   5,210,436               -              4,994,848

Resources Used to Finance Items not Part of the Net Cost of Operations

 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                             (8,264)                           -               -                 (8,264)
 Resources that fund expenses recognized in prior periods                                                      (23,975)                           -               -                (23,975)
 Budgetary offsetting collections and receipts that do not affect net cost of
 operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                  (739,915)                           -               -               (739,915)
   Other                                                                                                       399,705                            -               -                399,705
 Resources that finance the acquisition of assets                                                               15,773                            -               -                 15,773
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                    (5,623)                          -               -                 (5,623)

 Total resources used to finance items not part of the net cost of operations                                 (362,299)                           -               -               (362,299)

Total resources used to finance the net cost of operations                                                     146,711                    5,210,436               -              5,357,147

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                              1,255                            -               -                 1,255
 Upward/Downward reestimates of credit subsidy (+/-)                                                           366,685                            -               -               366,685
 Increase in exchange revenue receivable from the public                                                        (1,893)                           -               -                (1,893)
 Other (+/-)                                                                                                   (22,996)                           -               -               (22,996)
 Total components of Net Cost of Operations that will require or generate
 resources in future periods                                                                                   343,051                            -               -               343,051

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                   10,716                          -               -                 10,716
 Other (+/-)                                                                                                     21,316                       71,168          (1,325)              91,159
 Total components of Net Cost of Operations that will not require or generate
 resources                                                                                                       32,032                       71,168          (1,325)             101,875

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                375,083                        71,168          (1,325)             444,926

Net Cost of Operations                                                                              $          521,794           $        5,281,604    $      (1,325)   $        5,802,073




                                                                                The accompanying notes are an integral part of these statements

                                                                                                              105
                                                 Federal Communications Commission
                                                  Required Supplementary Information
                                                 For the Year ended September 30, 2002
                                                          (dollars in thousands)


STATEMENT OF BUDGETARY RESOURCES

The Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Federal Agency Financial Statements requires
additional disclosure of an entity's budgetary information by major budgetary account if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. The major budget accounts include the FCC and the Universal Service Fund. Reflected
in the chart below are the major accounts of the FCC that are aggregated and presented in the FY 2002 Combined Statement of Budgetary
Resources.




FY 2002                                                       S&E         Credit Reform    Auctions         USF             Total
Budgetary Resources:

Budget authority                                          $    26,285      $    146,842    $    -       $   5,543,236 $      5,716,363
Unobligated balances - beginning of period                     12,452            18,413       9,361         1,895,267        1,935,493
Spending authority from offsetting collections                231,948           765,916      77,918                 -        1,075,782
Adjustments                                                   (12,616)         (343,131)      4,036                           (351,711)
Total budgetary resources                                 $   258,069      $    588,040    $ 91,315     $   7,438,503 $      8,375,927


Status of Budgetary Resources:

Obligations incurred                                      $   249,720      $   563,578     $ 85,043     $   5,210,436 $      6,108,777
Unobligated balances - available                                4,500           24,462            5         2,228,067        2,257,034
Unobligated balances - not available                            3,849                -        6,267                 -           10,116
Total, status of budgetary resources                      $   258,069      $   588,040     $ 91,315     $   7,438,503 $      8,375,927


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period               $    41,719      $      2,700    $ 19,351     $    343,627 $         407,397
Obligated balance transferred, net                                  -                 -           -                -                 -
Obligated balance, net, end of period                          31,487             2,919      21,245          397,180           452,831

Outlays:
 Disbursements                                               257,035            563,345      79,113         5,156,883        6,056,376
 Collections                                                (231,941)          (765,916)    (77,917)                -       (1,075,774)
 Subtotal                                                     25,094           (202,571)      1,196         5,156,883        4,980,602
Less: Offsetting Receipts                                     21,284                  -           -                 -           21,284
Net Outlays                                               $    3,810       $   (202,571)   $ 1,196      $   5,156,883     $ 4,959,318




                                                                    106
               Federal Communications Commission
           Fiscal Year 2002 Annual Financial Report




    OTHER
ACCOMPANYING
 INFORMATION




     107
                                                              Federal Communications Commission
                                                          Fiscal Year 2002 Annual Financial Report

Incorporating Performance Measurement in Management Activities

The GPRA requires that Federal agencies establish standards to measure effectiveness and
performance in achieving their goals and objectives. The GPRA requires Federal agencies to:
develop a Strategic Plan covering the current and subsequent five fiscal years (revised every
three years); prepare an Annual Performance Plan setting out performance goals for one fiscal
year; and submit an Annual Program Performance Report comparing actual performance results
with performance goals as detailed in Figure 15.
          Figure 15: Interdependence of Elements Required by GPRA




   The FCC has taken numerous steps to ensure that performance measures are integrated into
   the day-to-day activities of the Commission and used by FCC staff to manage results.
   Recently, the FCC established a working group comprised of all the chiefs of staff from the
   bureaus and offices and in some cases, the assistant bureau chiefs for management. The
   working group meets during the planning cycle to discuss the Strategic Plan, the Annual
   Performance Plan, and performance measures that accurately reflect the Commission’s
   strategic goals and objectives. Additionally, the working group was created to help the
   Commission move towards performance budgeting. Accordingly, budget obligations-by-
   program-activity will eventually be aligned with an output, or a cluster of related outputs,
   intended to influence a single outcome. In this way, program costs can be matched with the
   outputs produced. The FCC recognizes that the GPRA is a valuable tool for achieving these
   ends, and has integrated performance measures into budget and management activities. In
   general, the following steps are taken:
         A. Coordination. PERM staff coordinates with the FCC Budget Office, the Chief
            Financial Officer (CFO), and the bureaus and offices to discuss the various
            performance reports including the Commission’s Strategic Plan, the development
            of performance measures for the Annual Performance Plan, evaluation processes,
            and the Annual Program Performance Report. Additionally, PERM coordinates
            efforts to ensure performance measures are incorporated into FCC operations.
         B. Review of Performance Measures. In response to requests from the Managing
            Director and PERM staff, bureaus and offices are asked to review performance

                                              108
                                                                        Federal Communications Commission
                                                                    Fiscal Year 2002 Annual Financial Report

                    measures and provide feedback on the previous year's Annual Performance Plan –
                    which measures are still useful, which should be modified, and whether there are
                    additional measures that would be useful from a management perspective.
               C. Develop Outcome Measures. Bureau and office chiefs are encouraged to develop
                  outcome measures, which reflect the intended result, effect, or consequence (e.g.,
                  impact) of carrying out a program or activity. Output goals, on the other hand,
                  result from process-related measures, and reflect the level of activity or effort over
                  a period of time (or by a specified date), including characteristics and attributes
                  (e.g., timeliness) set as standards for conducting the activity or effort.44 As a
                  regulatory agency, however, it is difficult to measure with certainty the market
                  impact of many of the FCC's measures. In addition, there are other limitations to
                  performance measurement: performance cannot be fully described by a single
                  indicator; indicators do not by themselves say why performance is at the level
                  reported; focusing on quantifiable indicators can sometimes have unintended
                  consequences; and, where performance measurement is feasible, the impacts will
                  likely occur over a period of time, not in a single fiscal year.
               D. Documentation. Once the results of the efforts to develop performance measures
                  are completed and analyzed, the new and revised measures are incorporated into
                  financial and budget documents and the Annual Performance Plan. PERM
                  maintains records of data collections from the bureaus/offices through a quarterly
                  report, described in E. below.
               E. Data Collection, Verification and Validation, and Creation of Quarterly Reports.
                  PERM collects relevant quarterly data on performance measures from the bureaus
                  and staff offices. The data is analyzed and summarized for the Quarterly
                  Performance & Results Review (QPRR). The FCC uses numerous methods and
                  techniques to verify and validate data as described in Section IV of the MD&A
                  (pp. 15-16).
               F. Information Sharing. The QPRR is distributed to management in all FCC
                  bureaus and staff offices as a management tool for assessing performance to date.
                  In addition, the QPRR is provided to, and used as a benchmark by, the Chief of
                  Staff and the Chairman.
               G. Management Tool. FCC management uses the QPRR information as a tool to
                  identify areas where goals are not being met, which enables PERM staff to work
                  with bureaus and offices to make adjustments as necessary throughout the year.
                  With the FCC's new pass/fail employee appraisal process, it is at the discretion of
                  each bureau and office manager to identify the key performance measures that will
                  be used for staff appraisals.
       The FCC strives to ensure that staff regularly assesses efforts to meet the FCC's performance
       goals so that appropriate progress is made throughout the year. As noted previously, the
       FCC is currently refining its methods of tracking FTE time and expenses by activity starting
       in FY 2003. Before the end of FY 2003, the FCC intends to begin testing the system with
       full implementation of the MCAS by FY 2004. Once implemented the MCAS will provide a
       robust and integrated financial management system supporting the partnership between

44
     OMB Circular A-11, Section 200, page 200-3, June 2002.


                                                              109
                                                            Federal Communications Commission
                                                        Fiscal Year 2002 Annual Financial Report

program and financial managers, assuring the integrity of information for decision making,
and measuring the full cost of the FCC's programs and their various elements, activities, and
outputs. By using such a cost accounting system, FCC management will have an increased
level of detail concerning the cost of doing business. Accurate, timely, and consistent
financial management data and information across FCC bureaus and offices, will then be
available simultaneously to program managers, financial managers, and budget officials.
A complete list of the FCC’s performance measures and the results of the FCC’s FY 2002
performance will be published in the FY 2002 Annual Program Performance Report when it
is published in early calendar year 2003. The report will be located on the FCC webpage at
http://www.fcc.gov/annual_reports.html.




Financial Performance Measures
The following additional administrative financial measures are included to highlight the
FCC’s performance in the areas of travel voucher processing, prompt payment interest,
remittance over secure Internet (e-commerce/ROSIE), electronic fund transfers (EFT),
application and licensing fees, fines and forfeitures, spectrum auctions, and budget figures.
These measures are separate from the Strategic Planning process and are not tracked in the
budget tables above. The AMD-FO monitors these financial measures.




                                            110
                                                                                           Federal Communications Commission
                                                                                       Fiscal Year 2002 Annual Financial Report



                                        Figure 16: Travel Voucher Processing
                                                      FY 2002
                                       2,200                                               2,099
                                                                        1,954
                                       2,000
 Number of travel vouchers processed



                                                   1,746
                                       1,800

                                       1,600

                                       1,400

                                       1,200

                                       1,000

                                        800

                                        600

                                        400

                                        200

                                          0
                                               FY 2000             FY 2001            FY 2002
                                                 6.5                7.95               8.34

                                                           Average number of processing days per voucher




The FCC’s travel voucher processing goal of ten working days begins with the receipt of a
correct voucher with all proper backup documentation. The Federal Travel Regulations
allow 30 days. During FY 2002, 2,099 travel vouchers were processed with an average
processing time of 8.34 working days. During FY 2001, a total of 1,954 travel vouchers
were processed with an average processing time of 7.95 working days. In FY 2000, fewer
travel vouchers were processed, a total of 1,746, with an average processing time of 6.5
working days.




                                                                         111
                                                              Federal Communications Commission
                                                          Fiscal Year 2002 Annual Financial Report



                Figure 17: Prompt Payment Interest
  $14,000
  $13,000
  $12,000
  $11,000
  $10,000
   $9,000
   $8,000
   $7,000
   $6,000
   $5,000
   $4,000
   $3,000
   $2,000
   $1,000
      $0
        Oct.   Nov.   Dec.   Jan   Feb    M ar    April   M ay   June   July   Aug    Sept
                      FY1999             FY2000              FY2001             FY2002



Total prompt payment interest incurred during FY 2002 was $7,840. The FCC processed
5,021 invoices totaling $91,653,172 during FY 2002 of which 890 invoices, totaling
$7,406,472, were subject to prompt payment interest.The total prompt payment interest
incurred during FY 2001 was $9,603. The FCC processed 4,802 invoices totaling
$64,565,269 during FY 2001 of which 912 invoices, totaling $6,333,546, were subject to
the late payment provisions of the Prompt Payment Act. During FY 2001, there was an
increase in purchases being processed by credit cards, therefore resulting in fewer invoices.
In FY 2000, total prompt payment interest incurred was $20,123. Included in this total was
$12,051 paid on travel from the central billing account in May due to a contract dispute
between the General Services Administrator (GSA) and the card processor. The total
number of invoices processed in FY 2000 was 6,421, totaling $59,420,521, of which 1,453
invoices, totaling $5,285,128, were subject to the late payment provisions of the Prompt
Payment Act.




                                           112
                                                                            Federal Communications Commission
                                                                        Fiscal Year 2002 Annual Financial Report


                   Figure 18: Remittance Over Secure Internet (ROSIE)
                                   (ROSIE Monthly Totals by Fiscal Year)

          $2,400,000
          $2,300,000                                                                              63,523 payments
          $2,200,000
                                                                                                  for $8,965,535
          $2,100,000
          $2,000,000
          $1,900,000
          $1,800,000
          $1,700,000
          $1,600,000
          $1,500,000
          $1,400,000
          $1,300,000
Dollars




          $1,200,000
          $1,100,000                                                                                         33,777
          $1,000,000                                                                                      payments for
            $900,000
                                                                                                           $5,448,725
            $800,000
            $700,000
            $600,000
            $500,000
            $400,000                                                                                     12,738 payments
            $300,000                                                                                     for $1,393,398
            $200,000
                                                                                                          207 payments
            $100,000
                                                                                                          for $19,709
                  $0
                       Oct   Nov    Dec    Jan    Feb     Mar     Apr      May     Jun      Jul    Aug          Sep)

                                                  2002   2001   2000    1999


              ROSIE, Remittance Over Secure Internet (E-Commerce), is a payment system, which allows
              license applicants to pay their application fees electronically via credit card. The system,
              built to Department of Treasury security specifications, employs the latest encryption
              technology and architecture to safeguard data. ROSIE is accessed via links in the licensing
              systems, which offer the electronic credit card payment option.
              ROSIE was implemented in August 1999, processing a total of 207 payments for $19,709 in
              FY 1999. In FY 2000, 12,738 payments for $1,393,398 were processed. In FY 2001, 33,777
              payments for a total of $5,448,725 were processed.
              ROSIE’s impressive record of steady growth continued, and even accelerated, during FY
              2002, in which 63,523 payments for a total of $8,965,535 were processed. As can be seen
              from the accompanying graph, ROSIE enjoyed its most successful month ever in September
              2002, in which $2,271,465 was collected, more than double our previous monthly high.
              The FCC has made enhancements to strengthen security and make ROSIE more customer-
              friendly. The FCC regards this venture into electronic commerce as a great success and may
              possibly expand the on-line payment option to include all payments made to the agency.




                                                         113
                                                                                         Federal Communications Commission
                                                                                     Fiscal Year 2002 Annual Financial Report


            Figure 19: Electronic Funds Transfer (EFT)
                       (Percent of Payments via EFT for FY 2002)
      120



               97.9            99.9
      100
                                                                                                                  94.1
                                                        88.3

                                                                                                   77.3
       80


                                                                                                                          All Agencies

       60                                 55.6                                                                            FCC
                                                                            54.4

                                                                                     45.1

       40




       20




        0
                      Salary                  Vendor                   Miscellaneous                      Total


             Figure 20: Percent of Payments via EFT
                        (Comparison of FYs 2000, 2001 and 2002)
      120



             99.9     99.9      99.9
      100
                                                                                                                  94.1
                                                        88.3                                           87.2
                                                                                                83.4
                                                 79.7
       80


                                       64.9
                                                                                                                         FY 2000
       60
                                                                                                                         FY 2001

                                                                                      45.1                               FY 2002


       40



                                                                     20.8     21.9
       20




        0
                    Salary                    Vendor                  Miscellaneous                    Total

The FCC has worked to increase its level of payments via EFT/direct deposit. Through
various outreach programs, such as including letters to vendors with contract and purchase
order mailings, offering e-mail notifications of EFT payments, and telephoning vendors,
the percentage of vendor payments via EFT has increased from 79.7% in FY 2001 to
88.3% in FY 2002. In FY 2000, that figure was 64.9%. There is also an initiative in
progress to increase the percentage of fee refunds via EFT. Currently, all refunds are paid
by check and comprise 98% of the FCC’s manual miscellaneous payments. The
Commission is endeavoring to convert these check payments to EFT by capturing bank



                                                               114
                                                            Federal Communications Commission
                                                        Fiscal Year 2002 Annual Financial Report

information from the applicant’s remittance. The FCC hopes to implement this capability
during FY 2003.

                       Figure 21: Regulatory Fees
                       (FY 1994 to Present in $ Millions)

              250

              200

              150

              100

               50

                 0
                     1994 1995 1996 1997 1998 1999 2000 2001 2002
      Expected 60.4 116            126     153    163    173     186    200     219
      Collected 58.7 119           127     156    155    174     187    207     220

The Fee Collection Program authorizes the Commission to prescribe charges for certain
regulatory services it provides to many of the communications entities within its jurisdiction.
Figure 21 above shows the Regulatory Fees collected since implementation in 1994.




                                           115
                                                                             Federal Communications Commission
                                                                         Fiscal Year 2002 Annual Financial Report



                     Figure 22: Authorization of Services
                              (FY 1987 to Present in $ Millions)
60                   56.5

                                           50.6                   51.0

50                                  46.3
                                                           42.7          42.8
             41.2
                                                   39.1
40                                                                               38.0

                                                                                        32.0

30                          27.5                                                                26.7   27.5
                                                                                                               25.2
                                                                                                                      21.6

20
      10.3
10

0
     1987           1989           1991           1993          1995            1997           1999           2001

 The Congressionally-mandated Fee Collection Program was implemented on April 1, 1987.
 Figure 22 above shows filing fees collected since the inception of the Fee Collection Program
 to date.




                                                          116
                                                          Federal Communications Commission
                                                      Fiscal Year 2002 Annual Financial Report



                  Figure 23: Fines and Forfeitures
                      (FY 1999 to Present in $ Millions)

          60

          50

          40

          30

          20

          10

           0
                   1999            2000             2001              2002
  Collected         4.2             13.7            51.7              38.8


In FY 2002, collections for fines and forfeitures totaled $38,753,010. In FY 2001,
collections for fines and forfeitures totaled $51,687,758. In FY 2000, the total amount
collected was $13,749,209, and in FY 1999, $4,160,504.
In 1999, the Commission approved a corporate merger. In its order, the Commission
adopted a "Performance Assurance Plan" designed to promote the quality of service
provided by one company to competitive carriers. The Performance Assurance Plan
requires the company to make voluntary payments to the Treasury if its wholesale service
quality falls below certain set standards. Because the performance fell below the standards
specified in the Commission's order, the company made substantial payments to the
Treasury in FY 2001 and continued payments under the consent decree in FY 2002.
Similar requirements were applicable to a second company. In calendar year 2001, their
performance also fell below the standards established in the Commission’s order and was
required to submit payments to the Treasury, which continued in FY 2002.




                                           117
                                                     Federal Communications Commission
                                                 Fiscal Year 2002 Annual Financial Report



         Figure 24: FY 2002 Collected & Anticipated
             Cash Flows Generated By Auctions
                       $159.5 Million



    Net Winning Bids for Non-
        Installment Loans
         $133.5 Million

                                                                Miscellaneous Revenue
                                                                     $26 Million




Net winning bids represent the total amount expected to be collected from FY 2002
Spectrum Auctions. Miscellaneous revenue includes assessed penalties, late fees and
unjust enrichments collected in FY 2002.




                                      118
                                                        Federal Communications Commission
                                                    Fiscal Year 2002 Annual Financial Report



         Figure 25: FY 2002 Budget Authority (BA)
                Distribution by Object Class
                                          0.5%
                                     Travel & Transportation
                                                            12%
                                                     Rent/Communications/
                                                           Utilities
                                                                   .5%
                                                                Printing &
                                                                Reproduction
    60%
Compensation &
   Benefits                                                           21%
                                                                 Contract Services
                                                                 (Federal & Non-Federal)




                                                            1%
                                                      Supplies & Materials
                                                 5%
                                               Equipment

Figure 25 illustrates the distribution of obligations by budget category in FY 2002
(excluding the USF funds and the Auctions Loan Program administrative funds). These
obligations are funded from multiple funding sources including annual appropriations,
offsetting collections (regulatory fees, interagency and travel reimbursements), and
Auctions Loan Program reimbursements. No gift and bequest funding was received in
FY 2002.




                                      119
                                                          Federal Communications Commission
                                                      Fiscal Year 2002 Annual Financial Report



   Figure 26: FY 2002 BA Distribution by Object Class
             Credit Program Account (0300)




     Contract             92%                                  8%       Compensation
Services/Federal &                                                       & Benefits
   Non-Federal




Figure 26 illustrates the distribution of administrative cost by budgetary category required
to provide for Auctions Loan Program activities in FY 2002.




                                          120
                                                        Federal Communications Commission
                                                    Fiscal Year 2002 Annual Financial Report

                GLOSSARY OF ACRONYMS

3G       Third generation (wireless systems)
AMD-FO   Associate Managing Director – Financial Operations
BA       Budget authority
BOC      Bell Operating Company
CFO      Chief Financial Officer
CGB      Consumer and Governmental Affairs Bureau
CIMS     Consumer Information Management System
CLEC     Competitive local exchange carrier
CMP      Civil monetary penalties
CORES    Commission Registration System
COTS     Commercial off-the-shelf
CSB      Cable Services Bureau
DBS      Direct broadcast satellite
DOC      U.S. Department of Commerce
DOD      U.S. Department of Defense
DOI      U.S. Department of the Interior
DOJ      U.S. Department of Justice
DOL      U.S. Department of Labor
DTV      Digital Television
EB       Enforcement Bureau
EFT      Electronic Funds Transfer
EPA      Environmental Protection Agency
FAA      Federal Aviation Administration
FASAB    Financial Accounting Standards Advisory Board
FCRA     Federal Credit Reform Act of 1990
FERS     Federal Employee Retirement System
FFS      Federal Financial System
FMFIA    Federal Managers Financial Integrity Act
FTC      Federal Trade Commission
FTE      Full-time equivalents
FY       Fiscal year
GAAP     Generally accepted accounting principles


                                      121
                                                       Federal Communications Commission
                                                   Fiscal Year 2002 Annual Financial Report

GAO     General Accounting Office
GPRA    Government Performance and Results Act of 1993
GSA     General Services Administration
IB      International Bureau
ICASS   International Cooperative Administrative Support Services
ICB     Information Collection Budget
ILEC    Incumbent local exchange carrier
IP      Internet protocol
IT      Information technology
ITS     International Telecommunications Settlement
IVDS    Interactive Video and Data Service
JFMIP   Joint Financial Management Improvement Program
Kbps    Kilobits per second
LNPA    Local Number Portability Administrator(s)
MB      Media Bureau
MCAS    Managerial Cost Accounting System
MDS     Multipoint Distribution Service
MMB     Mass Media Bureau
MSRC    Media Security and Reliability Council
MVPD    Multichannel video program distribution
NAL     Notice of Apparent Liability
NANC    North American Numbering Council
NANP    North American Numbering Plan
NANPA   North American Numbering Plan Administrator
NBANC   North American Billing and Collection, Inc.
NBC     National Business Center
NCES    National Center for Education Statistics
NFC     National Finance Center of the U.S. Department of Agriculture
NLS     Nortridge Loan System
NPRM    Notice of Proposed Rulemaking
NRIC    Network Reliability and Interoperability Council
NTIA    National Telecommunications and Information Administration
OALJ    Office of Administrative Law Judges
OCBO    Office of Communications and Business Opportunities


                                       122
                                                            Federal Communications Commission
                                                        Fiscal Year 2002 Annual Financial Report

OET           Office of Engineering and Technology
OGC           Office of the General Counsel
OIG           Office of Inspector General
OLA           Office of Legislative Affairs
OMB           Office of Management and Budget
OMD           Office of the Managing Director
OMR           Office of Media Relations
OPM           Office of Personnel Management
OPP           Office of Plans and Policy
OWD           Office of Workplace Diversity
PCS           Personal Communications Service
PP&E          Property, Plant and Equipment
PY            Prior year
QPRR          Quarterly Performance and Results Review
RSI           Required Supplementary Information
SBR           Statement of Budgetary Resources
SFFAC         Statement of Federal Financial Accounting Concepts
SFFAS         Statement of Federal Financial Accounting Standards
TDA           Telecommunications Development Account
TDF           Telecommunications Development Fund
Treasury      U.S. Department of the Treasury
TRS           Telecommunications Relay Service (Fund)
UCC           Uniform commercial code
U.S.          United States
USAC          Universal Service Administrative Company
USCS          United States Customs Service
USDA          United States Department of Agriculture
USF           Universal Service Fund
USF Program   The four support mechanisms of the USF and the TRS
WCB           Wireline Competition Bureau
WTB           Wireless Telecommunications Bureau
WTO           World Trade Organization
Y2K           Year 2000




                                              123
             SECTION V

  STATUS OF RECOMMENDATIONS FROM
PRIOR YEAR FINANCIAL STATEMENT AUDIT
 SECTION V                  STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT


   Starting with fiscal year 1999, the FCC’s financial statements have been subjected to audit pursuant
   to the Chief Financial Officers Act of 1990, as amended. This matrix consists of prior year
   financial statement audit recommendations to correct identified internal control weaknesses and
   their resolution status at the completion of the FY 2002 audit. A determination as to the status of
   each recommendation was based on the audit fieldwork at FCC and discussion with FCC officials.

                                                                                      Resolution Classification (X)




                                                                                                        In Progress



                                                                                                                                 No Action
                                                                                             Complete




                                                                                                                      Planning
           CONDITIONS                                RECOMMENDATIONS




 MATERIAL
 WEAKNESSES
I. Financial Reporting                      1. Implement an effective quality control                   X
   (Modified Repeat Condition)                 mechanism to ensure that a senior official
    A. Internal Controls on the                other than the preparer reviews the
       Preparation of Financial                financial statements prior to issuance.
       Statements
    B. Supervisory Review of the           2.   Ensure that USF and TRS financial                       X
       USF and TRS Fund                         information provided by the USAC and
       Financial Reporting Process              NECA, respectively, are reviewed for
                                                accuracy, reasonableness, and propriety
                                                prior to its incorporation in the FCC
                                                consolidated financial statements.
                                                Establish two-way open communications
                                                allowing USAC and NECA to review
                                                USF information included in the FCC
                                                consolidated statements.
    C. Changes in Accounting for            3. Formalize and continue the assignment of      X
       Program Costs                           one or more FO staff who will be
                                               responsible for obtaining an in-depth
                                               understanding of the USF and the TRS
                                               financial operations, and who will work
                                               with the Common Carrier Bureau to
                                               comprehensively review financial and
                                               operational information provided by
                                               USAC and NECA.
    D. Auditable Financial Data for         4. Document clearly the legal, financial, and                             X
       the LNPA                                operational boundaries of FCC, USF,
                                               TRS, USAC, and NECA. With the
                                               assistance of OGC, USAC, and NECA,
                                               FCC management needs to formally
                                               define in writing each financial
                                               management role and responsibility to
                                               avoid confusion and misunderstanding.
    E. Integrated Financial                5. Develop a formal financial reporting                      X
       Management Systems                      compilation process that adequately


02-AUD-08-16            REPORT ON THE FEDERAL COMMUNICATIONS                                                          Page 1
                        COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V                    STATUS OF RECOMMENDATIONS FROM
                             PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                 Resolution Classification (X)




                                                                                                   In Progress



                                                                                                                            No Action
                                                                                        Complete




                                                                                                                 Planning
           CONDITIONS                           RECOMMENDATIONS




        (Modified Repeat Condition)       addresses the processes and the issues
                                          arising from consolidating the USF and
                                          TRS.
   F. Federal Financial System         6. Revise the Financial Coding Handbook’s                   X
      Setup and Posting Model             activity codes and implement cost
      Definitions                         accumulation techniques to track the
      (Modified Repeat Condition)         costs of FCC reporting entity’s five
                                          programs (excluding credit reform which
                                          is tracked separately.) In addition, FCC
                                          should track the USF program costs
                                          incurred by the FCC reporting entity.
   G. Record Activities Timely        7. Provide clear, consistent and uniform                     X
      and Prepare and Analyze             terminology and definition of each
      Financial Activity                  program, especially the Spectrum
      (Modified Repeat Condition)         Management program. Clearly document
                                          and outline direct costs that should be
                                          charged to each program
   H. FACTS I Reporting Process       8. Train employees on the proper use of the       X
                                          revised activity codes and emphasize the
                                          importance of properly coding their time.
   I.   Combination of Reportable     9. Obtain adequate auditable information                     X
        Conditions May Materially         from LNPA to support its financial
        Impact Financial Statements       information.
        (Repeat Condition)
                                      10. Assess the degree of integration that the                X
                                          RAMIS will provide in the overall
                                          financial management systems.
                                          Document the plan outlining the steps
                                          taken (i.e., processes, data stewardship,
                                          management information, systems
                                          architecture, internal control) to meet a
                                          unified set of financial systems linked
                                          together electronically in an efficient and
                                          effective manner to provide agency-wide
                                          financial system support.
                                      11. Continue to update and correct FFS to                    X
                                          comply with the transaction posting
                                          models consistent with standard general
                                          ledger guidance and policies when
                                          recording and classifying transactions.
                                          Ensure that changes made to FFS are
                                          tested and accepted before they go into
                                          live production.
                                      12. Continue to review all frequently used                   X
                                          transaction types and transaction codes to

02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                                                       Page 2
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V                    STATUS OF RECOMMENDATIONS FROM
                             PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                Resolution Classification (X)




                                                                                                  In Progress



                                                                                                                           No Action
                                                                                       Complete




                                                                                                                Planning
          CONDITIONS                          RECOMMENDATIONS




                                         ensure that the accounting entries (budget
                                         and proprietary) are correct.
                                   13.   Record transactions on a timely basis.                   X
                                         Proper cut-off should be implemented
                                         when preparing interim financial
                                         statements.
                                   14.   Provide focused training, such as                        X
                                         FACTS I report preparation to staff
                                         responsible for the preparation and
                                         review of these reports.
                                   15.   Review any official financial reports prior   X
                                         to their issuance to ensure the accuracy
                                         and propriety of the data.
II. Cost Accounting System         16.   Review the propriety of the costing                      X
    (Modified Repeat Condition)          methodology and the matching of earned
                                         revenue against costs (costing
                                         methodologies).
                                   17.   Determine outputs for all responsibility                 X
                                         segments as required and calculate the
                                         cost per unit of each type of output.
                                   18.   Document the costing methodologies and                   X
                                         process in a formal policy and procedure
                                         manual or handbook. Management
                                         should determine which cost objects to
                                         define, the costing methodology to use,
                                         the type of costs to include for each
                                         reporting or decision making purpose
                                         (i.e., full cost), and other items of a
                                         similar nature.
                                   19.   Evaluate the adequacy of the cost                        X
                                         accounting system or other cost-finding
                                         techniques (cost systems) in accumulating
                                         and allocating costs, matching revenue,
                                         accounting, and generating financial
                                         information. The cost systems should
                                         meet the minimum requirements outlined
                                         in the Joint Financial Management
                                         Improvement Program (JFMIP) Systems
                                         Requirements for Managerial Cost
                                         Accounting.
                                   20.   Ensure that appropriate employees of                     X
                                         bureaus and offices fully understand the
                                         importance of properly classifying costs
                                         and are trained on the proper application
                                         of the activity codes.

02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                                                       Page 3
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V                     STATUS OF RECOMMENDATIONS FROM
                              PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                Resolution Classification (X)




                                                                                                  In Progress



                                                                                                                           No Action
                                                                                       Complete




                                                                                                                Planning
           CONDITIONS                          RECOMMENDATIONS




III. USF Financial Reporting         21. Obtain a clear understanding of the                      X
     (Modified Repeat Condition)         accounting services to be provided by the
                                         contractor as described in its contract.
                                         Accounting functions determined not to
                                         be included in the accounting services
                                         contract should be performed by USAC.
                                     22. Establish a formal accounting system                                              X
                                         where dual entry method and budgetary
                                         accounting entries, if appropriate, are
                                         recorded at the transaction level.
                                     23. Ensure that generally accepted accounting                                         X
                                         principles for Federal entities are applied
                                         to USF (and TRS) in accordance with
                                         OMB Bulletin No. 01-09, section 1.4.
                                     24. Perform supervisory review to ensure that                X
                                         reports and financial data are accurate,
                                         reasonable and properly classified.
                                     25. Reconcile, on a monthly basis, the                       X
                                         subsidiary/supporting records to the
                                         general ledger/control spreadsheets,
                                         whichever is currently used.
                                     26. Strengthen review procedures to identify                 X
                                         any questioned costs prior to making a
                                         disbursement by ensuring that adequate
                                         supporting documentation is provided and
                                         examined prior to approving
                                         disbursements.
IV. Loans Receivable And Related     27. Until RAMIS and the loan servicing                       X
    Accounts                             become operational, and FCC continues
    (Repeat Condition)                   to use the loan models, it should:
    A. FCC Current Loan                  a) Develop written policies and
       Subsidiary Ledger System              procedures for the use and review of
       (Modified Repeat Condition)           the loan models and related output;
                                             and
                                         b) Continue to implement a thorough
                                             review and analysis of activities
                                             included and excluded in the loan
                                             models.
    B. General Ledger to the         28. Ensure that the loan subsidiary system                   X
       Subsidiary Ledger Balance         being tested (RAMIS) is capable of
       Reconciliations                   interfacing with other financial
       (Modified Repeat Condition)       management systems and meets all
                                         applicable requirements in the Direct
                                         Loan System Requirements issued by
                                         JFMIP.

02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                                                      Page 4
                      COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                 Resolution Classification (X)




                                                                                                   In Progress



                                                                                                                            No Action
                                                                                        Complete




                                                                                                                 Planning
          CONDITIONS                           RECOMMENDATIONS




                                     29. Record loan activities promptly to                        X
                                         maintain their relevance and value to
                                         management in controlling operations and
                                         making decisions.
                                     30. Reconcile general ledger balances to the                  X
                                         subsidiary records consistently on a
                                         monthly basis.
V. Information Technology            31. Conduct risk assessments for the FCC                      X
   A. Compliance with OMB                general support systems and major
       Circular No. A-130                applications.
       Requirement for a
       Comprehensive Security
       Plan
       (Modified Repeat Condition)
   B. Inadequacies and               32. Develop and implement security plans for                  X
       Inconsistencies in the            FCC’s major application systems and
       Mainframe and Network             mission-critical general support systems.
       Access Request Process
       (Repeat Condition)
   C. Accelerate Efforts to          33. Certify and accredit FCC’s major                          X
       Develop and Test FCC’s            applications and general support systems,
       Contingency Plans                 based on the security plans developed and
       (Repeat Condition)                implemented.
                                     34. Establish a system to periodically review                 X
                                         security controls over FCC’s computer
                                         systems in accordance with
                                         OMB Circular No. A-130, Appendix III.
                                     35. Address inadequacies and inconsistencies                  X
                                         in the mainframe and network access
                                         request process.
                                     36. Enhance audit trail facility utilization and              X
                                         review.
                                     37. Develop and implement a FCC-wide                          X
                                         security plan as prescribed by
                                         OMB Circular No. A-130.
                                     38. Develop and test contingency plans for                    X
                                         FCC’s major applications, networks and
                                         telecommunications facilities.
                                     39. Obtain written documentation from                         X
                                         FCC’s data centers of developed and
                                         tested contingency plans and participate
                                         in the scheduled tests of the plans.
                                     40. Develop a comprehensive contingency                       X
                                         plan that integrates the individual plans of
                                         its data centers, networks, and

02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                                                        Page 5
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
 SECTION V                     STATUS OF RECOMMENDATIONS FROM
                               PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                 Resolution Classification (X)




                                                                                                   In Progress



                                                                                                                            No Action
                                                                                        Complete




                                                                                                                 Planning
            CONDITIONS                          RECOMMENDATIONS




                                           telecommunications facilities.
REPORTABLE
CONDITIONS
VI. Controls Surrounding Data         41. Formalize the policies and procedures         X
    Used in the Preparation of the        and include, among others, clear
    Management Discussion and             definitions of the roles and
    Analysis                              responsibilities of the offices and bureaus
                                          and PERM, including the responsibility
                                          for validating the data, and maintaining
                                          the records for future verification.
                                      42. Test the reliability, accuracy and                       X
                                          propriety of the data generated from the
                                          systems used in accumulating the
                                          performance data.
VII. Internal Controls over Certain   43. Ensure that RAMIS and CORES, when                        X
     Accounts Receivable                  fully operational, address and provide
     (Modified Repeat Condition)          solutions to weaknesses noted throughout
     A. Regulatory Fees                   this report.



    B. Application Processing Fees    44. Finalize the documentation and                           X
                                          implement standard procedures for
                                          bureaus to review payment of fees prior
                                          to processing an application. Verify
                                          compliance with the internal controls
                                          documented in the procedure manual.
VIII. Supporting Documentation and    45. Review capitalized software and software      X
      Controls on Property and            maintenance costs on a periodic basis.
      Equipment                           Reconcile the amounts in the BOC
      (Modified Repeat Finding)           accounts to the capitalized asset or SGL
     A. Capitalized Costs Not             account monthly.
        Distinguished from Non-
        Capitalized Costs
     B. Accounting for In-Process     46. Ensure that the Planning and Support          X
        and Completed Software            Group effectively review all Information
                                          Technology Center service related
                                          requests for proper BOC entries.
                                      47. Strictly implement FCC policy requiring       X
                                          that software and systems’ owners certify
                                          the transfer of a software system from
                                          development to operations (in-service) in
                                          order for the proper classification and
                                          proper depreciation of asset.
                                      48. Ensure that in-service certification          X

 02-AUD-08-16          REPORT ON THE FEDERAL COMMUNICATIONS                                                      Page 6
                       COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                             Resolution Classification (X)




                                                                                               In Progress



                                                                                                                        No Action
                                                                                    Complete




                                                                                                             Planning
          CONDITIONS                         RECOMMENDATIONS




                                       documents are prepared, signed and dated
                                       by the appropriate parties at the time the
                                       software is moved from in-process to
                                       operations.
                                   49. Review the effectiveness of current                     X
                                       spreadsheets used in tracking completed
                                       and in-service software.
                                   50. Perform quality control reviews of the                  X
                                       software spreadsheets or its successor to
                                       insure that data are accurate, reliable,
                                       proper and correct.
IX. Controls over Accounts         51. Correct old outstanding transactions still              X
    Receivable and Accounts            in the OBDR and OAPR.
    Payable Subsidiary Records
    (Modified Repeat Condition)
                                   52. Minimize the use of journal vouchers. If     X
                                       a journal voucher has to be prepared,
                                       ensure that the appropriate subsidiary
                                       ledger is adjusted for the effect of the
                                       journal voucher.
                                   53. Consider using a sub-SGL account (i.e.,                 X
                                       SGL 2110.1) to account for auction-
                                       related payables. This will allow
                                       management to perform an effective and
                                       efficient review of the accounts payable
                                       and the auction-related transactions.
X. Compliance with Certain         54. Document and implement a migration                      X
   Aspects of the Clinger-Cohen        strategy for the RAMIS application.
   Act of 1996
                                   55. Commit adequate resources to the                        X
                                       management of the RAMIS project.
                                   56. Adopt FCC’s SDLC methodology for IT                     X
                                       systems to the RAMIS project.
                                   57. ITC should provide guidance to FCC on                   X
                                       major IT investment initiatives.
                                   58. Ensure that RAMIS project management                    X
                                       reports are accurate, and provide decision
                                       makers with timely information.
                                   59. Ensure that major IT investments such as                X
                                       RAMIS, are subject to periodic review at
                                       key milestone dates.
XI. OMB Circulars No. A-127 and    60. Institute a program for conducting                      X
    A-130 Reviews                      periodic reviews in accordance with
     (Repeat Condition)                OMB Circulars No. A-127 and A-130.


02-AUD-08-16         REPORT ON THE FEDERAL COMMUNICATIONS                                                    Page 7
                     COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION V               STATUS OF RECOMMENDATIONS FROM
                        PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                         Resolution Classification (X)




                                                                                           In Progress



                                                                                                                    No Action
                                                                                Complete




                                                                                                         Planning
          CONDITIONS                     RECOMMENDATIONS




                                61. Include the results of OMB Circulars No.               X
                                    A-127 and A-130 reviews as part of
                                    Section 4 reporting in FCC’s annual
                                    FMFIA report.




02-AUD-08-16      REPORT ON THE FEDERAL COMMUNICATIONS                                                   Page 8
                  COMMISSION’S FY 2002 FINANCIAL STATEMENTS
       SECTION VI

ACRONYMS & ABBREVIATIONS
SECTION VI     ACRONYMS & ABBREVIATIONS




   ADP         Automated data processing
   AGW         Account Grouping Worksheet
   APP         Annual performance plan
   APPR        Annual program performance report
   CFO Act     Chief Financial Officers Act of 1990
   CFO         Chief Financial Officer
   COALS       Cable Operations and Licensing System
   CORES       Commission Registration System
   CSO         Computer Security Officer
   COOPNet     Continuity of Operations Planning Network
   COOP        Continuity of operations plan
   DCIA        Debt Collection Improvement Act of 1996
   E/MTS       Electronic Management Tracking System
   FACTS I     Federal Agencies’ Centralized Trial-Balance System
   FCC         Federal Communications Commission
   FFMIA       Federal Financial Management Improvement Act of 1996
   FFS         Federal Financial System
   FIPS PUBS   Federal Information Processing Standards Publications
   FMFIA       Federal Managers’ Financial Integrity Act of 1982
   FMS         Financial Management Service
   FOC         Financial Operation Center
   FRN         FCC Registration Number
   FY          Fiscal year
   GAAP        Generally accepted accounting principles
   GAO         General Accounting Office
   GMRA        Government Management Reform Act of 1994
   GPRA        Government Performance and Results Act of 1993
   GSS         General Support System
   HRM         Human Resource Management
   IC Report   Independent Auditor’s Report on Internal Control
   IT          Information technology
   ITC         Information Technology Center
   JFMIP       Joint Financial Management Improvement Program
   LNPA        Local Number Portability Administration
   MD&A        Management Discussion and Analysis
   NANP        North American Numbering Plan
   NFC         National Finance Center
   OGC         Office of the General Counsel
   OIG         Office of Inspector General
   OMB         Office of Management and Budget
   RAMIS       Revenue Accounting and Management Information System




02-AUD-08-16   REPORT ON THE FEDERAL COMMUNICATIONS                    Page 1
               COMMISSION’S FY 2002 FINANCIAL STATEMENTS
SECTION VI     ACRONYMS & ABBREVIATIONS



   SDLC        System development life cycle
   SFFAC       Statement of Federal Financial Accounting Concepts
   SFFAS       Statement of Federal Financial Accounting Standards
   SM          Spectrum Management
   SNC         Statement of Net Cost
   TFM         Treasury Financial Manual
   TROR        Treasury Report on Receivables
   TRS         Telecommunications Relay Services Fund
   USAC        Universal Service Administrative Company
   USF         Universal Service Fund
   USSGL       United States Standard General Ledger




02-AUD-08-16   REPORT ON THE FEDERAL COMMUNICATIONS                  Page 2
               COMMISSION’S FY 2002 FINANCIAL STATEMENTS
